NO. __________
IN THE

Supreme Court of the United States
MARCH FOR LIFE EDUCATION AND DEFENSE FUND,
Petitioner,
v.
CALIFORNIA, ET AL.,
Respondents.
On Petition for Writ of Certiorari to the
United States Court of Appeals for the Ninth Circuit
PETITION FOR A WRIT OF CERTIORARI
KEVIN H. THERIOT
KENNETH J. CONNELLY
ALLIANCE DEFENDING
FREEDOM
15100 N. 90th Street
Scottsdale, AZ 85260
(480) 444-0020
BRIAN R. CHAVEZ-OCHOA
CHAVEZ-OCHOA LAW
OFFICES, INC.
4 Jean Street, Suite 4
Valley Springs, CA 95252
(209) 772-3013

KRISTEN K. WAGGONER
JOHN J. BURSCH
Counsel of Record
DAVID A. CORTMAN
RORY T. GRAY
ALLIANCE DEFENDING
FREEDOM
440 First Street, N.W.
Suite 600
Washington, D.C. 20001
(616) 450-4235
jbursch@ADFlegal.org

Counsel for Petitioner

i
QUESTIONS PRESENTED
This Court recently granted review in Little
Sisters of the Poor Saints Peter and Paul Home v.
Pennsylvania, No. 19-431, and Trump v. Pennsylvania, No. 19-454, to determine whether the federal
government lawfully exempted religious and moral
objectors from federal regulatory requirements to
provide health plans that include abortifacient and
contraceptive coverage. This case raises the identical
issue for Petitioner March for Life, which holds a nonreligious, moral conviction that all humans have
worth and all abortions are wrong. If the Court rules
for the petitioners in Little Sisters and Trump, the
decision will be outcome dispositive of the second
question presented here, warranting a GVR. But
there is also a threshold standing issue that the Court
could address either in Little Sisters and Trump or
here.
The questions presented are:
1. Whether states have Article III standing to
challenge the religious and moral exemptions based
on a hypothetical increase in their discretionary,
voluntary healthcare spending.
2. Whether the federal government lawfully
exempted religious and moral objectors from the
federal regulatory requirement to provide health
plans that include abortifacient and contraceptive
coverage.

ii
PARTIES TO THE PROCEEDING AND
CORPORATE DISCLOSURE
Petitioner is March for Life Education and
Defense
Fund,
Intervenor-Defendant-Appellant
below.
The state Respondents are the States of
California, Connecticut, Delaware, Hawaii, Illinois,
Maryland, Minnesota, New York, North Carolina,
Rhode Island, Washington, and Vermont, the
Commonwealth of Virginia, and the District of
Columbia, Plaintiffs-Appellees below.
The federal Respondents are the U.S. Department
of Health & Human Services; Alex M. Azar II, in his
official capacity as Secretary of the U.S. Department
of Health & Human Services; U.S. Department of
Labor; R. Alexander Acosta, in his official capacity as
Secretary of the U.S. Department of Labor; U.S.
Department of the Treasury; and Steven Terner
Mnuchin, in his official capacity as Secretary of the
U.S. Department of the Treasury; DefendantsAppellants below.
The private Respondent is the Little Sisters of the
Poor Jeanne Jugan Residence, Intervenor-DefendantAppellant below.
Petitioner March for Life Education and Defense
Fund is a non-profit corporation with no parent
entities that does not issue stock.

iii
LIST OF ALL PROCEEDINGS
U.S. Court of Appeals for the Ninth Circuit, Nos.
19-15072, 19-15118, 19-15150, California v. U.S.
Department of Health & Human Services, judgment
entered October 22, 2019.
U.S. Court of Appeals for the Ninth Circuit, Nos.
18-15144, 18-15166, 18-15255, California v. Azar,
judgment entered December 13, 2018.
U.S. District Court for the Northern District of
California, No. 17-cv-05783-HSG, California v.
Health & Human Services, final judgment entered
January 13, 2019.
U.S. District Court for the Northern District of
California, No. 17-cv-05783-HSG, California v.
Health & Human Services, final judgment entered
December 21, 2017.


iv
TABLE OF CONTENTS
QUESTIONS PRESENTED ....................................... i
PARTIES TO THE PROCEEDING AND
CORPORATE DISCLOSURE .............................. ii
LIST OF ALL PROCEEDINGS ................................ iii
TABLE OF AUTHORITIES ................................... viii
DECISIONS BELOW................................................. 1
STATEMENT OF JURISDICTION .......................... 2
PERTINENT CONSTITUTIONAL,
STATUTORY, AND REGULATORY
PROVISIONS........................................................ 2
INTRODUCTION ...................................................... 3
STATEMENT OF THE CASE ................................... 7
A. The ACA’s “preventive care and
screenings” requirement for women. .............. 7
B. The widespread litigation sparked by the
agencies’ choice and the modifications the
agencies made pre-Zubik. ............................... 9
C. Zubik and its aftermath ................................ 13
D. March for Life and its lawsuit ...................... 15
E. The agencies reconsider and create broader
conscience exemptions................................... 16

v
F. The plaintiff States sue, and the Ninth
Circuit affirms an injunction against the
final rules. ...................................................... 18
REASONS FOR GRANTING THE WRIT............... 20
I. Article III standing is a basic constitutional
requirement, and this Court has an
independent duty to ensure it exists.................. 21
II. The States lack standing to challenge the final
rules, and the Ninth Circuit erred in refusing
to dismiss their suit. ........................................... 22
A. The States bear the burden of proving
standing’s three elements. ............................ 22
B. Because the States have no rights or
obligations at stake, and their standing
theory depends on rank speculation and
self-imposed harm, they cannot show an
injury in fact. ................................................. 23
1. The States have no right to an indirect
financial windfall. .................................... 24
2. Any injury to the States’ fiscs is entirely
self-imposed…….… .................................. 25
3. The States’ claimed fiscal injury is
abstract and not certainly impending. .... 26
4. The States allege a non-particularized
harm that treats federal courts as
general complaint bureaus. ..................... 28

vi
C. Because the States’ alleged injury is selfinflicted and depends on the presumed
choices of multiple third parties, they
cannot show causation or redressability. ..... 29
III.The agencies had statutory authority to issue
the moral and religious exemptions, which are
legally permissible (if not required) and not
arbitrary or capricious. ....................................... 30
A. The final regulations are within the
agencies’ gap-filling authority. ..................... 31
B. The agencies’ conscious exemptions are not
arbitrary or capricious................................... 33
IV.The questions presented require this Court’s
resolution. ........................................................... 34
CONCLUSION ......................................................... 36

APPENDIX TABLE OF CONTENTS
United States Court of Appeals
for the Ninth Circuit,
Opinion in 19-15072, 19-15118, and 19-15150
Issued October 22, 2019 ........................................... 1a
United States District Court
Northern District of California,
Opinion in 17-cv-05783-HSG
Issued January 13, 2019 ........................................ 53a
U.S. Constitutional Provisions ............................ 122a

vii
5 U.S.C. 706(2)(A) ................................................ 123a
26 U.S.C. 4980D ................................................... 124a
26 U.S.C. 4980H ................................................... 131a
26 U.S.C. 5000A ................................................... 139a
42 U.S.C. 300gg-13(a) .......................................... 154a
42 U.S.C. 2000bb-1............................................... 156a
42 U.S.C. 2000bb-2(1) .......................................... 157a
42 U.S.C. 2000bb-3(a) .......................................... 157a
45 C.F.R. 147.131(a) (2013) ................................. 158a
45 C.F.R. 147.131 ................................................. 159a
45 C.F.R. 147.132 ................................................. 167a
45 C.F.R. 147.133 ................................................. 171a
Excerpt from 83 Fed. Reg. 57592
(Nov. 15, 2018) ..................................................... 175a
Excerpt from 83 Fed. Reg. 57536
(Nov. 15, 2018) ..................................................... 179a


viii
TABLE OF AUTHORITIES
Cases
Alfred L. Snapp & Son, Inc. v. Puerto Rico
exrel. Barez,
458 U.S. 592 (1982) .............................................. 28
Allen v. Wright,
468 U.S. 737 (1984) ....................................... passim
Arizona Christian School Tuition Organization
v. Winn,
563 U.S. 125 (2011) ........................................ 21, 26
Arizonans for Official English v. Arizona,
520 U.S. 43 (1997) .......................................... 21, 22
Burwell v. Hobby Lobby Stores, Inc.,
573 U.S. 682 (2014) .................................. 7, 8, 9, 11
California v. Azar,
911 F.3d 558 (9th Cir. 2018) .................... 18, 19, 24
Clapper v. Amnesty International USA,
568 U.S. 398 (2013) ....................................... passim
Department of Commerce v. New York,
139 S. Ct. 2551 (2019) .......................................... 19
Diamond v. Charles,
476 U.S. 54 (1986) .................................... 27, 28, 35
Doe v. Bolton,
410 U.S. 179 (1973) ................................................ 3

ix
FCC v. Fox Television Stations, Inc.,
556 U.S. 502 (2009) .............................................. 33
Gill v. Whitford,
138 S. Ct. 1916 (2018) .......................................... 28
Gillette v. United States,
401 U.S. 437 (1971) .............................................. 32
Hein v. Freedom From Religion Foundation, Inc.,
551 U.S. 587 (2007) .............................................. 28
Little Sisters of the Poor Home for the Aged,
Colorado v. Sebelius,
571 U.S. 1171 (2014) ............................................ 11
Lujan v. Defenders of Wildlife,
504 U.S. 555 (1992) ....................................... passim
March for Life v. Azar,
No. 15-5301, 2018 WL 4871092
(Sept. 17, 2018) .................................................... 17
March for Life v. Burwell,
128 F. Supp. 3d 116 (D.D.C. 2015) ...................... 16
Mayo Foundation for Medical Education &
Research v. United States,
562 U.S. 44 (2011) .......................................... 31, 32
New Jersey v. Sargent,
269 U.S. 328 (1926) .............................................. 24
Pennsylvania v. New Jersey,
426 U.S. 660 (1976) .............................................. 25

x
Pennsylvania v. President United States,
930 F.3d 543 (3d Cir. 2019) ................................. 35
Roe v. Wade,
410 U.S. 113 (1973) ................................................ 3
Spokeo, Inc. v. Robins,
136 S. Ct. 1540 (2016) .......................................... 22
Steel Company v. Citizens for a Better
Environment,
523 U.S. 83 (1998) ................................................ 21
Summers v. Earth Island Institute,
555 U.S. 488 (2009) .............................21, 23, 25, 27
Town of Chester v. Laroe Estates, Inc.,
137 S. Ct. 1645 (2017) .......................................... 21
United States v. Mead Corp.,
533 U.S. 218 (2001) .............................................. 31
United States v. Texas,
136 S. Ct. 906 (2016) ............................................ 34
United States v. Texas,
136 S. Ct. 2271 (2016) .......................................... 34
Vermont Agency of Natural Resources v. United
States ex rel. Stevens,
529 U.S. 765 (2000) ................................................ 6
Virginia House of Delegates v. Bethune-Hill,
139 S. Ct. 1945 (2019) .............................. 21, 23, 35
Warth v. Seldin,
422 U.S. 490 (1975) .............................21, 22, 24, 27

xi
Welsh v. United States,
398 U.S. 333 (1970) .............................................. 32
Wheaton College v. Burwell,
573 U.S. 958 (2014) .............................................. 12
Whitmore v. Arkansas,
495 U.S. 149 (1990) ........................................ 26, 27
Wittman v. Personhuballah,
136 S. Ct. 1732 (2016) .................................... 23, 35
Zubik v. Burwell,
135 S. Ct. 2924 (2015) .......................................... 13
Zubik v. Burwell,
136 S. Ct. 1557 (2016) .......................................... 14
Statutes
26 U.S.C. 4980D ......................................................... 9
26 U.S.C. 4980H ......................................................... 9
26 U.S.C. 9833 ...................................................... 8, 31
28 U.S.C. 1254(1) ....................................................... 2
28 U.S.C. 1291 ............................................................ 2
28 U.S.C. 1331 ............................................................ 2
29 U.S.C. 1003(b)(2) ................................................. 11
29 U.S.C. 1132 ............................................................ 9
29 U.S.C. 1191c .................................................... 8, 31

xii
42 U.S.C. 300gg-13 ........................................... 7, 8, 31
42 U.S.C. 300gg-92 ............................................... 8, 31
42 U.S.C. 2000bb et seq. ............................................. 9
Other Authorities
U.S. Department of Labor, FAQs About
Affordable Care Act Implementation Part 36
(Jan. 9, 2017), https://bit.ly/2Sv6Q3z .................. 14
Regulations
29 C.F.R. 2510.3-16(b)&(c)................................. 10, 12
45 C.F.R. 147.132 ..................................................... 17
45 C.F.R. 147.133 ..................................................... 17
77 Fed. Reg. 8,725 (Feb. 15, 2012)......................... 8, 9
78 Fed. Reg. 39,870 (July 2, 2013)..................... 10, 15
79 Fed. Reg. 51,092 (Aug. 27, 2014) .................. 11, 12
80 Fed. Reg. 41,318 (July 14, 2015)......................... 13
81 Fed. Reg. 47,741 (July 22, 2016)......................... 14
83 Fed. Reg. 57,536 (Nov. 15, 2018) .......16, 17, 26, 33
83 Fed. Reg. 57,592 (Nov. 15, 2018) ................. passim
84 Fed. Reg. 7,714 (Mar. 4, 2019) ............................ 17
Executive Order No. 13,798, 82 Fed. Reg. 21,675
(May 4, 2017)........................................................ 16

1
DECISIONS BELOW
The district court’s decision granting the States’
motion for a preliminary injunction enjoining the
final rules is reported at 351 F. Supp. 3d 1267 (N.D.
Cal. 2019) and reprinted in the Appendix (“App.”) at
App.53a–121a.
The Ninth Circuit’s ruling affirming the
preliminary injunction is reported at 941 F.3d 410
(9th Cir. 2019) and reprinted at App.1a–52a.


2
STATEMENT OF JURISDICTION
On October 22, 2019, the Ninth Circuit issued its
opinion affirming the preliminary injunction. Lower
courts had jurisdiction under 28 U.S.C. 1331 and
28 U.S.C. 1291. On January 8, 2020, Justice Kagan
extended the time to file a petition for a writ of
certiorari to February 19, 2020. This Court has
jurisdiction under 28 U.S.C. 1254(1).
PERTINENT CONSTITUTIONAL,
STATUTORY, AND REGULATORY
PROVISIONS
Pertinent constitutional, statutory, and regulatory
provisions appear in the Appendix at App.122a–84a. 

3
INTRODUCTION
This petition presents two questions arising out of
a multi-state lawsuit challenging the federal
government’s decision to exempt religious and moral
objectors from federal regulatory requirements to
provide health plans that include abortifacient and
contraceptive coverage. The second question—about
the validity of the exemptions—is likely to be
definitively resolved by this Court’s decision in Little
Sisters of the Poor Saints Peter and Paul Home v.
Pennsylvania, No. 19-431, and Trump v. Pennsylvania, No. 19-454. If so, a GVR is appropriate. But
either in Little Sisters and Trump or here, a threshold
question is also ripe for this Court’s review: whether
the plaintiff States have Article III standing to
challenge the religious and moral exemptions based
on a hypothetical increase in their discretionary,
voluntary healthcare spending. Because the States
have no legal right to a federal regulatory rule that
compels employers to provide abortifacients and
contraception, the States lack standing.
Many conflicts are unavoidable after this Court
created a constitutional right to abortion in Roe v.
Wade, 410 U.S. 113 (1973). The conflict here is wholly
avoidable. Moral or religious objections to abortion
are millennia old, and our country has always
respected them. In fact, the same day this Court
decided Roe, it lauded Georgia’s statutory exemption
for hospitals and employees with “moral or religious”
objections from facilitating or carrying out abortions.
Doe v. Bolton, 410 U.S. 179, 197–98 (1973). Corporate
and individual conscience protections like these kept
peace in Roe’s wake and served as a groundwork of
our Nation’s social policy for almost 40 years.

4
Earthshattering change came in 2011 when the
U.S. Department of Health and Human Services
(HHS) issued guidelines under the Affordable Care
Act that forced many employers to cover all
contraceptive methods approved by the Food and
Drug Administration (FDA) in their private health
plans. Some of these methods—including “emergency
contraception”—may stop an embryo from implanting
in the uterine wall, ending an early human life.
Appalled by this requirement to deliver abortifacient
drugs, dozens of employers with religious, pro-life
convictions sued, as did March for Life and one other
non-profit with equivalent moral beliefs.
Initially, objectors’ pleas fell on deaf ears. Federal
agencies’ religious exemptions were sparing and their
moral protections non-existent. But after years of
litigation, multiple trips to this Court, and mounting
legal losses, federal agencies returned to the Nation’s
status quo ante. They issued interim and then final
regulations exempting private employers with moral
or religious objections from offering objectionable
forms of contraception and counseling in their health
plans. The agencies retained a less protective “accommodation” that satisfied some, but not all, objectors
by authorizing their health plan issuer or third-party
administrator to provide contraception through their
health plans in their stead. HHS also ensured access
to government-subsidized contraception to any
woman who lacked it based on her employers’ moral
or religious beliefs.
This compromise should have ended the conflict.
But states that favor abortion subsidies and oppose
freedom of conscience could not let it rest and sued.

5
In ruling for the plaintiff States, the Ninth Circuit
made two critical mistakes. First, the Ninth Circuit
erred in holding that the States had Article III
standing. App.20a–22a. The States’ theory is that
when the federal government first promulgated the
abortifacient and contraceptive mandate, it shifted
the cost of providing abortifacients and contraceptives
from the States to private employers. When the
federal government created the limited religious and
moral exemptions, some small percentage of those
costs might shift back, because the States would
provide free abortifacients and contraceptives to
employees who no longer received them from their
employers. Those hypothetical “exemption costs,”
claim the States, are enough to create Article III
standing.
Not so. To begin, the States had no credible
evidence that exempting moral and religious objectors
would lead to the States voluntarily spending more
discretionary funds on optional healthcare programs.
Nobody knows how many employers the regulations
will impact, or in which states. Employers who invoke
the exemption are likely to have employees who also
object to abortifacients and contraceptives. And the
States have no obligation to provide abortifacients
and contraceptives anyway. The States’ “harm” was
only ever a theory.
More important, the States had no right to this
financial windfall in the first place. States have no
entitlement to a federal-government abortifacient
and contraceptive mandate. If the federal agencies
had eliminated the mandate, the States would have
no legal basis to complain. What the federal
government gives, it can also take away.

6
Instead, the Ninth Circuit should have asked
whether the States were seeking “compensation for,
or preventing, the violation of a legally protected
right.” Vt. Agency of Nat. Res. v. United States ex rel.
Stevens, 529 U.S. 765, 772 (2000) (emphasis added).
And the answer is an obvious no. HHS had no
obligation to force employers to cover all FDAapproved contraceptives; the mandate was a matter
of agency discretion, as was the agencies’ decision not
to impose it on conscientious objectors.
The States lack standing to challenge every
adjustment federal agencies make to discretionary
regimes that may collaterally aid the States’ voluntary social welfare spending. The regulations at issue
are not aimed at the States and do not require—or
prevent—the States from doing anything. The States
have a free hand to increase or decrease funding,
change eligibility requirements, eliminate their
healthcare programs altogether, or take any number
of intermediate steps without federal penalty. Thus,
any harm to the States’ fiscs is entirely self-imposed,
and they lack standing.
Second, the Ninth Circuit said that the federal
agencies probably lacked authority to issue the moral
and religious exemptions, and those rules are likely
arbitrary and capricious. App.28a–43a. Again, not so.
In enacting the Affordable Care Act, Congress said
nothing about requiring employers to provide abortifacients and contraception. Though the legislation left
agencies with discretion to include such a requirement, the agencies had concomitant discretion to
fashion religious and moral exemptions based on the
Constitution, the Religious Freedom Restoration Act,
and this Court’s decisions.

7
The final exemptions are balanced and address
concerns on all sides. They are not arbitrary or
capricious. This Court should so hold in the Trump
and Little Sisters cases and, at the very least, grant,
vacate, and remand this case to the Ninth Circuit so
that it can conform its views to this Court’s decision.
STATEMENT OF THE CASE
A. The
ACA’s
“preventive
care
and
screenings” requirement for women.
The Affordable Care Act, commonly referred to as
the ACA, regulates our Nation’s health-insurance
industry in unprecedented ways. It requires many
employers not just to offer health insurance but plans
that cover certain (1) items or services, (2) immunizations, (3) child preventive care and screenings, and
(4) preventive care and screenings for women,
without cost sharing. 42 U.S.C. 300gg-13. Exempt
from these requirements are employers with fewer
than 50 employees, who are not required to offer
health coverage, and employers with grandfathered
health plans that predated the ACA and have not
undergone certain changes. Burwell v. Hobby Lobby
Stores, Inc., 573 U.S. 682, 699 (2014).
Conscientious objectors have no quarrel with the
ACA’s mandatory-coverage provisions. They object
not to the health insurance or preventive-care-andscreening requirement but to the agency gap filling
that followed.

8
In the ACA itself, Congress provided that health
plans offer “with respect to women, such additional
preventive care and screenings . . . as provided for in
comprehensive guidelines supported by the Health
Resources and Services Administration,” a division of
HHS. 42 U.S.C. 300gg-13(a)(4). This discretionary
grant of authority is buttressed by provisions giving
federal agencies the power to “promulgate such
regulations as may be necessary or appropriate to
carry out” Congress’ broad decree. 42 U.S.C. 300gg92; 29 U.S.C. 1191c; 26 U.S.C. 9833.
In turn, HHS delegated the job of fleshing out the
women’s preventive-care-and-screenings requirement
to the Institute of Medicine, “a nonprofit group of
volunteer advisers.” Hobby Lobby, 573 U.S. at 697.
These consultants urged HHS to mandate free
coverage of all FDA “approved contraceptive methods,
sterilization procedures, and patient education and
counselling.” 77 Fed. Reg. 8,725, 8,725 (Feb. 15, 2012).
HHS generally followed this recommendation and
required many private employers to cover contraceptive methods that “may have the effect of preventing an already fertilized egg from developing any
further by inhibiting its attachment to the uterus.”
Hobby Lobby, 573 U.S. at 697–98.
Simultaneously, HHS and the Departments of
Labor and the Treasury granted the Health
Resources and Services Administration “discretion to
establish an exemption for group health plans
established or maintained by certain religious
employers,” i.e., churches and their integrated
auxiliaries. 77 Fed. Reg. at 8,726.

9
The agencies’ rationale was that churches’
employees “would be less likely to use contraceptives
even if contraceptives were covered under their
health plans.” Id. at 8,728. Though the same is true of
the employees of many religious and non-religious
non-profits opposed to abortion—including March for
Life—the agencies made no exception for them.
No state ever challenged the agencies’ church
exemption, which does not require qualifying entities
to do anything to obtain an exception. Hobby Lobby
573 U.S. at 698. In fact, many states provide similar
or broader religious exemptions to their own
contraceptive mandates. 77 Fed. Reg. at 8,726.
Originally, employers like March for Life who
offered health insurance but refused to cover
abortifacients in their health plans faced public or
private lawsuits under ERISA and fines up to $100
per plan participant per day. 29 U.S.C. 1132; 26
U.S.C. 4980D. While employers who dropped health
coverage altogether faced potential penalties of
$2,000 per employee each year. 26 U.S.C. 4980H.
B. The widespread litigation sparked by the
agencies’ choice and the modifications
the agencies made pre-Zubik.
The agencies’ decision to exempt only churches
and their integrated auxiliaries from the contraception mandate sparked intense backlash. Dozens of
non-profit organizations and closely held, for-profit
businesses sued, primarily under RFRA, the
Religious Freedom Restoration Act of 1993. 42 U.S.C.
2000bb et seq.

10
Because the agencies’ extreme position was legally
indefensible, they quickly began making regulatory
changes. They staunchly refused to exempt religious
non-profits opposed to abortion from the contraception mandate—as they did churches. But they
agreed to provide a regulatory “accommodation” or
alternative means of compliance by which religious
non-profits’ health insurance issuers or third-party
administrators could provide abortifacients and
contraceptives in their stead.
To access the accommodation, religious non-profits
had to submit a form to their health insurance issuer
or third-party administrator. This form was more
than just notice of a religious objection. It was an
instrument under which objectors’ health plans were
operated. 29 C.F.R. 2510.3-16(b)&(c). And for selfinsured plans, it served as a special designation of the
third-party administrator as plan and claims administrator for making payments for contraceptive
services. 78 Fed. Reg. 39,870, 39,880 (July 2, 2013).
Under this iteration of the regulatory scheme,
(1) churches and their integrated auxiliaries were
exempt from the contraception mandate, (2) religious
non-profits with objections to abortion could
authorize others to provide abortifacients via the nonprofits’ own health plans, (3) non-religious non-profits
with objections to abortion—like March for Life—had
to cover abortifacients directly, and (4) for-profit
businesses also had to cover abortifacients directly no
matter if their owners objected to abortion and their
companies were closely held.

11
Because the agencies imposed a third-party
administrator’s duty to provide contraceptives under
ERISA, and ERISA does not apply to church plans, 29
U.S.C. 1003(b)(2), the agencies effectively exempted
certain church-affiliated non-profits from the contraceptive mandate, including some hospitals and
universities. The agencies lacked any basis for
compelling these entities’ third-party administrators
to deliver contraceptives. 79 Fed. Reg. 51,092, 51,095
n.8 (Aug. 27, 2014).
But some objectors’ consciences were not
assuaged, and this Court was forced to intervene. It
first enjoined the agencies from enforcing the
contraceptive mandate or the accommodation against
a religious order pending appeal to the Tenth Circuit.
Expressing no view on the merits, this Court allowed
Little Sisters of the Poor to obtain an exemption by
informing the Secretary of HHS, in writing, that it
holds itself out as religious and has religious
objections to covering contraceptives. Little Sisters of
the Poor Home for the Aged, Colo. v. Sebelius, 571 U.S.
1171 (2014).
Several months later, this Court ruled on the
merits that it violated RFRA for the agencies to
impose the contraceptive mandate on closely-held,
for-profit businesses whose owners objected to
abortion on religious grounds. Hobby Lobby, 573 U.S.
at 736. Whether or not the accommodation satisfied
“RFRA for purposes of all religious claims,” it satisfied
Hobby Lobby’s and Conestoga’s objections and proved
that the agencies had less restrictive means of
obtaining their goals. Id. at 730–31.

12
This Court’s ruling in Hobby Lobby made two
things clear. First, the agencies could not impose the
mandate directly on religious objectors, either forprofit or non-profit. And second, the accommodation
suffices for those with no objection to it.
Not long after, this Court granted an injunction
pending appeal barring the agencies from enforcing
either the contraceptive mandate or the accommodation against a religious college. Wheaton College
could obtain an exemption by informing the Secretary
of HHS, in writing, that it is a non-profit that holds
itself out as religious and has religious objections to
covering contraceptives. Wheaton Coll. v. Burwell,
573 U.S. 958 (2014). Though this Court expressed no
view on the merits, ibid., this trend of granting
interim relief to objectors suggested the existing
accommodation could not pass muster.
The agencies went back to the drawing board. Still
refusing to exempt religious non-profits from the
mandate, they revised the accommodation. Religious
non-profits could comply with the mandate either by
submitting the official form to their health insurance
issuer/third-party administer or sending a “notice” to
HHS. The notice had to contain: (1) the entities’ name
and the reason it qualifies for the accommodation,
(b) a description of its religious objection to covering
contraceptives, (c) the name and type of its health
plan, and (d) the name and contact information of its
health insurance issuer or third-party administrator.
79 Fed. Reg. 51,092, 51,094–95 (Aug. 27, 2014). Then
HHS would notify a religious non-profit’s insurer or
third-party administrator, on the non-profit’s behalf,
of its new obligation to provide contraceptive coverage
to employees. Id. at 51,095; 29 C.F.R. 2510.3-16(b).

13
The agencies also made closely-held, for-profits
whose owners objected to covering abortifacients
eligible for the new accommodation. 80 Fed. Reg.
41,318, 41,324 (July 14, 2015). But they still offered
no exemption or accommodation to non-religious, nonprofits with moral objections to abortion. This gave
March for Life less conscience protection than Hobby
Lobby.
C. Zubik and its aftermath
Not all objectors’ consciences were assuaged by the
revised accommodation because it still required them
to authorize use of their own health plans to provide
abortifacient drugs. Dozens of lawsuits continued,
and this Court granted emergency relief to a group of
Catholic dioceses and related entities pending the
filing and disposition of their cert. petition. Zubik v.
Burwell, 135 S. Ct. 2924 (2015). Ultimately, this
Court took and consolidated seven cases brought
chiefly by religious non-profits.
Before this Court, the agencies admitted several
key facts about the accommodation. First, contraceptive services provided by a religious non-profit’s
health insurance issuer or third-party administrator
are “part of the same [health] plan as the coverage
provided by the employer.” Br. for Resp’ts at 38, Zubik
v. Burwell, 136 S. Ct. 1557 (2016) (No. 14-1418). They
are not “separate,” as the agencies had long claimed.
Second, the agencies claimed that they could not
ensure the delivery of abortifacients without religious
non-profits turning over the name and contact
information of their health insurance issuer or thirdparty administrator. Id. at 87–88. Providing this

14
data, besides stating a religious objection, was a “but
for” cause of abortifacients’ delivery.
Third, the agencies confessed the need for
religious non-profits to submit a written document
legally authorizing others to provide abortifacients
through their own private health plans. Id. at 16 n.4.
Either the official form or notice to HHS served as
religious non-profits’ designation of someone else to
provide abortifacients in their stead. Ibid.
Fourth, in a supplemental brief ordered by this
Court, the agencies admitted that the regulatory
scheme “could be modified” to better accommodate
objectors’ concerns. Suppl. Br. for Resp’ts at 3, 14,
Zubik v. Burwell, 136 S. Ct. 1557 (2016) (No. 141418). The accommodation was not the least
restrictive means of accomplishing their goals.
Given this, and religious non-profits’ assurance
they did not object to their health insurers providing
contraceptives without them, this Court vacated the
judgments below and remanded the cases. Zubik v.
Burwell, 136 S. Ct. 1557, 1560 (2016) (per curiam). It
gave the agencies “an opportunity” to better
accommodate religious non-profits’ objections. Ibid.
The agencies solicited public comments on options
to revise the accommodation yet again. 81 Fed. Reg.
47,741, 47,741 (July 22, 2016). But no regulatory
changes resulted. Shortly after the 2016 presidential
election, the agencies stated that it was impossible to
modify the accommodation to resolve objectors’
concerns. U.S. Dep’t of Labor, FAQs About Affordable
Care Act Implementation Part 36 (Jan. 9, 2017),
https://bit.ly/2Sv6Q3z. Dozens of lawsuits remained
pending, including one March for Life filed in 2014.

15
D. March for Life and its lawsuit
March for Life is one of the oldest and best-known
pro-life organizations in the country. It is a nonreligious, charitable organization that exists to
protect, defend, and respect human life at every stage,
and to promote the worth and dignity of all unborn
children. To say that March for Life opposes abortion
is an understatement: that opposition is the reason
the organization exists.
One of March for Life’s basic moral convictions is
that human life begins at conception/fertilization and
that a human embryo is a human life that should be
protected. Because hormonal oral and implantable
contraceptives, IUDs, and so-called “emergency
contraception” may prevent a human embryo from
implanting in the uterus, thereby causing an
abortion, March for Life cannot include them in its
health plan. Nor would its employees—all of whom
share those beliefs—use these abortifacients.
Yet the agencies required March for Life to violate
its reason for existence by paying for coverage of
abortifacient drugs. They made no allowance for
moral objections to abortion. So, March for Life was
forced to sue in the U.S. District Court for the District
of Columbia. It made a straightforward equalprotection claim. The agencies could not exempt
churches from the contraceptive mandate because
their employees were “more likely” to share their
religious, pro-life beliefs, 78 Fed. Reg. at 39,874
(emphasis added), but apply the mandate to March
for Life whose employees certainly do share its moral,
pro-life convictions.

16
The district court agreed and permanently
enjoined the agencies from enforcing the mandate
against March for Life. March for Life v. Burwell, 128
F. Supp. 3d 116, 134 (D.D.C. 2015). But the agencies
appealed and persuaded the D.C. Circuit to hold the
case in abeyance for years. Eventually, March for
Life’s lawsuit partially inspired the agencies to
reconsider their regulatory scheme. 83 Fed. Reg.
57,592, 57,595–96, 57,602–03 (Nov. 15, 2018).
E. The agencies reconsider and
broader conscience exemptions.

create

After prevailing in an election where the contraceptive mandate was a major matter, President
Trump issued an executive order directing the
agencies to consider regulatory changes “to address
conscience-based objections.” Exec. Order No. 13,798,
82 Fed. Reg. 21,675 (May 4, 2017).
The agencies later revisited the matter and issued
final rules concluding: (1) Congress has protected
moral and religious objectors in the healthcare
context for decades, (2) the agencies had exempted
many employers from the contraceptive mandate
from its inception, (3) the mandate and revised
accommodation violated RFRA in many instances,
(3) creating an exemption for employers with moral
objections and enlarging the existing religious
exemption was justified, and (4) these carve outs were
preferable to eliminating the contraceptive mandate
altogether. 83 Fed. Reg. 57,536 (Nov. 15, 2018); 83
Fed. Reg. 57,592 (Nov. 15, 2018).

17
The final rules, issued after notice and comment,
establish moral and religious exemptions from the
contraceptive mandate for which March for Life and
others had long advocated in court and the public
square. The agencies agreed to no longer force entities
such as churches, non-profits, for-profits that are not
publicly traded, and private colleges to establish,
maintain, provide, offer, or arrange for abortifacient
drugs. But the mandate otherwise remains in place
and qualifying employers must provide any FDAapproved contraceptive or sterilization items, procedures, services, and counseling to which they have no
moral or religious objection. 45 C.F.R. 147.132; 45
C.F.R. 147.133.
Furthermore, the agencies kept the religious
accommodation, which satisfied many employers, as
a voluntary option and made it available to moral
objectors. 83 Fed. Reg. at 57,561; 83 Fed. Reg. at
57,623–24. HHS also ensured that any low-income
woman who might lose access to contraceptives due to
her employer’s moral or religious objection could
receive them under Title X. 84 Fed. Reg. 7,714 (Mar.
4, 2019).
These regulatory changes eventually caused the
agencies to voluntarily dismiss the appeal in March
for Life’s case. The D.C. Circuit granted that motion,
leaving the district court’s permanent injunction in
place. March for Life v. Azar, No. 15-5301, 2018 WL
4871092, at *1 (Sept. 17, 2018).

18
F. The plaintiff States sue, and the Ninth
Circuit affirms an injunction against the
final rules.
This truce should have brought lasting peace. But
California, 12 other states, and the District of
Columbia (collectively, the “States”), sued to overturn
the agencies’ moral and religious exemptions,
claiming they violated the Administrative Procedure
Act (“APA”), Establishment Clause, and equal
protection. March for Life intervened to defend the
moral exemption.
The U.S. District Court for the District of
Northern California ruled that the States had Article
III standing because the final regulations were
reasonably probable to damage the States’ fiscs
“through increased reliance on [voluntarily] statefunded family-planning programs and through the
[voluntary] state-borne costs of unintended pregnancies.” App.78a. After reimagining the contraceptive
mandate as a statutory requirement, the district
court preliminarily enjoined the agencies from enforcing the final rules because (1) RFRA did not require
the religious exemption; (2) the religious accommodation was enough; and (3) the moral exemption was
inconsistent with the ACA. App.84a–111a.
A divided Ninth Circuit panel affirmed. The States
brought a substantive—not procedural—APA challenge to the final rules. Yet the Ninth Circuit held the
States had Article III standing based on an earlier
ruling that hinged on the States raising a procedural
APA claim. App.21a–22a; see also California v. Azar,
911 F.3d 558, 571 (9th Cir. 2018) (“We hold that the
states have standing to sue on their procedural APA

19
claim.”); id. at 573 (“causation and redressability
requirements are relaxed once a plaintiff has
established a procedural injury”) (cleaned up). The
only new grounds the majority gave for identifying
standing was that the States’ causation theory relied
on the “predictable effect of Government action on the
decisions of third parties.” App.22a (quoting Dep’t of
Commerce v. New York, 139 S. Ct. 2551, 2566 (2019)).
On the merits, the majority held that the agencies
likely (1) lacked statutory authority to establish the
moral or religious exemptions; (2) had no business
pre-emptively avoiding serial violation of RFRA,
which courts must litigate case-by-case; and
(3) successfully avoided any RFRA violation by
establishing the religious accommodation. App.28a–
42a.
Judge Kleinfeld dissented because he believed
that the Third Circuit’s affirmance of a nationwide
injunction against enforcing the final rules had
mooted the case. App.45a–52a. Judge Kleinfeld also
concluded that the States lacked Article III standing
because any fiscal harm they might experience was
entirely self-inflicted. App.50a (citing California, 911
F.3d at 585–88 (Kleinfeld, J., dissenting)).
On remand, the district court canceled summary
judgment proceedings due to the nationwide
injunction affirmed by the Third Circuit in Little
Sisters and Trump, and it effectively put this case on
hold.


20
REASONS FOR GRANTING THE WRIT
“Relaxation of standing requirements is directly
related to the expansion of judicial power.” Clapper v.
Amnesty Int’l USA, 568 U.S. 398, 408–09 (2013). The
Ninth Circuit’s decision all but erased Article III’s
criteria for suit, then redirected executive-branch
policy on conscientious objections to abortion. It is
hard to think of a recent federal case that has set the
standing bar lower.
The reality is that the States are just concerned
bystanders; no rights or obligations flow from the
ACA to them. The States’ standing theory is grounded
in speculation and choice: in theory, the agencies’
contraceptive mandate relieves them of healthcare
costs they voluntarily assumed and may stop paying
without consequence. And the States have no right to
the federal government continuing to force any
employer to cover abortifacients and contraception.
Besides the States’ lack of standing, certiorari is
warranted to correct the Ninth Circuit’s merits
analysis of the moral and religious exemptions. This
is the issue squarely before the Court in Little Sisters
and Trump, and any ruling in those cases should also
be applied here to protect those like March for Life.


21
I. Article III standing is a basic constitutional
requirement, and this Court has an independent duty to ensure it exists.
Article III asks if a litigant has standing to invoke
a federal court’s jurisdiction and obtain a ruling on
the merits. Warth v. Seldin, 422 U.S. 490, 498 (1975).
No inquiry is more central to sustaining federal
courts’ limited role in a democratic society. Summers
v. Earth Island Inst., 555 U.S. 488, 492–93 (2009).
Without it, courts would run roughshod over other
governmental branches, deciding not cases or controversies but “questions and issues” about hot-button
political topics. Ariz. Christian Sch. Tuition Org. v.
Winn, 563 U.S. 125, 132 (2011) (“ACSTO”). Standing,
then, is more than an academic concern. It guards the
separation of powers. Allen v. Wright, 468 U.S. 737,
752 (1984). Article III “preserves the tripartite
structure of our Federal Government, prevents the
Federal Judiciary from intruding upon the powers
given to the other branches, and confines the federal
courts to a properly judicial role.” Town of Chester v.
Laroe Estates, Inc., 137 S. Ct. 1645, 1650 (2017)
(cleaned up).
When a litigant lacks standing, “courts have no
charter to review and revise legislative and executive
action.” Summers, 555 U.S. at 492. They may only
dismiss the case. Steel Co. v. Citizens for a Better
Env’t, 523 U.S. 83, 94 (1998). And given its crucial
importance, standing “cannot be waived or forfeited.”
Va. House of Delegates v. Bethune-Hill, 139 S. Ct.
1945, 1951 (2019). Courts have a duty to ensure
jurisdiction, regardless whether the parties question
or concede it. Arizonans for Official English v.
Arizona, 520 U.S. 43, 73 (1997).

22
II. The States lack standing to challenge the
final rules, and the Ninth Circuit erred in
refusing to dismiss their suit.
Federal courts must ask, “Is this conflict really
necessary?” Arizonans for Official English, 520 U.S.
at 75. But the Ninth Circuit failed to take that Article
III question seriously, turning it into “a mechanical
exercise” that states may swiftly bypass. Allen, 468
U.S. at 751. Only this Court can stop lower courts
from overstepping their bounds to “decide abstract
questions of wide public significance even though
other governmental institutions may be more
competent to address [them] and . . . judicial intervention [is] unnecessary to protect individual rights.”
Warth, 422 U.S. at 500.
A. The States bear the burden of proving
standing’s three elements.
Under Article III, federal courts “may exercise
power only in the last resort, and as a necessity.”
Allen, 468 U.S. at 752 (cleaned up). So plaintiffs, like
the States, bear the burden of proving that they have
standing to sue. Clapper, 568 U.S. at 408.
Establishing courts’ jurisdiction requires the States to
show (1) an injury in fact, (2) fairly traceable to the
moral and religious exceptions (3) that is likely to be
redressed by a favorable judicial decision. Spokeo, Inc.
v. Robins, 136 S. Ct. 1540, 1547 (2016).

23
Claiming a nonobvious harm related to the final
regulations is insufficient for the States to show
standing. Bethune-Hill, 139 S. Ct. at 1951. They must
prove “an injury by submitting affidavits or other
evidence.” Wittman v. Personhuballah, 136 S. Ct.
1732, 1737 (2016) (cleaned up). But all the States can
muster are political grievances. None can prove
standing’s three elements. Thus, the Ninth Circuit
should have dismissed this case.
B. Because the States have no rights or
obligations at stake, and their standing
theory depends on rank speculation and
self-imposed harm, they cannot show an
injury in fact.
Injury in fact “is a hard floor of Article III
jurisdiction.” Summers, 555 U.S. at 497. Standing
cannot exist without it. A litigant must have “a legally
protected” or “cognizable interest” in the matter at
hand. Lujan v. Defs. of Wildlife, 504 U.S. 555, 560, 562
(1992). That interest must be real and urgent or
“actual or imminent,” as well as specific to the litigant
or “concrete and particularized.” Id. at 560.
Yet the States’ alleged injuries are none of the
above. States have no cognizable interest in the
agencies’ contraceptive mandate, which operates
against private employers to benefit employees.
Nothing gives the States a legal right to force the
agencies to redirect contraceptive payments they
voluntarily assumed to conscientious objectors. All
the States claim is self-imposed financial harm based
on the hypothetical actions of employers and
employees that is speculative and remote.

24
1. The States have no right to an indirect
financial windfall.
To articulate the States’ novel theory of standing
is to refute it. It goes as follows: (1) the States
voluntarily instituted programs that provide contraceptives to low-income women, (2) the religious and
moral exemptions will cause some employed women
to lose access to contraceptives, and (3) those women
will turn back to the States’ voluntary contraceptive
programs, costing the States money. App.21a (citing
California, 911 F.3d at 570–74).
This logic shows no injury in fact. The States have
no “personal right under the Constitution or any
statute to be free of action by [federal agencies] that
may have some incidental adverse effect” on them.
Warth, 422 U.S. at 509. Any indirect fiscal benefit the
contraceptive mandate provided to States was purely
serendipitous, not a matter of right.
Virtually every federal policy increases or reduces
the States’ costs. That does not give them standing to
freeze any beneficial administrative act. Federal
agencies owe the States nothing under the ACA.
The agencies’ contraceptive mandate and moral
and religious exemptions accord the States no rights
or duties. Nor do they “affect prejudicially any
proprietary or other right of the state subject to
judicial cognizance.” New Jersey v. Sargent, 269 U.S.
328, 334 (1926). In fact, they leave the States free to
do what they like. Id. at 338. The States may leave
their voluntary contraceptive programs as is, modify
their eligibility criteria, or cancel them altogether
without federal punishment.

25
What the States seek is “not to enforce specific
legal obligations whose violation works a direct harm”
against them, but to “restructure[e] . . . the apparatus
established by the Executive Branch to fulfill its legal
duties” under the ACA. Allen, 468 U.S. at 761. And
the Ninth Circuit allowed that improper gambit. But
the States lack Article III standing to commandeer
the federal government to support their social welfare
spending, particularly as the judiciary grants the
federal government “the widest latitude in the
dispatch of its own internal affairs.” Ibid.
2. Any injury to the States’ fiscs is
entirely self-imposed.
“No State can be heard to complain about damage
inflicted by its own hand.” Pennsylvania v. New
Jersey, 426 U.S. 660, 664 (1976). Yet that is precisely
the complaint the States make here. Any possible
injury to the State’s fiscs results “from decisions by
their respective state legislatures” to pay for women’s
contraception. Ibid. That decision is unrelated to the
federal agencies’ contraceptive mandate.
If the States are concerned about the costs of their
discretionary programs, “nothing prevents” them
from altering or eliminating them. Ibid. (Just as the
federal government is free to alter or eliminate its
own program.) But self-inflicted injury in the form of
voluntary spending does not open the door to federal
court. The agencies “neither require nor forbid any
action on” the States’ part. Summers, 555 U.S. at 493.
What the States are “really complaining about [is]
their own statute[s].” Pennsylvania, 426 U.S. at 667
(Blackmun, J., concurring).

26
The Ninth Circuit’s logic would allow the States
to “manufacture standing” at will. Clapper, 568 U.S.
at 416. States could draw the judiciary into the middle
of almost any federal regulatory change, remaking
courts as “continuing monitors of the wisdom and
soundness of Executive action,” Allen, 468 U.S. at 760,
and undermining “the public’s confidence in an
unelected but restrained Federal Judiciary,” ACSTO,
563 U.S. at 133.
3. The States’ claimed fiscal injury is
abstract and not certainly impending.
Though the States could formerly rely on the
lower standard of immediacy that applies to
procedural claims, Lujan, 504 U.S. at 572 n.7, they
raise no procedural challenge to the final rules. So
Article III’s requirements apply in full force: the
States’ “threatened injury must be certainly impending to constitute injury in fact.” Whitmore v.
Arkansas, 495 U.S. 149, 158 (1990) (cleaned up). The
problem is that the States’ alleged fiscal harm is “pure
speculation and fantasy.” Lujan, 504 U.S. at 567.
The final regulations’ economic impact is not
known to the States or anyone else. 83 Fed. Reg. at
57,607–08, 57,618; 83 Fed. Reg. at 57,550, 57,572–81.
For example, the States cannot cite a single employer
that likely intends to rely on the new moral or
expanded religious exemptions. That is because many
objectors were satisfied with the accommodation and
others—like March for Life—are already covered by
injunctions. And that is just the start of the “highly
attenuated chain of possibilities,” all of which must
align perfectly before the States could realize a
financial hit. Clapper, 568 U.S. at 410.

27
Even if a relevant employer exists within the
States’ bounds, the States do not know what specific
contraceptives it objects to and what contraceptives
its health plan beneficiaries want. Assuming a real
conflict, the States still cannot prove that it is likely:
(1) plan beneficiaries have no other coverage or way
to access their contraceptive of choice, (2) plan
beneficiaries will turn to State healthcare programs,
(3) plan beneficiaries will satisfy the States’ programs’ eligibility requirements, and (4) the States
will leave their programs the same and spend more
money on contraceptives or unintended pregnancies.
In short, the States claim an injury that is
nothing “more than an ingenious academic exercise in
the conceivable.” Warth, 422 U.S. at 509 (cleaned up).
Yet “standing theories that rest on speculation about
the decisions of independent actors” generally
collapse. Clapper, 568 U.S. at 414. Because this
litigation is merely the flip side of the coin presented
in Diamond v. Charles, 476 U.S. 54, 66 (1986), the
Ninth Circuit erred in holding that the States have
standing based on unmoored hypothesis.
No convincing evidence shows that “the string of
occurrences [the States] alleged would [ever]
happen”—let alone “immediately.” Whitmore, 495
U.S. at 159. Thus, the States lack Article III standing,
as even realistic threats are not enough to prove
imminent harm. Summers, 555 U.S. at 499–500.

28
4. The States allege a non-particularized
harm that treats federal courts as
general complaint bureaus.
One-third of states have lodged suits against the
moral and religious exemptions. That is strong
evidence that the States lack a particularized interest
and are simply airing their support for abortion in
federal court. Yet the Ninth Circuit turned the federal
judiciary into “general complaint bureaus” for those
unhappy with the democratic process. Hein v.
Freedom From Religion Found., Inc., 551 U.S. 587,
593 (2007).
The States have not tried to hide the true reason
they sued: they want a ruling that federal agencies
violated the ACA by exempting moral and religious
objectors from the contraceptive mandate. But “the
alleged violation of a right to have the Government
act in accordance with law [is] not judicially cognizable.” Lujan, 504 U.S. at 575. Article III requires
more than a “general interest common to all members
of the public.” Gill v. Whitford, 138 S. Ct. 1916, 1931
(2018) (cleaned up). That is all the States possess, as
the final rules do not impact them in any particularized way. They may be able to claim parens patriae
standing, but not in a lawsuit against the federal
government. Alfred L. Snapp & Son, Inc. v. Puerto
Rico ex rel. Barez, 458 U.S. 592, 610 n.16 (1982).
Though the States’ policy disagreement may be
more “sharp and acrimonious” than most, Diamond,
476 U.S. at 62, fervor alone does not satisfy Article
III. Standing requires more than the States’ general
“desire to vindicate [a pro-abortion] value interest[].”
Id. at 66.

29
C. Because the States’ alleged injury is selfinflicted and depends on the presumed
choices of multiple third parties, they
cannot show causation or redressability.
States must do a cost-benefit analysis whenever
they offer a discretionary benefit, such as providing
contraceptives. Nothing requires federal agencies to
insulate the States from the fiscal consequences of
their own unconstrained choice. Societal and market
conditions are always changing and the States, no
less than others, must adapt. A stubborn refusal to do
so creates nothing but manufactured harm. It is not
enough for the States to throw open courts’ doors and
attempt to convince the judiciary to block any federal
policy change the States dislike. Because any fiscal
injury the States may experience is entirely “selfinflicted,” their asserted “injuries are not fairly
traceable” to the final rules, Clapper, 568 U.S. at 418,
and they lack standing to sue.
What’s more, the States’ causation theory
“involves numerous third parties . . . who may not
even exist in [their] communities and whose independent decisions may not collectively have a significant
effect on” their healthcare costs. Allen, 468 U.S. at
759. Any standing theory that relies “on the unfettered choices made by independent actors not before
the courts” is highly suspect. Lujan, 504 U.S. at 562.
The States must do more than hypothesize: they must
“adduce facts showing” that employers’ and employees’ autonomous choices will align in a particular way
that actually costs the States money. Ibid.

30
But the States cannot name a single employer
inside their bounds who is likely to invoke the final
rules’ moral or religious exemption, let alone a woman
whose access to contraception is likely to be hindered
by that choice. It is impossible for the States to prove
that either outcome is anything more than rank
speculation. See Part II.B.3, above. The Ninth Circuit
erred in concluding otherwise, as there is nothing
“‘predictable’” about the States’ foretelling. App.22a.
Employers’ and employees’ “exercise of broad and
legitimate discretion” is not something that federal
“courts can[ ] presume either to control or to predict.”
Lujan, 504 U.S. at 562.
III.The agencies had statutory authority to
issue the moral and religious exemptions,
which are legally permissible (if not
required) and not arbitrary or capricious.
On the merits, the Ninth Circuit ruled that the
agencies probably lacked authority to issue the moral
and religious exemptions and those rules are likely
arbitrary and capricious. Neither holding bears
scrutiny. Congress left the preventive-care mandate a
blank slate and invested the agencies with ample
discretion to fashion not only its content, but limited
exemptions based on the Constitution, RFRA, and
this Court’s decisions. Moreover, the final rules are
balanced, address all relevant considerations, and
attempt to restore societal peace. Just because the
Ninth Circuit disagrees with objectors’ views does not
make accommodating them arbitrary or capricious.

31
A. The final regulations are within the
agencies’ gap-filling authority.
Any argument that the ACA does not allow the
agencies much, if any, discretion is based on cherrypicked legislative history and value judgments—not
the statute’s text. App.29a–33a. What Congress
actually said is that a component of HHS will enact
“comprehensive guidelines” fleshing out what the
ACA’s preventive-care requirement means, 42 U.S.C.
300gg-13(a)(4), and that the agencies could “promulgate such regulations as may be necessary or
appropriate to” accomplish that task, 42 U.S.C.
300gg-92; 29 U.S.C. 1191c; 26 U.S.C. 9833.
The agencies have done precisely what Congress
asked: they enacted comprehensive guidelines that
generally require employers to include all FDAapproved contraceptives in their health plans, but
then issued regulations exempting moral or religious
objectors that were necessary or appropriate based on
constitutional or statutory concerns.
“The power of an administrative agency to
administer a congressionally created program necessarily requires the formulation of policy and the
marking of rules to fill any gap left, implicitly or
explicitly, by Congress.” Mayo Found. for Med. Educ.
& Research v. United States, 562 U.S. 44, 55–56
(2011) (cleaned up). The ACA’s preventive-care gap is
explicit, and the discretion Congress granted the
agencies to fill it is broad. Congress expressly
delegated authority to the agencies to craft regulations interpreting the ACA’s preventive-care
provision. United States v. Mead Corp., 533 U.S. 218,
227 (2001).

32
“Regulation, like legislation, often requires
drawing lines.” Mayo Found., 562 U.S. at 59. The only
question is whether Congress would have expected
courts to treat the final regulations as within the
agencies’ gap-filling authority. Id. at 58. Congress
must have so expected because: (1) Congress is wellversed in the Constitution’s limits, (2) Congress
broadened those limits by enacting RFRA, and
(3) this Court has long afforded conscience protections
to those—like March for Life—whose moral
convictions are held with the strength of traditional
religious beliefs based on constitutional concerns,
Gillette v. United States, 401 U.S. 437, 445 (1971);
Welsh v. United States, 398 U.S. 333, 340 (1970)
(plurality); id. at 344 (Harlan, J., concurring).
The Ninth Circuit’s contrary decision directs
executive officials to ignore the Constitution and this
Court’s precedents until each individual employer
obtains a court judgment. App.34a–37a. That cannot
be right, which is why the Ninth Circuit admitted the
agencies may have authority to establish the church
exemption. App.32a–33a. But if Congress gave the
agencies discretion to craft that exemption, it
necessarily gave them the power to enact the final
rules too.
Under the Ninth Circuit’s logic, the agencies
lacked authority to address non-profits’ religious
liberty arguments proactively. App.34a–37a. Their
only option to address the serial RFRA violations that
Hobby Lobby unmasked would be to remove contraceptives from the preventive-care guidelines altogether. Nothing suggests that Congress intended to put
the agencies to this all-or-nothing choice.

33
B. The agencies’ conscious exemptions are
not arbitrary or capricious.
The agencies’ moral and religious exemptions are
the culmination of years of rulemaking, litigation, and
negotiation. Self-evidently, they are the agencies’
good-faith effort to bring peace to a fractured society.
All the APA demands is “good reasons for the new
policy” and the agencies’ belief it is better than the old
one. FCC v. Fox Television Stations, Inc., 556 U.S.
502, 515 (2009).
Here, the Ninth Circuit held that the final rules
were likely arbitrary and capricious by ignoring this
history and substituting the States’ policy “judgment
for that of the agenc[ies].” Id. at 513. App.37a–42a.
But the agencies “need not demonstrate to a court’s
satisfaction that the reason[s] for the new policy are
better than the reasons for the old one.” Fox
Television, 556 U.S. at 515. They must simply
“examine the relevant data and articulate a
satisfactory explanation” for their actions. Id. at 513.
Nothing lacks in the agencies’ inquiry or
reasoning here. The final rules are a balanced
attempt to provide FDA-approved contraceptives to
as many women as possible through employer-based
health plans, while respecting the freedom of
conscience on which our Nation was founded. Even a
cursory review of the final rules shows that the
agencies paid close heed to: (1) the ACA’s text and
structure, (2) Congress’ and our Nation’s history of
protecting freedom of conscience, (3) judicial
decisions, and (4) the likely benefits and burdens
associated with their chosen path. 83 Fed. Reg. at
57,594–57,613; 83 Fed. Reg. at 57,538–57,582.

34
IV.The questions presented
Court’s resolution.

require

this

The agencies and conscientious objectors have
been in litigation for years. Though the final rules
should have ended this conflict, the Ninth Circuit
invalidated the truce. If the decision is left in place,
federal courts (not the agencies) will force pro-life
non-profits like March for Life to violate their only
reason for existence. This Court should prevent that.
No doubt exists that the questions presented
deserve this Court’s attention. The Court has already
granted review in Little Sisters and Trump. Hobby
Lobby and Zubik also involved the agencies’
contraceptive mandate, which has long been a
national flashpoint. Moreover, the Court granted
review to decide a similar standing question in United
States v. Texas, 136 S. Ct. 906 (2016), but was unable
to do so because the Court was equally divided, 136 S.
Ct. 2271 (2016) (per curiam). Answering the standing
question is a matter of critical importance, as states
now often turn to courts to achieve outcomes voters
did not support at the polls.
This is also an appropriate vehicle to fix the
standing mess. First, March for Life raised the States’
lack of standing below and includes standing as a
fully briefed question presented.
Second, the Ninth Circuit affirmed enjoining the
final rules’ moral exemption without requiring the
States to identity a single pro-life non-profit within
their bounds that is likely to invoke it. Only two nonreligious charities sued, 83 Fed. Reg. at 57,595–96,
57,602, 57,617, and neither falls into this category.

35
Third, the Ninth Circuit’s holding that executive
officials have no duty to uphold the constitutional or
statutory rights of conscientious objectors absent a
court order is wrong. App.34a–37a. It is hard to
imagine courts requiring executive officials to
disregard any other legal obligation in this way.
Fourth, March for Life has standing to file this
petition. While some lower courts have required
intervenors to show independent Article III standing
even when the party they support appeals,
Pennsylvania v. President United States, 930 F.3d
543, 559 n.6 (3d Cir. 2019), this Court has rejected
that position. Because the agencies are petitioners in
this Court, March for Life may “‘piggyback’ on [their]
undoubted standing” and is “entitled to seek review.”
Diamond, 476 U.S. at 64. Intervening in support of
the agencies does not entail invoking this Court’s
jurisdiction or require March for Life to show
standing itself. Bethune-Hill, 139 S. Ct. at 1951; see
also Wittman, 136 S. Ct. at 1736 (only parties
“invoking a federal court’s jurisdiction” must
“demonstrate standing”). That a permanent
injunction protects March for Life against the
contraceptive mandate is irrelevant: the agencies’
standing fulfills Article III.
At a minimum, the Court should hold this case and
GVR it after issuing an opinion in Little Sisters and
Trump so that the Ninth Circuit can conform its views
to this Court’s decision.

36
CONCLUSION
The petition for a writ of certiorari should be
granted or held for the decision in Little Sisters and
Trump.
Respectfully submitted,
KRISTEN K. WAGGONER
JOHN J. BURSCH
Counsel of Record
DAVID A. CORTMAN
RORY T. GRAY
ALLIANCE DEFENDING
FREEDOM
440 First Street, N.W.
Suite 600
Washington, D.C. 20001
(616) 450-4235
jbursch@ADFlegal.org
KEVIN H. THERIOT
KENNETH J. CONNELLY
ALLIANCE DEFENDING
FREEDOM
15100 N. 90th Street
Scottsdale, AZ 85260
(480) 444-0020
BRIAN R. CHAVEZ-OCHOA
CHAVEZ-OCHOA LAW
OFFICES, INC.
4 Jean Street, Suite 4
Valley Springs, CA 95252
(209) 772-3013
FEBRUARY 2020

Counsel for Petitioner

APPENDIX

ia
APPENDIX TABLE OF CONTENTS
United States Court of Appeals
for the Ninth Circuit,
Opinion in 19-15072, 19-15118, and 19-15150
Issued October 22, 2019 ........................................... 1a
United States District Court
Northern District of California,
Opinion in 17-cv-05783-HSG
Issued January 13, 2019 ........................................ 53a
U.S. Constitutional Provisions ............................ 122a
5 U.S.C. 706(2)(A) ................................................ 123a
26 U.S.C. 4980D ................................................... 124a
26 U.S.C. 4980H ................................................... 131a
26 U.S.C. 5000A ................................................... 139a
42 U.S.C. 300gg-13(a) .......................................... 154a
42 U.S.C. 2000bb-1............................................... 156a
42 U.S.C. 2000bb-2(1) .......................................... 157a
42 U.S.C. 2000bb-3(a) .......................................... 157a
45 C.F.R. 147.131(a) (2013) ................................. 158a
45 C.F.R. 147.131 ................................................. 159a
45 C.F.R. 147.132 ................................................. 167a
45 C.F.R. 147.133 ................................................. 171a

iia
Excerpt from 83 Fed. Reg. 57592
(Nov. 15, 2018) ..................................................... 175a
Excerpt from 83 Fed. Reg. 57536
(Nov. 15, 2018) ..................................................... 179a



1a
FOR PUBLICATION
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
STATE OF CALIFORNIA;
STATE OF DELAWARE;
COMMONWEALTH OF
VIRGINIA; STATE OF
MARYLAND; STATE OF NEW
YORK; STATE OF ILLINOIS;
STATE OF WASHINGTON;
STATE OF MINNESOTA;
STATE OF CONNECTICUT;
DISTRICT OF COLUMBIA;
STATE OF NORTH
CAROLINA; STATE OF
VERMONT; STATE OF RHODE
ISLAND; STATE OF HAWAII,
Plaintiffs-Appellees,
v.
U.S. DEPARTMENT OF
HEALTH & HUMAN
SERVICES; U.S.
DEPARTMENT OF LABOR; R.
ALEXANDER ACOSTA, in his
official capacity as Secretary of
the U.S. Department of Labor;
ALEX M. AZAR II, Secretary of
the United States Department of
Health and Human Services;
U.S. DEPARTMENT OF THE
TREASURY; STEVEN TERNER

No. 19-15072
D.C. No.
4:17-cv-05783HSG

2a
MNUCHIN, in his official
capacity as Secretary of the U.S.
Department of the Treasury,
Defendants,
and
THE LITTLE SISTERS OF THE
POOR JEANNE JUGAN
RESIDENCE,
Intervenor-Defendant-Appellant.
STATE OF CALIFORNIA;
STATE OF DELAWARE;
COMMONWEALTH OF
VIRGINIA; STATE OF
MARYLAND; STATE OF NEW
YORK; STATE OF ILLINOIS;
STATE OF WASHINGTON;
STATE OF MINNESOTA;
STATE OF CONNECTICUT;
DISTRICT OF COLUMBIA;
STATE OF NORTH
CAROLINA; STATE OF
VERMONT; STATE OF RHODE
ISLAND; STATE OF HAWAII,
Plaintiffs-Appellees,
v.
U.S. DEPARTMENT OF
HEALTH & HUMAN
SERVICES; U.S.
DEPARTMENT OF LABOR; R.

No. 19-15118
D.C. No.
4:17-cv-05783HSG

3a
ALEXANDER ACOSTA, in his
official capacity as Secretary of
the U.S. Department of Labor;
ALEX M. AZAR II, Secretary of
the United States Department of
Health and Human Services;
U.S. DEPARTMENT OF THE
TREASURY; STEVEN TERNER
MNUCHIN, in his official
capacity as Secretary of the U.S.
Department of the Treasury,
Defendants-Appellants,
and
THE LITTLE SISTERS OF THE
POOR JEANNE JUGAN
RESIDENCE,
Intervenor-Defendant.
STATE OF CALIFORNIA;
STATE OF DELAWARE;
COMMONWEALTH OF
VIRGINIA; STATE OF
MARYLAND; STATE OF NEW
YORK; STATE OF ILLINOIS;
STATE OF WASHINGTON;
STATE OF MINNESOTA;
STATE OF CONNECTICUT;
DISTRICT OF COLUMBIA;
STATE OF NORTH
CAROLINA; STATE OF
VERMONT; STATE OF RHODE
ISLAND; STATE OF HAWAII,

No. 19-15150
D.C. No.
4:17-cv-05783
HSG
OPINION

4a
Plaintiffs-Appellees,
v.
U.S. DEPARTMENT OF
HEALTH & HUMAN
SERVICES; U.S.
DEPARTMENT OF LABOR; R.
ALEXANDER ACOSTA, in his
official capacity as Secretary of
the U.S. Department of Labor;
ALEX M. AZAR II, Secretary of
the United States Department of
Health and Human Services;
U.S. DEPARTMENT OF THE
TREASURY; STEVEN TERNER
MNUCHIN, in his official
capacity as Secretary of the U.S.
Department of the Treasury,
Defendants,
and
MARCH FOR LIFE
EDUCATION AND DEFENSE
FUND,
Intervenor-DefendantAppellant.
Appeals from the United States District Court
for the Northern District of California
Haywood S. Gilliam, Jr., District Judge, Presiding
Argued and Submitted June 6, 2019
San Francisco, California

5a
Filed October 22, 2019
Before: J. Clifford Wallace, Andrew J. Kleinfeld,
and Susan P. Graber, Circuit Judges.
Opinion by Judge Wallace;
Dissent by Judge Kleinfeld
SUMMARY*

Affordable Care Act
The panel affirmed the district court’s
preliminary injunction barring enforcement in
several states of final federal agency rules that
exempt employers with religious and moral objections
from the Affordable Care Act’s requirement that
group health plans cover contraceptive care without
cost sharing.
The panel first held that the plaintiff states had
standing to sue. The panel held that the panel’s prior
decision in California v. Azar, 911 F.3d 558, 566–68
(9th Cir. 2018), and its underlying reasoning
foreclosed any arguments otherwise. The panel
determined that plaintiffs failed to identify any new
factual or legal developments since the panel’s prior

This summary constitutes no part of the opinion of the court.
It has been prepared by court staff for the convenience of the
reader.
*

6a
decision that required the panel to reconsider
standing here.
The panel noted that the day after the district
court issued its injunction of limited scope, covering
the territory of the thirteen plaintiff states plus the
District of Columbia, a district court in Pennsylvania
issued a similar nationwide injunction. See
Pennsylvania v. Trump, 351 F. Supp. 3d 791, 835
(E.D. Pa.), aff’d 930 F.3d 543 (3d Cir.), petition for
cert. filed, __ U.S.L.W. __ (U.S. Oct. 1, 2019) (No. 19431). The panel held that despite the nationwide
injunction from Pennsylvania, under existing
precedent, this appeal was not moot.
The panel held that the district court did not
abuse its discretion in concluding that the plaintiff
states were likely to succeed on the merits of their
claim brought under the Administrative Procedure
Act. The panel held that given the text, purpose, and
history of 42 U.S.C. § 300gg–13(a)(4), also known as
the Women’s Health Amendment, the district court
did not err in concluding that the agencies likely
lacked statutory authority under the Affordable Care
Act to issue the final rules. The panel determined
that, at the preliminary injunction stage, the evidence
was sufficient to hold that providing free contraceptive services was a core purpose of the Women’s
Health Amendment and that nothing in the statute
permitted the agencies to determine exemptions from
the requirement.
The panel rejected the argument that the
regulatory regime that existed before the rules’
issuance—i.e., the accommodation process—violated
the Religious Freedom Restoration Act and that the

7a
Act required or at least authorized the federal
agencies to eliminate the violation by issuing the
religious exemption. The panel held that even
assuming that agencies were authorized to provide a
mechanism for resolving perceived Religious Freedom
Restoration Act violations, the Act likely did not
authorize the religious exemption at issue in this
case. The panel held that the religious exemption
contradicts congressional intent that all women have
access to appropriate preventative care and the
exemption operates in a manner fully at odds with the
careful, individualized, and searching review
mandated by the Religious Freedom Restoration Act.
The panel held that regardless of the question of
whether the agencies had authority pursuant to the
Religious Freedom Restoration Act to issue the
exemption, the accommodation process likely did not
substantially burden the exercise of religion and
hence did not violate the Act. The panel noted that an
organization with a sincere religious objection to
arranging contraceptive coverage need only send a
self-certification form to the insurance issuer or a
third-party administrator or send a written notice to
the Department of Health and Human Services. Once
the organization has taken the simple step of
objecting, all actions taken to pay for or provide the
organization’s employees with contraceptive care is
carried out by a third party, i.e., insurance issuer or
third-party administrator. The panel held that
because appellants likely failed to demonstrate a
substantial burden on religious exercise, there was no
need to address whether the government had shown
a compelling interest or whether it has adopted the
least restrictive means of advancing that interest.

8a
The panel held that the district court did not
abuse its discretion by concluding that the plaintiff
states were likely to suffer irreparable harm absent
an injunction. Referring to the panel’s discussion in
its prior opinion, the panel reiterated that plaintiff
states will likely suffer economic harm from the final
rules, and such harm would be irreparable because
the states will not be able to recover monetary
damages flowing from the final rules. This harm was
not speculative; it was sufficiently concrete and
supported by the record. Finally, the panel held that
there was no basis to conclude that the district court
erred by finding that the balance of equities tipped
sharply in favor of the plaintiff states and that the
public interest tipped in favor of granting the
preliminary injunction.
Dissenting, Judge Kleinfeld stated that because
of the nationwide injunction from Pennsylvania, this
case was moot and that the panel lacked jurisdiction
to address the merits.
COUNSEL
Brinton Lucas (argued), Sharon Swingle, Lowell V.
Sturgill Jr., and Karen Schoen, Appellate Staff; David
L. Anderson, United States Attorney; Hashim M.
Mooppan, Deputy Assistant Attorney General;
Joseph H. Hunt, Assistant Attorney General; Civil
Division, United States Department of Justice,
Washington, D.C.; for Defendants-Appellants.
Mark Rienzi (argued), Eric C. Rassbach, Lori H.
Windham, Diana M. Vern, Chase T. Harrington, and
Chris Pagliarella, The Becket Fund for Religious
Liberty, Washington, D.C., for Intervenor-Defendant-

9a
Appellant The Little Sisters of the Poor Jeanne Jugan
Residence.
Kenneth J. Connelly (argued), David A. Cortman, and
Kevin H. Theriot, Alliance Defending Freedom,
Scottsdale, Arizona; Gregory S. Baylor and Christen
M. Price, Alliance Defending Freedom, Washington,
D.C.; Brian R. Chavez-Ochoa, Chavez-Ochoa Law
Offices Ins., Valley Springs, California; for
Intervenor-Defendant-Appellant March for Life
Education and Defense Fund.
Karli A. Eisenberg (argued) and Nimrod Pitsker
Elias, Deputy Attorneys General; Kathleen Boergers,
Supervising Deputy Attorney General; Michael L.
Newman, Senior Assistant Attorney General; Xavier
Becerra, Attorney General; Office of the Attorney
General, Sacramento, California; William Tong,
Attorney General; Maura Murphy Osborne, Assistant
Attorney General; Office of the Attorney General,
Hartford, Connecticut; Kathleen Jennings, Attorney
General; Ilona Kirshon, Deputy State Solicitor;
Jessica M. Willey and David J. Lyons, Deputy
Attorneys General; Delaware Department of Justice,
Wilmington, Delaware; Karl A. Racine, Attorney
General; Loren L. AliKhan, Solicitor General;
Caroline S. Van Zile, Deputy Solicitor General;
Graham E. Phillips, Assistant Attorney General;
Office of the Attorney General, Washington, D.C.;
Clare Connors, Attorney General; Erin Lau, Deputy
Attorney General; Department of the Attorney
General, Honolulu, Hawaii; Kwame Raoul, Attorney
General; Elizabeth Morris, Assistant Attorney
General; Office of the Attorney General, Chicago,
Illinois; Brian E. Frosh, Attorney General; Steven M.
Sullivan, Solicitor General; Kimberly S. Cammarata,

10a
Senior Assistant Attorney General; Attorney
General’s Office, Baltimore, Maryland; Keith Ellison,
Attorney General; Jacob Campion, Assistant
Attorney General; Office of the Attorney General, St.
Paul, Minnesota; Letitia James, Attorney General;
Barbara D. Underwood, Solicitor General; Lisa
Landau, Bureau Chief, Health Care Bureau; Steven
C.
Wu,
Deputy
Solicitor
General;
Ester
Murdukhayeva, Assistant Solicitor General; Office of
the Attorney General, New York, New York; Joshua
H. Stein, Attorney General; Sripriya Narasimhan,
Deputy General Counsel; Department of Justice,
Raleigh, North Carolina; Peter F. Neronha, Attorney
General; Michael W. Field, Assistant Attorney
General; Office of the Attorney General, Providence,
Rhode Island; Thomas J. Donovan Jr., Attorney
General; Eleanor Spottswood, Assistant Attorney
General; Attorney General’s Office, Montpelier,
Vermont; Mark R. Herring, Attorney General; Toby J.
Heytens, Solicitor General; Samuel T. Towell, Deputy
Attorney General; Office of the Attorney General,
Richmond, Virginia; Robert W. Ferguson, Attorney
General; Jeffrey T. Sprung and Alicia O. Young,
Assistant Attorneys General; Office of the Attorney
General, Seattle, Washington; for PlaintiffsAppellees.
Dwight G. Duncan, Colbe Mazzarella, North
Dartmouth, Massachusetts, for Amici Curiae
Residents and Families of Residents at Homes of the
Little Sisters of the Poor.
Ken Paxton, Attorney General; Jeffrey C. Mateer,
First Assistant Attorney General; Kyle D. Hawkins,
Solicitor General; Jason R. LaFond, Assistant
Solicitor General; Office of the Attorney General,

11a
Austin, Texas; Steve Marshall, Attorney General of
Alabama; Leslie Rutledge, Attorney General of
Arkansas; Christopher M. Garr, Attorney General of
Idaho; Lawrence Wasden, Attorney General of Idaho;
Jeff Landry, Attorney General of Louisiana; Eric
Schmitt, Attorney General of Missouri; Tim Fox,
Attorney General of Montana; Doug Peterson,
Attorney General of Nebraska; Mike Hunter,
Attorney General of Oklahoma; Alan Wilson,
Attorney General of South Carolina; Sean Reyes,
Attorney General of Utah; Patrick Morrisey, Attorney
General of West Virginia; for Amici Curiae States of
Texas, Alabama, Arkansas, Georgia, Idaho,
Louisiana, Missouri, Montana, Nebraska, Oklahoma,
South Carolina, Utah, and West Virginia.
Miles E. Coleman, Nelson Mullins Riley &
Scarborough LLP, Greenville, South Carolina, for
Amici Curiae Constitutional Law Scholars.
Stephanie N. Taub and Lea E. Patterson, First
Liberty Institute, Plano, Texas, for Amicus Curiae
First Liberty Institute.
Daniel L. Chen, Gibson Dunn & Crutcher LLP, San
Francisco, California; Paul Collins and Robert E.
Dunn, Gibson Dunn & Crutcher LLP, Palo Alto,
California; for Amicus Curiae Religious Sisters of
Mercy.
Elizabeth O. Gill, ACLU Foundation of Northern
California, San Francisco, California; Minouche
Kandel, ACLU Foundation of Southern California,
Los Angeles, California; Brigitte Amiri, ACLU
Foundation, New York, New York; David Loy, ACLU
Foundation of San Diego & Imperial Counties, San
Diego, California; for Amici Curiae American Civil

12a
Liberties Union, ACLU of Northern California, ACLU
of Southern California, ACLU of San Diego and
Imperial
Counties,
Anti-Defamation
League,
Leadership Conference on Civil and Human Rights,
and National Urban League.
Priscilla Joyce Smith, Yale Law School, Brooklyn,
New York, for Amicus Curiae Program for the Study
of Reproductive Justice at Yale Law School.
Jamie A. Levitt and Rhiannon N. Batchelder,
Morrison & Foerster LLP, New York, New York, for
Amici Curiae American Association of University
Women, Service Employees International Union, and
16 Additional Professional, Labor, and Student
Associations.
Diana Kasdan and Joel Dodge, Center for
Reproductive Rights, New York, New York; Dariely
Rodriguez, Dorian Spence, and Phylicia H. Hill,
Lawyers’ Committee for Civil Rights Under Law,
Washington, D.C.; for Amici Curiae Center for
Reproductive Rights, Lawyers’ Committee for Civil
Rights Under Law, California Women’s Law Center,
GLBTQ Legal Advocates & Defenders, Latinojustice
PRLDEF, Lawyers for Civil Rights, Legal
Momentum, Legal Voice, Mississippi Center for
Justice, National Center for Lesbian Rights, Public
Counsel, and Women’s Law Project.
Maura Healey, Attorney General; Elizabeth N.
Dewar, State Solicitor; Jonathan B. Miller, Jon
Burke, and Julia E. Kobick, Assistant Attorneys
General; Elizabeth Carnes Flynn, Special Assistant
Attorney General; Office of the Attorney General,
Boston, Massachusetts; Thomas J. Miller, Attorney
General, Office of the Attorney General, Des Moines,

13a
Iowa; Aaron M. Frey, Attorney General, Office of the
Attorney General, Augusta, Maine; Gurbir S. Grewal,
Attorney General, Office of the Attorney General,
Trenton, New Jersey; Hector Balderas, Attorney
General, Office of the Attorney General, Santa Fe,
New Mexico; Josh Shapiro, Attorney General, Office
of the Attorney General, Harrisburg, Pennsylvania;
for Amici Curiae Massachusetts, Iowa, Maine, New
Jersey, New Mexico, and Pennsylvania.
Fatima Gross Graves, Gretchen Borchelt, Michelle
Banker, and Sunu Chandy, National Women’s Law
Center, Washington, D.C.; Jane Liu, National Asian
Pacific American Women’s Forum, Washington, D.C.;
Sequoia Ayala and Jill Heaviside, Sisterlove Inc.,
Atlanta, Georgia; Jeffrey Blumenfeld, Lowenstein
Sandler LLP, Washington, D.C.; Naomi D.
Barrowclough, Lowenstein Sandler LLP, Roseland,
New Jersey; for Amici Curiae National Women’s Law
Center, National Latina Institute for Reproductive
Health, Sisterlove Inc., and National Asian Pacific
American Women’s Forum.
Bruce H. Schneider, Michele L. Pahmer, and Giliana
Keller, Stroock & Stroock & Lavan LLP, New York,
New York, for Amici Curiae Brief of Health
Professional Organizations, American Nurses
Association, American College of Obstetricians and
Gynecologists, American Academy of Nursing,
American Academy of Pediatrics, Physicians for
Reproductive Health, and California Medical
Association.
Leah R. Bruno, Alan S. Gilbert, Cicely R. Miltich, and
Jacqueline A. Giannini, Dentons US LLP, Chicago,
Illinois; Joel D. Siegel, Dentons US LLP, Los Angeles,

14a
California; for Amici Curiae U.S. Women’s Chamber
of Commerce and National Association for Female
Executives.
Cindy Nesbit, The Sikh Coalition, New York, New
York; Sirine Shebaya, Nimra Azmi, Muslim
Advocates, Washington, D.C.; Richard B. Katskee,
Carmen N. Green, and Alison Tanner, Americans
United for Separate of Church and State; for Amici
Curiae Religious and Civil-Rights Organizations.
Barbara J. Parker, City Attorney; Maria Bee, Erin
Bernstein, Malia McPherson, and Caroline Wilson;
Office of the City Attorney, Oakland, California;
James R. Williams, County Counsel; Greta S.
Hansen, Laura S. Trice, and Lorraine Van Kirk, San
Jose, California; Office of the County Counsel, San
Jose, California; for Amici Curiae 14 Cities, Counties,
and Local Agencies.
_________________________________________________
OPINION
WALLACE, Circuit Judge:
The Affordable Care Act (ACA) and the
regulations implementing it require group health
plans to cover contraceptive care without cost
sharing. Federal agencies issued final rules
exempting employers with religious and moral
objections from this requirement. The district court
issued a preliminary injunction barring the enforcement of the rules in several states. We have
jurisdiction under 28 U.S.C. § 1292, and we affirm.

15a
I.
We recounted the relevant background in a prior
opinion. See California v. Azar, 911 F.3d 558, 566–68
(9th Cir. 2018). We reiterate it here as necessary to
resolve this appeal.
The ACA provides:
A group health plan and a health insurance
issuer offering group or individual health
insurance coverage shall, at a minimum
provide coverage for and shall not impose any
cost sharing requirements for … with respect
to women, such additional preventive care
and screenings … as provided for in
comprehensive guidelines supported by the
Health
Resources
and
Services
Administration [HRSA] . . . .
42 U.S.C. § 300gg-13(a)(4) (also known as the
Women’s Health Amendment). HRSA established
guidelines for women’s preventive care that include
any “[FDA] approved contraceptive methods,
sterilization procedures, and patient education and
counseling.” Group Health Plans and Health
Insurance Issuers Relating to Coverage of Preventive
Services Under the Patient Protection and Affordable
Care Act, 77 Fed. Reg. 8,725-01, 8,725 (Feb. 15, 2012).
The three agencies responsible for implementing the
ACA—the Department of Health and Human
Services, the Department of Labor, and the
Department of the Treasury (collectively, agencies)—
issued regulations requiring coverage of all

16a
preventive care contained in HRSA’s guidelines.1 See,
e.g.,45 C.F.R. § 147.130(a)(1)(iv).
The agencies also recognized that religious
organizations may object to the use of contraceptive
care and to the requirement to offer insurance that
covers such care. For those organizations, the
agencies provide two avenues for alleviating those
objections. First, group health plans of certain
religious employers, such as churches, are categoryically exempt from the contraceptive care requirement. See Coverage of Certain Preventive Services
Under the Affordable Care Act, 78 Fed. Reg. 39,870,
39,874 (July 2, 2013). Second, nonprofit “eligible
organizations” that are not categorically exempt can
opt out of having to “contract, arrange, pay, or refer
for contraceptive coverage.” Id. To be eligible, the
organization must file a self-certification form stating
(1) that it “opposes providing coverage for some or all
of any contraceptive services required to be covered
under [the regulation] on account of religious
objections,” (2) that it “is organized and operates as a
nonprofit entity,” and (3) that it “holds itself out as a
religious organization.” Id. at 39,893. The
organization sends a copy of the form to its insurance
issuer or third-party administrator (TPA), which
must then provide contraceptive care for the
organization’s employees without any further
involvement by the organization. Id. at 39,875–76.
Certain types of plans, called “grandfathered” plans, were
statutorily exempt from the contraceptive care requirement. See
generally Final Rules for Grandfathered Plans, Preexisting
Condition Exclusions, Lifetime and Annual Limits, Rescissions,
Dependent Coverage, Appeals, and Patient Protections Under
the Affordable Care Act, 80 Fed. Reg. 72,192-01 (Nov. 18, 2015).
1

17a
The regulations refer to this second avenue as the
“accommodation,” and it was designed to avoid
imposing on organizations’ beliefs that paying for or
facilitating coverage for contraceptive care violates
their religion. Id. at 39,874.
The agencies later amended the accommodation
process in response to legal challenges. First, certain
closely-held for-profit organizations became eligible
for the accommodation. See Coverage of Certain
Preventive Services Under the Affordable Care Act,
80 Fed. Reg. 41,318-01, 41,343 (July 14, 2015); see
also Burwell v. Hobby Lobby Stores, Inc., 573 U.S.
682, 736 (2014). Second, instead of directly sending a
copy of the self-certification form to the issuer or TPA,
an eligible organization could simply notify the
Department of Health and Human Services in
writing, which then would inform the issuer or TPA
of its regulatory obligations. 80 Fed. Reg. at 41,323;
see also Wheaton Coll. v. Burwell, 134 S. Ct. 2806,
2807 (2014).
Various organizations then challenged the
amended accommodation process as a violation of the
Religious Freedom Restoration Act (RFRA). The
actions reached the Supreme Court, and the Supreme
Court vacated and remanded to afford the parties “an
opportunity to arrive at an approach going forward
that accommodates petitioners’ religious exercise
while at the same time ensuring that women covered
by petitioners’ health plans receive full and equal
health coverage, including contraceptive coverage.”
Zubik v. Burwell, 136 S. Ct. 1557, 1560 (2016)
(internal quotation marks and citation omitted). The
Court “express[ed] no view on the merits of the cases,”
and did not decide “whether petitioners’ religious

18a
exercise has been substantially burdened, whether
the [g]overnment has a compelling interest, or
whether the current regulations are the least
restrictive means of serving that interest.” Id.
The agencies solicited comments on the
accommodation process in light of Zubik, but
ultimately declined to make further changes. See
Dep’t of Labor, FAQs About Affordable Care Act
Implementation Part 36, at 4, www.dol.gov/sites/
default/files/ebsa/about-ebsa/our-activities/resourcecenter/faqs/aca-part-36.pdf. The agencies concluded,
in part, that “the existing accommodation regulations
are consistent with RFRA” because “the contraceptive-coverage requirement [when viewed in light of
the accommodation] does not substantially burden
the[] exercise of religion.” Id.
On May 4, 2017, the President issued an
executive order directing the secretaries of the
agencies to “consider issuing amended regulations,
consistent with applicable law, to address consciencebased objections to” the ACA’s contraceptive care
requirement. Promoting Free Speech and Religious
Liberty, Exec. Order No. 13,798, 82 Fed. Reg. 21,675,
21,675 (May 4, 2017). Thereafter, effective October 6,
2017, the agencies effectuated two interim final rules
(IFRs) which categorically exempted certain entities
from the contraceptive care requirement. See
Religious Exemptions and Accommodations for
Coverage of Certain Preventive Services Under the
Affordable Care Act, 82 Fed. Reg. 47,792, 47,792 (Oct.
13, 2017); Moral Exemptions and Accommodations for
Coverage of Certain Preventive Services Under the
Affordable Care Act, 82 Fed. Reg. 47,838-01, 47,838
(Oct. 13, 2017). The first exempted all entities “with

19a
sincerely held religious beliefs objecting to
contraceptive or sterilization coverage” and made the
accommodation optional for them. 82 Fed. Reg. at
47,808. The second exempted “additional entities and
persons that object based on sincerely held moral
convictions,” “expand[ed] eligibility for the accommodation to include organizations with sincerely held
moral convictions concerning contraceptive coverage,”
and made the accommodation optional for those
entities. 82 Fed. Reg. at 47,849.
California, Delaware, Maryland, New York, and
Virginia sued the agencies and their secretaries,
seeking to enjoin the enforcement of the IFRs and
alleging that they are invalid under the Administrative Procedure Act (APA). The district court, in
relevant part, held that the plaintiff states had
standing to challenge the IFRs and issued a nationwide preliminary injunction based on the states’
likelihood of success on their procedural APA claim—
that the IFRs were invalid for failing to follow notice
and comment rulemaking. After issuing the injunction, the district court allowed Little Sisters of the
Poor, Jeanne Jugan Residence (Little Sisters) and
March for Life Education and Defense Fund (March
for Life) to intervene.
We affirmed the district court except as to the
nationwide scope of the injunction. See California,
911 F.3d at 585. We limited the geographic scope of
the injunction to the states that were plaintiffs in the
case. See id. Shortly after the panel issued the
opinion, the final rules became effective on January
14, 2019, superseding the IFRs. See Religious
Exemptions and Accommodations for Coverage of
Certain Preventive Services Under the Affordable

20a
Care Act, 83 Fed. Reg. 57,536-01, 57,536 (Nov. 15,
2018); Moral Exemptions and Accommodations for
Coverage of Certain Preventive Services Under the
Affordable Care Act, 83 Fed. Reg. 57,592-01, 57,592
(Nov. 15, 2018). The final rules made “various
changes … to clarify the intended scope of the
language” in “response to public comments,” 83 Fed.
Reg. at 57,537, 57,593. However, the parties agree
that the final rules are materially identical to the
IFRs for the purposes of this appeal.
The plaintiff states then amended their complaint
to enjoin the enforcement of the final rules. They
alleged a number of claims, including that the rules
are substantively invalid under the APA. The
amended complaint joined as plaintiffs the states of
Connecticut, Hawaii, Illinois, Minnesota, North
Carolina, Rhode Island, Vermont, and Washington,
and the District of Columbia. The district court
determined that the final rules were likely invalid as
“arbitrary, capricious, an abuse of discretion, or
otherwise not in accordance with law,” and issued a
preliminary injunction. In light of the concerns
articulated in our prior opinion, see California, 911
F.3d at 582–84, the geographic scope of the injunction
was limited to the plaintiff states. The district court
then proceeded to ready the case for trial. The
agencies, Little Sisters, and March for Life appeal
from the preliminary injunction.
II.
We review standing de novo. See Navajo Nation v.
Dep’t of the Interior, 876 F.3d 1144, 1160 (9th Cir.
2017). We review a preliminary injunction for abuse
of discretion. See Network Automation, Inc. v.

21a
Advanced Sys. Concepts, Inc., 638 F.3d 1137, 1144
(9th Cir. 2011). “In deciding whether the district court
has abused its discretion, we employ a two-part test:
first, we ‘determine de novo whether the trial court
identified the correct legal rule to apply to the relief
requested’; second, we determine ‘if the district court’s
application of the correct legal standard was (1)
illogical, (2) implausible, or (3) without support in
inferences that may be drawn from the facts in the
record.’” Pimentel v. Dreyfus, 670 F.3d 1096, 1105 (9th
Cir. 2012) (quoting Cal. Pharmacists Ass’n v.
Maxwell-Jolly, 596 F.3d 1098, 1104 (9th Cir. 2010)).
The review is highly deferential: we must “uphold a
district court determination that falls within a broad
range of permissible conclusions in the absence of an
erroneous application of law,” and we reverse “only
when” we are “convinced firmly that the reviewed
decision lies beyond the pale of reasonable justification under the circumstances.” Microsoft Corp. v.
Motorola, Inc., 696 F.3d 872, 881 (9th Cir. 2012) (first
quoting Grant v. City of Long Beach, 715 F.3d 1081,
1091 (9th Cir. 2002); then quoting Harman v. Apfel,
211 F.3d 1172, 1175 (9th Cir. 2000)).
III.
We again hold that the plaintiff states have
standing to sue. As the agencies properly recognize,
our prior decision and its underlying reasoning foreclose any arguments otherwise. See California, 911
F.3d at 570–74; Nordstrom v. Ryan, 856 F.3d 1265,
1270–71 (9th Cir. 2017) (holding that, where a panel
previously held in a published opinion that the
plaintiff has standing, that ruling is binding under
“both the law-of-the-case doctrine and our law-of-thecircuit rules”); see also Rocky Mountain Farmers

22a
Union v. Corey, 913 F.3d 940, 951 (9th Cir. 2019)
(“[L]aw of the case doctrine generally precludes
reconsideration of an issue that has already been
decided by the same court, or a higher court in the
identical case”); Miranda v. Selig, 860 F.3d 1237, 1243
(9th Cir. 2017) (“[U]nder the law-of-the-circuit rule,
we are bound by decisions of prior panels[] unless an
en banc decision, Supreme Court decision, or
subsequent legislation undermines those decisions”
(internal quotation marks and alterations omitted)).
Little Sisters and March for Life have not
identified any new factual or legal developments since
our prior decision that require us to reconsider
standing here. To the contrary, a recent decision by
the Supreme Court strongly supports our previous
holding that the plaintiff states have standing. In
Department of Commerce v. New York, 139 S. Ct.
2551, 2566 (2019), the Supreme Court held that the
plaintiff states had standing, even though their
claims of harm depended on unlawful conduct of third
parties, because their theory of standing “relies . . . on
the predictable effect of Government action on the
decisions of third parties.” See also id. (“Article III
requires no more than de facto causality” (internal
quotation marks omitted)). Here, the plaintiff states’
theory of causation depends on wholly lawful conduct
and on the federal government’s own prediction about
the decisions of third parties. See California, 911 F.3d
at 571–73.
IV.
The thoughtful dissent suggests that this appeal
is moot because, the day after the district court issued
its injunction of limited scope, covering the territory

23a
of the thirteen plaintiff states plus the District of
Columbia, a district court in Pennsylvania issued a
similar nationwide injunction. See Pennsylvania v.
Trump, 351 F. Supp. 3d 791, 835 (E.D. Pa.), aff’d 930
F.3d 543 (3d Cir.), petition for cert. filed, __ U.S.L.W.
__ (U.S. Oct. 1, 2019) (No. 19-431). According to the
dissent, the nationwide injunction prevents us from
giving effective relief to the parties here and, accordingly, moots this appeal. We ordered supplemental
briefing on whether this appeal is moot, and the
parties unanimously agreed that this appeal is not
moot despite the nationwide injunction from
Pennsylvania. We agree.
As an initial matter, to our knowledge, no court
has adopted the view that an injunction imposed by
one district court against a defendant deprives every
other federal court of subject matter jurisdiction over
a dispute in which a plaintiff seeks similar equitable
relief against the same defendant. Instead, “in
practice, nationwide injunctions do not always foreclose percolation.” Spencer E. Amdur & David
Hausman, Nationwide Injunctions and Nationwide
Harm, 131 Harv. L. Rev. F. 49, 53 (2017). For
example, both this court and the Fourth Circuit
recently “reviewed the travel bans, despite
nationwide injunctions in both.” Id. at n.27.
The dissent appears to raise the “potentially
serious problem” of “conflicting injunctions” that arise
from the “forum shopping and decisionmaking effects
of the national injunction.” Samuel L. Bray, Multiple
Chancellors: Reforming the National Injunction, 131
Harv. L. Rev. 417, 462–63 (2017). Although courts
have addressed this problem in the past, no court has
done so based on justiciability principles.

24a
For example, we have held that, “[w]hen an
injunction sought in one proceeding would interfere
with another federal proceeding, considerations of
comity require more than the usual measure of
restraint, and such injunctions should be granted only
in the most unusual cases.” Bergh v. Washington, 535
F.2d 505, 507 (9th Cir. 1976). Significantly, however,
the attempt “to avoid the waste of duplication, to
avoid rulings which may trench upon the authority of
sister courts, and to avoid piecemeal resolution of
issues that call for a uniform result” has always been
a prudential concern, not a jurisdictional one. W. Gulf
Mar. Ass’n v. ILA Deep Sea Local 24, S. Atl. & Gulf
Coast Dist. of ILA, 751 F.2d 721, 729 (5th Cir. 1985).
The dissent claims that the majority is “making
the same mistake today that we made in Yniguez v.
Arizonans for Official English, when in our zeal to
correct what we thought was a wrong, we issued an
injunction on behalf of an individual regarding her
workplace.” Dissent at 43 (footnote omitted). Yniguez
is inapposite.
There, the United States Supreme Court reversed
our decision, holding that the plaintiff’s “changed
circumstances—her resignation from public sector
employment to pursue work in the private sector—
mooted the case stated in her complaint.” Arizonans
for Official English v. Arizona, 520 U.S. 43, 72 (1997).
Here, by contrast, the facts and circumstances
supporting the preliminary injunction have not
materially changed such that we are unable to affirm
the relief that the plaintiff states seek to have
affirmed. This is therefore not a case in which “the
activities sought to be enjoined already have occurred,
and the appellate courts cannot undo what has

25a
already been done” such that “the action is moot, and
must be dismissed.” Foster v. Carson, 347 F.3d 742,
746 (9th Cir. 2003) (quoting Bernhardt v. Cty. of Los
Angeles, 279 F.3d 862, 871 (9th Cir. 2002)). Article III
simply requires that our review provide redress for
the asserted injuries, which the district court’s
preliminary injunction achieves.
The dissent’s logic also proves too much. If a court
lacks jurisdiction to consider the propriety of an
injunction over territory that is already covered by a
different injunction, then the Pennsylvania district
court lacked jurisdiction to issue an injunction beyond
the territory of the thirty-seven states not parties to
this case. After all, when the Pennsylvania district
court issued its injunction, the district court here had
issued its injunction of limited geographic scope. We
hesitate to apply a rule that means that the Pennsylvania district court plainly acted beyond its jurisdiction. At most, then, the dissent’s reasoning would
lead us to conclude that the Pennsylvania injunction
is limited in scope to the territory of those thirtyseven non-party states. Under that interpretation,
the two injunctions complement each other and do not
conflict.
In any event, even if the Pennsylvania injunction
has a fully nationwide scope, we nevertheless retain
jurisdiction under the exception to mootness for cases
capable of repetition, yet evading review. “A dispute
qualifies for that exception only if (1) the challenged
action is in its duration too short to be fully litigated
prior to its cessation or expiration, and (2) there is a
reasonable expectation that the same complaining
party will be subjected to the same action again.”
United States v. Sanchez-Gomez, 138 S. Ct. 1532,

26a
1540 (2018) (internal quotation marks and citation
omitted). The first part is indisputably met here
because the interval between the limited injunction
and the nationwide injunction was one day—clearly
“too short [for the preliminary injunction] to be fully
litigated prior to its cessation or expiration.” Id. (quoting Turner v. Rogers, 564 U.S. 431, 439–40 (2011)).
The second part, too, is met because there is a
reasonable expectation that the federal defendants
will, again, be subjected to the injunction in this case.
See Enyart v. Nat’l Conf. of Bar Exam’rs, Inc., 630
F.3d 1153, 1159 (9th Cir. 2011) (applying the “capable
of repetition” exception on appeal from a preliminary
injunction and querying whether the defendant would
again be subjected to a preliminary injunction). In the
Pennsylvania case, a petition for certiorari challenges, among other things, the nationwide scope of
the Pennsylvania injunction. See Petition for Writ of
Certiorari, Little Sisters v. Pennsylvania, at 31–33
(No. 19-431). Given the recent prominence of the issue
of nationwide injunctions, the Supreme Court very
well may vacate the nationwide scope of the injunction. See Amanda Frost, In Defense of Nationwide
Injunctions, 93 N.Y.U. L. Rev. 1065, 1119 (2018)
(collecting arguments for and against nationwide
injunctions against the backdrop of “the recent surge
in nationwide injunctions”).
But no matter what action, if any, the Supreme
Court takes, the preliminary injunction in the
Pennsylvania case is, like all preliminary injunctions,
of limited duration. Once the Pennsylvania district
court rules on the merits of that case, the preliminary
injunction will expire. At that point, the federal defen-

27a
dants will once again be subjected to the injunction in
this case.
One possibility is to the contrary: the Pennsylvania district court could rule in favor of the plaintiffs,
choose to exercise its discretion to issue a permanent
injunction, and choose to exercise its discretion to give
the permanent injunction nationwide effect despite
the existence of an injunction in this case. That mere
possibility does not, however, undermine our conclusion that, given the many other possible outcomes
in the Pennsylvania case, there remains a “reasonable
expectation” that the federal defendants will be
subjected to the injunction in this case. A “reasonable
expectation” does not demand certainty.
We acknowledge that we are in uncharted waters.
The Supreme Court has yet to address the effect of a
nationwide preliminary injunction on an appeal
involving a preliminary injunction of limited scope.
Our approach to mootness in this case is consistent
with the Supreme Court’s interest in allowing the law
to develop across multiple circuits. If, of course, our
assessment of jurisdiction is incorrect such that, for
example, we should stay this appeal pending the
outcome in Pennsylvania, then we welcome guidance
from the Supreme Court. Under existing precedent,
however, we conclude that this appeal is not moot.
V.
A preliminary injunction is a matter of equitable
discretion and is “an extraordinary remedy that may
only be awarded upon a clear showing that the
plaintiff is entitled to such relief.” Winter v. NRDC,
555 U.S. 7, 22 (2008) (citing Mazurek v. Armstrong,
520 U.S. 968, 972 (1997)). “A party can obtain a

28a
preliminary injunction by showing that (1) it is ‘likely
to succeed on the merits,’ (2) it is ‘likely to suffer
irreparable harm in the absence of preliminary relief,’
(3) ‘the balance of equities tips in [its] favor,’ and (4)
‘an injunction is in the public interest.’” Disney
Enters., Inc. v. VidAngel, Inc., 869 F.3d 848, 856 (9th
Cir. 2017) (quoting Winter, 555 U.S. at 20).
Alternatively, an injunction may issue where the
likelihood of success is such that “serious questions
going to the merits” were raised and the balance of
hardships “tips sharply toward the plaintiff,”
provided that the plaintiff can also demonstrate the
other two Winter factors. Alliance for the Wild Rockies
v. Cottrell, 632 F.3d 1127, 1131–32 (9th Cir. 2011).
The district court issued its injunction after
concluding that all four factors were met here. We
address each factor in turn.
A.
The APA requires that an agency action be held
“unlawful and [be] set aside” where it is “arbitrary,
capricious,” “not in accordance with the law,” or “in
excess of statutory jurisdiction.” 5 U.S.C. § 706(2).
The district court concluded that the plaintiff states
are likely to succeed on the merits of their APA claim
or, at the very least, raised serious questions going to
the merits. In particular, the district court determined that the agencies likely lacked the authority to
issue the final rules and that the rules likely are
arbitrary and capricious. The district court did not
abuse its discretion in so concluding.

29a
1.
“[A]n agency literally has no power to act . . .
unless and until Congress confers power upon it.”
Louisiana Pub. Serv. Comm’n v. FCC, 476 U.S. 355,
374 (1986). In reviewing the scope of an agency’s
authority to act, “the question . . . is always whether
the agency has gone beyond what Congress has
permitted it to do.” City of Arlington v. FCC, 569 U.S.
290, 297–98 (2013). The agencies have determined
that the ACA gives them “significant discretion to
shape the content, scope, and enforcement of any
preventative-services guidelines adopted” pursuant
to the Women’s Health Amendment. Specifically, the
agencies highlight that “nothing in the statute
mandated that the guidelines include contraception,
let alone for all types of employers with covered
plans.”
We examine the “plain terms” and “core purposes”
of the Women’s Health Amendment to determine
whether the agencies have authority to issue the final
rules. FERC v. Elec. Power Supply Ass’n, 136 S. Ct.
760, 773 (2016). The statute requires that group
health plans and insurance issuers “shall, at a
minimum provide coverage for and shall not impose
any cost sharing requirements for . . . with respect to
women, such additional preventive care and
screenings . . . as provided for in the comprehensive
guidelines supported by [HRSA].” 42 U.S.C. § 300gg13(a)(4). First, “shall” is a mandatory term that
“normally creates an obligation impervious to . . .
discretion.” Lexecon Inc. v. Milberg Weiss Bershad
Hynes & Lerach, 523 U.S. 26, 35 (1998). By its plain
language, the statute states that group health plans
and insurance issuers must cover preventative care

30a
without cost sharing. See BP Am. Prod. Co. v. Burton,
549 U.S. 84, 91 (2006) (“[S]tatutory terms are
generally interpreted in accordance with their
ordinary meaning”).
The statute grants HRSA the limited authority to
determine which, among the different types of
preventative care, are to be covered. See Hobby Lobby,
573 U.S. at 697 (“Congress itself, however, did not
specify what types of preventive care must be covered
. . . . Congress authorized [HRSA] . . . to make that
important and sensitive decision”). But nothing in the
statute permits the agencies to determine exemptions
from the requirement. In other words, the statute
delegates to HRSA the discretion to determine which
types of preventative care are covered, but the statute
does not delegate to HRSA or any other agency the
discretion to exempt who must meet the obligation. To
interpret the statute’s limited delegation more
broadly would contradict the plain language of the
statute. See Arlington, 569 U.S. at 296 (“Congress
knows to speak in plain terms when it wishes to
circumscribe, and in capacious terms when it wishes
to enlarge, agency discretion”). Although the agencies
argue otherwise, “an agency’s interpretation of a
statute is not entitled to deference when it goes
beyond the meaning that the statute can bear.” MCI
Telecomms Corp. v. Am. Tel. & Tel. Co., 512 U.S. 218,
229 (1994).
Our interpretation is consistent with the ACA’s
statutory scheme. When enacting the ACA, Congress
did provide for religious and moral protections in
certain contexts. See, e.g., 42 U.S.C. § 18113 (assisted
suicide procedures). It did not provide for similar
protections regarding the preventative care require-

31a
ment. Instead, Congress chose to provide for other
exceptions to that requirement, such as for
grandfathered plans. See 42 U.S.C. § 18011. “[W]hen
Congress provides exceptions in a statute, . . . [t]he
proper inference . . . is that Congress considered the
issue of exceptions and, in the end, limited that
statute to the ones set forth.” United States v.
Johnson, 529 U.S. 53, 58 (2000). In fact, after the
ACA’s passage, the Senate considered and rejected a
“conscience amendment,” 158 Cong. Rec. S538–39
(Feb. 9, 2012); id. at S1162–73 (Mar. 1, 2012), that
would have allowed health plans to decline to provide
contraceptive coverage contrary to asserted religious
or moral convictions. See Doe v. Chao, 540 U.S. 614,
622 (2004) (reversing award of damages, in part,
because of “drafting history showing that Congress
cut out the very language in the bill that would have
authorized [them]”). While Congress’s failure to adopt
a proposal is often a “particularly dangerous ground
on which to rest an interpretation” of a statute,
Interstate Bank of Denver, N.A. v. First Interstate
Bank of Denver, N.A., 511 U.S. 164, 187 (1994), the
conscience amendment’s failure combined with the
existence of other exceptions suggests that Congress
did not contemplate a conscience exception when it
passed the ACA.
The “core purpose[]” of the Women’s Health
Amendment further confirms our interpretation.
FERC, 136 S. Ct. at 773; see also Sec. Indus. Ass’n v.
Bd. of Governors of Fed. Reserve Sys., 468 U.S. 137,
143 (1984) (“A reviewing court ‘must reject administrative constructions of [a] statute, whether reached
by adjudication or by rulemaking, that are inconsistent with the statutory mandate or that frustrate

32a
the policy that Congress sought to implement’”
(quoting FEC v. Democratic Senatorial Campaign
Comm’n, 454 U.S. 27, 32 (1981))). The legislative
history indicates that the Amendment sought to
“requir[e] that all health plans cover comprehensive
women’s preventative care and screenings—and cover
these recommended services at little or no cost to
women.” 155 Cong. Rec. S12025 (Dec. 1, 2009) (Sen.
Boxer); id. at S12028 (Sen. Murray highlighting that
a “comprehensive list of women’s preventive services
will be covered”); id. at S12042 (Sen. Harkin stating
that “[b]y voting for this amendment . . . we can
ensure that all women will have access to the same
baseline set of comprehensive preventive benefits”).
While legislators’ individual comments do not
necessarily prove intent of the majority of the
legislature, here the Amendment’s supporters and
sponsors delineated that the types of “preventive
services covered . . . would be determined by [HRSA]
to meet the unique preventative health needs of
women.” Id. at S12025 (Sen. Boxer); see also id. at
S12027 (Sen. Gillibrand stating that “[t]his
amendment will ensure that the coverage of women’s
preventive services is based on a set of guidelines
developed by women’s health experts”); id. at S12026
(Sen. Mikulski stating that “[i]n my amendment we
expand the key preventive services for women, and we
do it in a way that is based on recommendations . . .
from HRSA”). In this case, at the preliminary
injunction stage, the evidence is sufficient for us to
hold that providing free contraceptive services was a
core purpose of the Women’s Health Amendment.
In response, the appellants highlight that they
have already issued rules exempting churches from

33a
the contraceptive care requirement, invoking the
same statutory provision. See Group Health Plans
and Health Insurance Issuers Relating to Coverage of
Preventive Services under the Patient Protection and
Affordable Care Act, 76 Fed. Reg. 46621-01, 46,623
(Aug. 3, 2011). The legality of the church exemption
rules is not before us, and we will not render an
advisory opinion on that issue. See Alameda Conservation Ass’n v. California, 437 F.2d 1087, 1093 (9th
Cir. 1971). Moreover, the existence of one exemption
does not necessarily justify the authority to issue a
different exemption or any other exemption that the
agencies decide. Cf. California, 911 F.3d at 575–76
(stating that “prior invocations of good cause to justify
different IFRs—the legality of which are not
challenged here—have no relevance”).
Given the text, purpose, and history of the
Women’s Health Amendment, the district court did
not err in concluding that the agencies likely lacked
statutory authority under the ACA to issue the final
rules.
2.
Under RFRA, the government “shall not
substantially burden a person’s exercise of religion
even if the burden results from a rule of general
applicability” unless “it demonstrates that application of the burden to the person—(1) is in
furtherance of a compelling governmental interest;
and (2) is the least restrictive means of furthering
that compelling governmental interest.” 42 U.S.C. §
2000bb-1(a)–(b). The appellants argue that the
regulatory regime that existed before the rules’
issuance—i.e., the accommodation process—violated

34a
RFRA. They argue that RFRA requires, or at least
authorizes, them to eliminate the violation by issuing
the religious exemption2 and “not simply wait for the
inevitable lawsuit and judicial order to comply with
RFRA.”
As a threshold matter, we question whether
RFRA delegates to any government agency the
authority to determine violations and to issue rules
addressing alleged violations. At the very least, RFRA
does not make such authority explicit. Compare 42
U.S.C. § 2000bb-1, with 47 U.S.C. § 201(b) (delegating
agency authority to “prescribe such rules and
regulations as may be necessary in the public interest
to carry out the provisions of the Act”), and 15 U.S.C.
§ 77s(a) (“The Commission shall have authority from
time to time to make, amend, and rescind such rules
and regulations as may be necessary to carry out the
provisions of this subchapter”). Instead, RFRA
appears to charge the courts with determining
violations. See 42 U.S.C. § 2000bb-1(c) (providing that
a person whose religious exercise has been burdened
“may assert that violation . . .
in a judicial
proceeding” (emphasis added)); Gonzales v. O Centro
Espirita Beneficente Uniao do Vegetal, 546 U.S. 418,
434 (2006) (“RFRA makes clear that it is the
obligation of the courts to consider whether
exceptions are required under the test set forth by
Congress”).

RFRA pertains only to the exercise of religion; it does not
concern moral convictions. For that reason, the appellants’
RFRA argument is limited to the religious exemption only.
RFRA plainly does not authorize the moral exemption.
2

35a
Moreover, even assuming that agencies are
authorized to provide a mechanism for resolving perceived RFRA violations, RFRA likely does not
authorize the religious exemption at issue in this
case, for two independent reasons. First, the religious
exemption contradicts congressional intent that all
women have access to appropriate preventative care.
The religious exemption is thus notably distinct from
the accommodation, which attempts to accommodate
religious objectors while still meeting the ACA’s
mandate that women have access to preventative
care. The religious exemption here chooses winners
and losers between the competing interests of two
groups, a quintessentially legislative task. Strikingly,
Congress already chose a balance between those
competing interests and chose both to mandate
preventative care and to reject religious and moral
exemptions. The agencies cannot reverse that
legislatively chosen balance through rulemaking.
Second, the religious exemption operates in a
manner fully at odds with the careful, individualized,
and searching review mandate by RFRA. Federal
courts accept neither self-certifications that a law
substantially burdens a plaintiff’s exercise of religion
nor blanket assertions that a law furthers a
compelling governmental interest. Instead, before
reaching those conclusions, courts make individualized determinations dependent on the facts of the
case, by “careful[ly]” considering the nature of the
plaintiff’s beliefs and “searchingly” examining the
governmental interest. Wisconsin v. Yoder, 406 U.S.
205, 215, 221 (1972). “[C]ontext matters.” Cutter v.
Wilkinson, 544 U.S. 709, 723 (2005); see O Centro, 546
U.S. at 430–31 (“RFRA requires the Government to

36a
demonstrate that the compelling interest test is
satisfied through application of the challenged law ‘to
the person’—the particular claimant whose sincere
exercise of religion is being substantially burdened”
(quoting 42 U.S.C. § 2000bb-1(b)); Oklevueha Native
Am. Church of Haw., Inc. v. Lynch, 828 F.3d 1012,
1015–17 (9th Cir. 2016) (holding that, although
plaintiffs in other cases had established that a prohibition on the use of certain drugs was a substantial
burden on those plaintiffs’ exercise of religion, the
plaintiffs in this case had not met their burden of
establishing that the prohibition on cannabis use
imposed a substantial burden on the plaintiffs’
exercise of religion). In sum, the agencies here claim
an authority under RFRA—to impose a blanket
exemption for self-certifying religious objectors—that
far exceeds what RFRA in fact authorizes.3 See Hobby
Lobby, 573 U.S. at 719 n.30 (noting that a proposed
“blanket exemption” for religious objectors “extended
more broadly than the . . . protections of RFRA”
because it “would not have subjected religious-based
objections to the judicial scrutiny called for by RFRA,
in which a court must consider not only the burden of
The religious exemption’s automatic acceptance of a selfcertification is particularly troublesome given that it has an
immediate detrimental effect on the employer’s female
employees. The religious exemption fails to “take adequate
account of the burdens . . . impose[d] on nonbeneficiaries.”
Cutter, 544 U.S. at 720. Similarly, the exemption is not
“measured so that it does not override other significant
interests.” Id. at 722; see also Estate of Thornton v. Caldor, Inc.,
472 U.S. 703, 709–10 (1985) (invalidating a law that “arm[ed]”
one type of religious objector “with an absolute and unqualified
right” to violate otherwise applicable laws, holding that “[t]his
unyielding weighting in favor of [a religious objector] over all
other interests” violates the Religion Clauses).
3

37a
a requirement on religious adherents, but also the
government’s interest and how narrowly tailored the
requirement is”).
Regardless of our questioning of the agencies’
authority pursuant to RFRA, however, it is of no
moment in this appeal because the accommodation
process likely does not substantially burden the
exercise of religion and hence does not violate RFRA.
“[A] ‘substantial burden’ is imposed only when
individuals are forced to choose between following the
tenets of their religion and receiving a governmental
benefit. . . or coerced to act contrary to their religious
beliefs by the threat of civil or criminal sanctions.”
Navajo Nation v. United States Forest Serv., 535 F.3d
1058, 1070 (9th Cir. 2008); see also Kaemmerling v.
Lappin, 553 F.3d 669, 678 (D.C. Cir. 2008) (“An
inconsequential or de minimis burden on religious
practice” is not a substantial burden). Whether a
government action imposes a substantial burden on
sincerely-held religious beliefs is a question of law.
Guam v. Guerrero, 290 F.3d 1210, 1222 n.20 (9th Cir.
2002).
The Supreme Court has not yet decided whether
the accommodation violates RFRA. In Hobby Lobby,
the Court suggested that it did not. The Court
described the accommodation as “effectively
exempt[ing] certain religious nonprofit organizations
. . . from the contraceptive mandate.” 573 U.S. at 698.
The Court characterized the accommodation as “an
approach that is less restrictive than requiring
employers to fund contraceptive methods that violate
their religious beliefs.” Id. at 730. It observed that,
“[a]t a minimum, [the accommodation did] not
impinge on the plaintiffs’ religious belief that

38a
providing insurance coverage for the contraceptives
at issue here violates their religion, and it serves
HHS’s stated interests equally well.” Id. at 731.
Specifically, it highlighted that, “[u]nder the
accommodation, the plaintiffs’ female employees
would continue to receive contraceptive coverage
without cost sharing for all FDA-approved contraceptives, and they would continue to ‘face minimal
logistical and administrative obstacles . . . because
their employers’ insurers would be responsible for
providing information and coverage.” Id. at 732
(citing 45 CFR §§ 147.131(c)–(d)).
Indeed, before Zubik, eight courts of appeals (of
the nine to have considered the issue) had concluded
that the accommodation process did not impose a
substantial burden on religious exercise under
RFRA.4 The Supreme Court then vacated the nine

4 See Priests for Life v. U.S. Dep’t of Health & Human
Servs., 772 F.3d 229 (D.C. Cir. 2014), vacated, Zubik, 136 S. Ct.
at 1561; Catholic Health Care Sys. v. Burwell, 796 F.3d 207 (2d
Cir. 2015), vacated, 136 S. Ct. 2450 (2016); Geneva Coll. v. Sec’y
U.S. Dep’t of Health & Human Servs., 778 F.3d 422 (3d Cir.
2015), vacated, Zubik, 136 S. Ct. at 1561; E. Tex. Baptist Univ.
v. Burwell, 793 F.3d 449 (5th Cir. 2015), vacated, Zubik, 136 S.
Ct. at 1561; Mich. Catholic Conference & Catholic Family Servs.
v. Burwell, 807 F.3d 738 (6th Cir. 2015), vacated, 136 S. Ct. 2450
(2016); Grace Schs. v. Burwell, 801 F.3d 788 (7th Cir. 2015),
vacated, 136 S. Ct. 2011 (2016); Little Sisters of the Poor Home
for the Aged, Denver, Colo. v. Burwell, 794 F.3d 1151 (10th Cir.
2015), vacated, Zubik, 136 S. Ct. at 1561; Eternal Word
Television Network v. Sec’y of U.S. Dep’t Health & Human Servs.,
818 F.3d 1122 (11th Cir. 2016), vacated, 2016 WL 11503064
(11th Cir. May 31, 2016) (No. 14-12696-CC), as modified by 2016
WL 11504187 (11th Cir. Oct. 3, 2016).

39a
circuit cases addressing the issue without discussing
the merits. See, e.g., Zubik, 136 S. Ct. at 1560. After
Zubik, the Third Circuit has reiterated that the
accommodation process did not impose a substantial
burden under RFRA. See Real Alternatives, Inc. v.
Sec’y Dep't of Health & Human Servs., 867 F.3d 338,
356 n.18 (3d Cir. 2017) (“Although our judgment in
Geneva was vacated by the Supreme Court, it
nonetheless sets forth the view of our [c]ourt, which
was based on Supreme Court precedent, that we
continue to believe to be correct regarding . . . our
conclusion that the regulation at issue there did not
impose a substantial burden”).
We have not previously expressed any views on
the matter, whether before or after Zubik. We now
hold that the accommodation process likely does not
substantially burden the exercise of religion. An
organization with a sincere religious objection to
arranging contraceptive coverage need only send a
self-certification form to the insurance issuer or the
TPA, or send a written notice to DHHS. See 29 C.F.R.
§ 2590.715-2713A(b)(1)(ii). Once the organization has
taken the simple step of objecting, all actions taken to
pay for or provide the organization’s employees with
contraceptive care is carried out by a third party, i.e.,
Only the Eighth Circuit has concluded otherwise. See
Sharpe Holdings, Inc. v. U.S. Dep’t of Health & Human Servs.,
801 F.3d 927, 945 (8th Cir. 2015) (affirming grant of preliminary
injunction to religious objectors because “they [were] likely to
succeed on the merits of their RFRA challenge to the
contraceptive mandate and the accommodation regulations”),
vacated sub nom. Dep’t of Health & Human Servs. v. CNS Int’l
Ministries, No. 15-775, 2016 WL 2842448, at *1 (U.S. May 16,
2016).

40a
insurance issuer or TPA. See, e.g., 45 C.F.R. §
147.131(d) (requiring that the issuer or third-party
administrator notify the employees in separate
mailing that that it will be providing contraceptive
care separate from the employer, with the mailing
specifying that employer is in no way “administer[ing]
or fund[ing]” the contraceptive care); 45 C.F.R. §
147.131(d) (prohibiting third parties from directly or
indirectly charging objecting organizations for the
cost of contraceptive coverage and obligating the third
parties to pay for the contraceptive care).
Once it has opted out, the organization’s
obligation to contract, arrange, pay, or refer for access
to contraception is completely shifted to third parties.
The organization may then freely express its
opposition to contraceptive care. Viewed objectively,
completing a form stating that one has a religious
objection is not a substantial burden—it is at most a
de minimis burden. The burden is simply a
notification, after which the organization is relieved
of any role whatsoever in providing objectionable
care. By contrast, cases involving substantial burden
under RFRA have involved more significant burdens
on religious objectors. See O Centro, 546 U.S. at 425–
26 (substantial burden where the Controlled
Substances Act prevented the religious objector
plaintiffs from ever again engaging in a sacramental
ritual); Hobby Lobby, 573 U.S. at 719–26 (substantial
burden, in the absence of the accommodation, where
the contraceptive care requirement required for-profit
corporations to pay out-of-pocket for the use of
religiously-objectionable
contraceptives
by
employees).

41a
Appellants further argue that religious organizations are forced to be complicit in the provision of
contraceptive care, even with the accommodation. But
even in the context of a self-insured plan subject to
ERISA, an objecting organization’s only act—and the
only act required by the government—is opting out by
form or notice. The objector need not separately
contract to provide or fund contraceptive care. The
accommodation, in fact, is designed to ensure such
organizations are not complicit and to minimize their
involvement. To the extent that appellants object to
third parties acting in ways contrary to an
organization’s religious beliefs, they have no recourse.
See Lyng v. Nw. Indian Cemetery Protective Ass’n, 485
U.S. 439, 449 (1988) (government action does not
constitute a substantial burden, even if the
challenged action “would interfere significantly with
private persons’ ability to pursue spiritual fulfillment
according to their own religious beliefs,” if the
government action does not coerce the individuals to
violate their religious beliefs or deny them “the rights,
benefits, and privileges enjoyed by other citizens”).
RFRA does not entitle organizations to control their
employees’ relationships with third parties that are
willing and obligated to provide contraceptive care.
Because appellants likely have failed to
demonstrate a substantial burden on religious
exercise, we need not address whether the government has shown a compelling interest or whether it
has adopted the least restrictive means of advancing
that interest. See Forest Serv., 535 F.3d at 1069.
Because the accommodation process likely does not
violate RFRA, the final rules are neither required by,

42a
nor authorized under, RFRA.5 The district court did
not err in so concluding.
3.
“Unexplained inconsistency” between an agency’s
actions is “a reason for holding an interpretation to be
an arbitrary and capricious change.” Nat’l Cable &
Telecomms. Ass’n v. Brand X Internet Servs., 545 U.S.
967, 981 (2005). A rule change complies with the APA
if the agency (1) displays “awareness that it is
changing position,” (2) shows that “the new policy is
permissible under the statute,” (3) “believes” the new
policy is better, and (4) provides “good reasons” for the
new policy, which, if the “new policy rests upon
factual findings that contradict those which underlay
its prior policy,” must include “a reasoned explanation
. . . for disregarding facts and circumstances that
underlay or were engendered by the prior policy.”
FCC v. Fox Television Stations, Inc., 556 U.S. 502,
515–16 (2009) (emphasis omitted); see also Encino
Motorcars, LLC v. Navarro, 136 S. Ct. 2117, 2124–26
(2016) (describing these principles).
The district court held that the states are also
likely to prevail on their claim that the agencies failed
to provide “a reasoned explanation . . . for disregarding facts and circumstances that underlay or
were engendered by the prior policy.” We need not
reach this issue, having already concluded that no
Little Sisters also points to 42 U.S.C. § 2000bb-4, but that
provision merely provides that exemptions that otherwise
comply with the Establishment Clause “shall not constitute a
violation” of RFRA. It does not address whether federal agencies
have the authority affirmatively to create exemptions in the first
instance.
5

43a
statute likely authorized the agencies to issue the
final rules and that the rules were thus impermissible. We will reach the full merits of this issue, if
necessary, upon review of the district court’s decision
on the permanent injunction
B.
A plaintiff seeking preliminary relief must
“demonstrate that irreparable injury is likely in the
absence of an injunction.” Winter, 555 U.S. at 22
(emphasis omitted). The analysis focuses on irreparability, “irrespective of the magnitude of the injury.”
Simula, Inc. v. Autoliv, Inc., 175 F.3d 716, 725 (9th
Cir. 1999).
The district court concluded that the states are
likely to suffer irreparable harm absent an injunction.
This decision was not an abuse of discretion. As
discussed in our prior opinion, the plaintiff states will
likely suffer economic harm from the final rules, and
such harm is irreparable because the states will not
be able to recover monetary damages flowing from the
final rules. California, 911 F.3d at 581. This harm is
not speculative; it is sufficiently concrete and
supported by the record. Id.
C.
Because the government is a party, we consider
the balance of equities and the public interest
together. Drakes Bay Oyster Co. v. Jewell, 747 F.3d
1073, 1092 (9th Cir. 2014). The district court
concluded that the balance of equities tips sharply in
favor of the plaintiff states and that the public
interest tip in favor of granting the preliminary
injunction. We have considered the district court’s

44a
analysis carefully, and we hold there is no basis to
conclude that its decision was illogical, implausible,
or without support in the record. Finalizing that issue
must await any appeal from the district court’s
permanent injunction.
VI.
We affirm the preliminary injunction, but we
emphasize that our review here is limited to abuse of
discretion. Because of the limited scope of our review
and “because the fully developed factual record may
be materially different from that initially before the
district court,” our disposition is only preliminary.
Melendres v. Arpaio, 695 F.3d 990, 1003 (9th Cir.
2012) (quoting Sports Form, Inc. v. United Press Int’l,
Inc., 686 F.2d 750, 753 (9th Cir. 1982)). At this stage,
“[m]ere disagreement with the district court’s
conclusions is not sufficient reason for us to reverse
the district court’s decision regarding a preliminary
injunction.” Nat’l Wildlife Fed’n v. Nat’l Marine
Fisheries Serv., 422 F.3d 782, 793 (9th Cir. 2005). The
injunction only preserves the status quo until the
district court renders judgment on the merits based
on a fully developed record.
AFFIRMED.
_________________________________________________

45a
KLEINFELD, Senior Circuit Judge, dissenting
I respectfully dissent. This case is moot, so we
lack jurisdiction to address the merits.
The casual reader may imagine that the dispute
is about provision of contraception and abortion
services to women. It is not. No woman sued for an
injunction in this case, and no affidavits have been
submitted from any women establishing any question
in this case about whether they will be deprived of
reproductive services or harmed in any way by the
modification of the regulation.
This case is a claim by several states to prevent a
modification of a regulation from going into effect,
claiming that it will cost them money. Two federal
statutes are at issue, the Affordable Care Act1 and the
Religious Freedom Restoration Act,2 as well as the
Trump Administration’s modification of an Obama
Administration regulation implementing the Affordable Care Act. But the injunction before us no longer
matters, because a national injunction is already in
effect, and has been since January 14 of this year,
preventing the modification from going into effect.3
Nothing we say or do in today’s decision has any
practical effect on the challenged regulation. We are
racing to shut a door that has already been shut. We
are precluded, by the case-or-controversy requirement of Article III, section 2, from opining on whether
1

42 U.S.C. §§ 18001 et seq.

2

42 U.S.C. §§ 2000bb et seq.

Pennsylvania v. Trump, 351 F. Supp. 3d 791, 835 (E.D.
Pa.), aff'd sub nom. Pennsylvania v. President United States, 930
F.3d 543 (3d Cir. 2019), as amended (July 18, 2019).
3

46a
the door ought to be shut. We are making the same
mistake today that we made in Yniguez v. Arizonans
for Official English,4 when in our zeal to correct what
we thought was a wrong, we issued an injunction on
behalf of an individual regarding her workplace. She
no longer worked there, so the Supreme Court
promptly corrected our error because the case was
moot.
The case arises from the difficulty of working out
the relationship between the two statutes, the
regulations under the Affordable Care Act, and a
sequence of Supreme Court decisions bearing on how
the tensions between the two statutes ought to be
relieved. The Affordable Care Act does not say a word
about contraceptive or sterilization services for
women. Congress delegated to the executive branch
the entire matter of “such additional preventive care
and screenings” as the executive agencies might
choose to provide for.
Executive
branch
agencies,
within
the
Department of Health and Human Services, created
from this wide-open congressional delegation what is
called “the contraceptive mandate.” Here is the
statutory language:
A group health plan and a health insurance
issuer offering group or individual health
insurance coverage shall, at a minimum
provide coverage for and shall not impose any
cost sharing requirements for–

Yniguez v. Arizonans for Official English, 69 F.3d 920 (9th
Cir. 1995), vacated sub nom. Arizonans for Official English v.
Arizona, 520 U.S. 43 (1997).
4

47a
. . . respect to women, such additional
with
preventive care and screenings . . . as
provided for in comprehensive guidelines
supported by the Health Resources and
Services Administration for purposes of this
paragraph.5
In 2011, the agencies (not Congress) issued the
guideline applying the no-cost-sharing statutory
provision to contraceptive and sterilization services.
And since then, the public fervor and litigation has
never stopped.
The agencies decided that an exemption ought to
be created for certain religious organizations. An
interim rule doing so was promulgated in 2011, after
the agencies “received considerable feedback” from
the public,6 then in 2012, after hundreds of thousands
more comments, the agencies modified the rule. The
Supreme Court weighed in on the ongoing controversy about the religious accommodation exemption
to the contraceptives mandate three times, in Burwell
v. Hobby Lobby,7 Wheaton College v. Burwell,8 and
Zubik v. Burwell,9 in 2014 and 2016. None of the
decisions entirely resolved the tension between the
5

42 U.S.C. § 300gg-13(a)(4) (emphasis added).

6

76 Fed. Reg. 46,623.

Burwell v. Hobby Lobby Stores, Inc., 573 U.S. 682, 735
(2014).
7

8

Wheaton Coll. v. Burwell, 573 U.S. 958 (2014).

9

Zubik v. Burwell, 136 S. Ct. 1557, 1559 (2016) (per curiam).

48a
Religious Freedom Restoration Act and the
Affordable Care Act as extended by the contraceptive
mandate regulations. The Court instead gave the
parties “an opportunity to arrive at an approach going
forward that accommodate petitioners’ religious
exercise while at the same time ensuring that women
covered by petitioners’ health plans receive full and
equal health coverage, including contraceptive
coverage.”10 Thousands of comments kept coming to
the agencies. After Zubik, the agencies basically said
they could not do what the Supreme Court said to do:
“no feasible approach . . . would resolve the concerns
of religious objectors, while still ensuring that the
affected women receive full and equal health
coverage.”11 But in 2017, after an executive order
directing the agencies to try again, the agencies did
so, issuing the interim final rules at issue in our
previous decision12 and the final rule at issue now.
The reason why the case before us is moot is that
operation of the new modification to the regulation
has itself already been enjoined. The District Court
for the Eastern District of Pennsylvania issued a
nationwide injunction on January 14 of this year,

10

Id. at 1560 (internal quotation marks omitted).

Dep’t of Labor, FAQs About Affordable Care Act
Implementation
Part
36,
at
4,
available
at
https://www.dol.gov/sites/default/files/ebsa/about-ebsa/ouractivities/resource-center/faqs/aca-part-36.pdf.
11

82 Fed. Reg. 47,792, 47,807–08 (Oct. 13, 2017); 82 Fed.
Reg. 47,838, 47,849 (Oct. 13, 2017); California v. Azar, 911 F.3d
558 (9th Cir. 2018), cert. denied sub nom. Little Sisters of the Poor
Jeanne Jugan Residence v. California, 139 S. Ct. 2716 (2019).
12

49a
enjoining enforcement of the regulation before us.13
The Third Circuit affirmed that nationwide
injunction on July 12 of this year.14 That nationwide
injunction means that the preliminary injunction
before us is entirely without effect. If we affirm, as the
majority does, nothing is stopped that the Pennsylvania injunction has not already stopped. Were we to
reverse, and direct that the district court injunction
be vacated, the rule would still not go into effect,
because of the Pennsylvania injunction. Nothing the
district court in our case did, or that we do, matters.
We are talking to the air, without practical consequence. Whatever differences there may be in the
reasoning for our decision and the Third Circuit’s
have no material significance, because they do not
change the outcome at all; the new regulation cannot
come into effect.
When an appeal becomes moot while pending, as
ours has, the court in which it is being litigated must
dismiss it.15 The Supreme Court has repeatedly held
that “[t]o qualify as a case for federal-court adjudication, ‘an actual controversy must be extant at all
stages of review, not merely at the time the complaint
is filed.’”16 “It is true, of course, that mootness can
arise at any stage of litigation, . . . that federal courts
13

Pennsylvania v. Trump, 351 F. Supp. 3d 791 (E.D. Pa.

2019).
Pennsylvania v. President United States, 930 F.3d 543,
556 (3d Cir. 2019), as amended (July 18, 2019).
14

15

Murphy v. Hunt, 455 U.S. 478, 481 (1982).

Arizonans for Official English, 520 U.S. at 67 (quoting
Preiser v. Newkirk, 422 U.S. 395, 401 (1975)).
16

50a
may not give opinions upon moot questions or
abstract propositions.”17 “Many cases announce the
basic rule that a case must remain alive throughout
the course of appellate review.”18
The states will not spend a penny more with the
district court injunction before us now than they
would spend without it, because the new regulation
that they claim will cost them money cannot come into
effect. Because of the Pennsylvania nationwide
injunction, we have no case or controversy before us.
I disagree with the majority as well on standing
and on the merits. The standing issue before us now
is new. It is not the self-inflicted harm issue we
resolved (incorrectly, as I explained in my previous
dissent19), but the new question of whether there is
any concrete injury affording standing to the states in
Calderon v. Moore, 518 U.S. 149, 150 (1996) (internal
quotation marks omitted).
17

18 13C C. Wright, A. Miller, & E. Cooper, Federal Practice
and Procedure § 3533.10, pp. 555 (3d ed.); see also U.S. v.
Sanchez-Gomez, 138 S. Ct. 1532, 1537 (2018), Kingdomware
Technologies, Inc. v. U.S., 136 S. Ct. 1969, 1975 (2016),
Campbell-Ewald Co. v. Gomez, 136 S. Ct. 663, 669 (2016),
Genesis Healthcare Corp. v. Symczyk, 569 U.S. 66, 71 (2013),
Decker v. Northwest Environmental Defense Center, 568 U.S.
597, 609 (2013), Chafin v. Chafin, 568 U.S. 165, 171–72 (2013),
Federal Election Com'n v. Wisconsin Right To Life, Inc., 551 U.S.
449, 461 (2007), Spencer v. Kemna, 523 U.S. 1, 7 (1998),
Arizonans for Official English, 520 U.S. at 67, Calderon, 518
U.S. at 150.

California v. Azar, 911 F.3d 558, 585 (9th Cir. 2018)
(Kleinfeld, J., dissenting), cert. denied sub nom. Little Sisters of
the Poor Jeanne Jugan Residence v. California, 139 S. Ct. 2716
(2019).
19

51a
light of the nationwide injunction. And on the merits,
Chevron20 deference ought to be applied, since
Congress delegated the material issue, what
“additional preventive care and screenings” for
women ought to be without cost sharing requirements, to the Executive Branch, and that branch
resolved it in a reasonable way not contrary to the
statute. But it does not matter which of us is correct.
Either view could prevail here, without any concrete
consequence. The regulation we address cannot come
into effect.
Of course I agree with the majority that the
circumstances that mooted the case in Arizonans for
Official English differ from the circumstances that
moot the case before us. I cited it because there, as
here, in our zeal to correct what we thought was
wrong, we acted without jurisdiction because the case
had become moot. As for the proposition that we ought
to act under the exception for “cases capable of
repetition, yet evading review,” neither branch of the
exception applies. Most obviously, the changes in the
regulations, which are what matter, far from “evading
review,” have been reviewed to a fare-thee-well all
over the country.21 As for the likelihood of repetition,

Chevron, U.S.A., Inc. v. Nat. Res. Def. Council, Inc., 467
U.S. 837, 843–44 (1984) (“If Congress has explicitly left a gap for
the agency to fill, there is an express delegation of authority to
the agency to elucidate a specific provision of the statute by
regulation.”).
20

Pennsylvania v. President United States, 930 F.3d 543,
555 (3d Cir. 2019), as amended (July 18, 2019); Massachusetts v.
United States Dep’t of Health & Human Servs., 923 F.3d 209, 228
(1st Cir. 2019); California v. Azar, 911 F.3d 558, 566 (9th Cir.
21

52a
so far the hundreds of thousands of comments about
the regulation, and the continual changes in the
regulation, suggest a likelihood that if the case comes
before us again in one form or another, it is fairly
likely to be at least somewhat different. Nor do I think
that comity is well-served by our presuming to review
whether the Eastern District of Pennsylvania, as
affirmed by the Third Circuit, had jurisdiction to issue
an injunction covering the Ninth Circuit.
We need not and should not reach the merits of
this preliminary injunction. This case is resolved by
mootness.


2018), cert. denied sub nom. Little Sisters of the Poor Jeanne
Jugan Residence v. California, 139 S. Ct. 2716 (2019).

53a
UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF CALIFORNIA

STATE OF CALIFORNIA, Case No. 17-cvet al.,
05783-HSG
Plaintiffs,
v.
HEALTH AND HUMAN
SERVICES, et al.,
Defendants.

ORDER
GRANTING
PLAINTIFFS’
MOTION FOR A
PRELIMINARY
INJUNCTION
Re: Dkt. No. 174

Pending before the Court is Plaintiffs’ motion for
a preliminary injunction. See Dkt. No. 174. In short,
Plaintiffs seek to prevent the implementation of rules
creating a religious exemption (the “Religious
Exemption”) and a moral exemption (the “Moral
Exemption”) to the contraceptive mandate contained
within the Affordable Care Act (“ACA”). See id. at 1;
Religious Exemptions and Accommodations for
Coverage of Certain Preventive Services Under the
Affordable Care Act, 83 Fed. Reg. 57,536 (Nov. 15,
2018) (“Religious Exemption”); Moral Exemptions
and Accommodations for Coverage of Certain
Preventive Services Under the Affordable Care Act,
83 Fed. Reg. 57,592 (Nov. 15, 2018) (“Moral
Exemption”) (collectively, “the 2019 Final Rules” or
“Final Rules”). Plaintiffs are the States of California,
Connecticut, Delaware, Hawaii, Illinois, Maryland,
Minnesota (by and through its Department of Human
Services), New York, North Carolina, Rhode Island,

54a
Vermont, and Washington, the Commonwealth of
Virginia, and the District of Columbia.1 Federal
Defendants are Alex M. Azar, II, in his official
capacity as Secretary of the Department of Health
and Human Services; the Department of Health and
Human Services (“HHS”); Alexander Acosta, in his
official capacity as Secretary of the Department of
Labor; the Department of Labor; Steven Mnuchin, in
his official capacity as Secretary of the Department of
the Treasury; and the Department of the Treasury.
Two additional parties were previously granted the
right to enter this case as permissive intervenors:
Little Sisters of the Poor, Jeanne Jugan Residence
(“Little Sisters”) and March for Life Education and
Defense Fund (“March for Life”). See Dkt. Nos. 115,
134. Little Sisters is “a religious nonprofit corporation
operated by an order of Catholic nuns whose faith
inspires them to spend their lives serving the sick and
elderly poor.” Motion to Intervene, Dkt. No. 38 at 2.
March for Life is a “non-religious non-profit advocacy
organization” founded in response to the Supreme
Court’s 1973 decision in Roe v. Wade. Motion to
Intervene, Dkt. No. 87 at 3. Its stated purpose is “to
oppose the destruction of human life at any stage
before birth, including by abortifacient methods that
may act after the union of a sperm and ovum.” Id.
For the reasons set out below, the motion is
granted to maintain the status quo pending
resolution of Plaintiffs’ claims, and the enforcement of

The Court will refer to Plaintiffs collectively as “States,”
notwithstanding the District of Columbia’s participation in the
case.

1

55a
the Final Rules in the Plaintiff States is preliminarily
enjoined.
I.

BACKGROUND

Before turning to the Plaintiffs’ challenge to the
Final Rules, the Court begins by recounting the
sequence of relevant events, beginning with the
enactment of the Affordable Care Act in 2010.
Although much of this background was already
recounted in the Court’s prior order, the Court
reiterates it here for the sake of clarity. See California
v. Health & Human Servs., 281 F. Supp. 3d 806 (N.D.
Cal. 2017), aff’d in part, vacated in part, remanded
sub nom. California v. Azar, 911 F.3d 558 (9th Cir.
2018).
A. The Affordable Care Act
In March 2010, Congress enacted the Affordable
Care Act. The ACA included a provision known as the
Women’s Health Amendment, which states:
A group health plan and a health insurance
issuer offering group or individual health
insurance coverage shall, at a minimum
provide coverage for and shall not impose any
cost sharing requirements for . . . with respect
to women, such additional preventive care
and screenings . . . as provided for in comprehensive guidelines supported by the Health
Resources and Services Administration for
purposes of this paragraph.
42 U.S.C. § 300gg-13(a)(4).
About two years later, the Senate rejected a socalled “conscience amendment” to the Women’s
Health Amendment that would have allowed health

56a
plans to decline to provide coverage “contrary to” an
insurer or employer’s asserted “religious beliefs or
moral convictions.” See 158 Cong. Rec. S538–39 (Feb.
9, 2012) (text of proposed bill); id. S1162–73 (Mar. 1,
2012) (debate and vote); see also Burwell v. Hobby
Lobby Stores, Inc., 134 S. Ct. 2751, 2789–90 (2014)
(Ginsburg, J., dissenting) (recognizing that rejection
of the “conscience amendment” meant that “Congress
left health care decisions—including the choice
among contraceptive methods—in the hands of
women, with the aid of their health care providers”).
B. The
2010
Regulations

IFR

and

Subsequent

On July 19, 2010, under the authority of the
Women’s Health Amendment, several federal
agencies (including HHS, the Department of Labor,
and the Department of the Treasury) issued an
interim final rule (“the 2010 IFR”). See 75 Fed. Reg.
41,726. It required, in part, that health plans provide
“evidence-informed preventive care” to women,
without cost sharing and in compliance with
“comprehensive guidelines” to be provided by HHS’s
Health Resources and Services Administration
(“HRSA”). Id. at 41,728.
The agencies found they had statutory authority
“to promulgate any interim final rules that they
determine[d were] appropriate to carry out the”
relevant statutory provisions. Id. at 41,729–30. The
agencies also determined they had good cause to forgo
the general notice of proposed rulemaking required
under the Administrative Procedure Act (“APA”), 5
U.S.C. § 553. Id. at 41,730. Specifically, the agencies
determined that issuing such notice would be

57a
“impracticable and contrary to the public interest”
because it would not allow sufficient time for health
plans to be timely designed to incorporate the new
requirements under the ACA, which were set to go
into effect approximately two months later. Id. The
agencies requested that comments be submitted by
September 17, 2010, the date the IFR was scheduled
to go into effect.
On September 17, 2010, the agencies first
promulgated regulations pursuant to the 2010 IFR.
See 45 C.F.R. § 147.310(a)(1)(iv) (HHS); 29 C.F.R. §
2590.715-2713 (Department of Labor); 26 C.F.R. §
54.9815-2713 (Department of the Treasury).2 As
relevant here, the regulations were substantively
identical to the 2010 IFR, stating that HRSA was to
provide “binding, comprehensive health plan
coverage guidelines.”
C. The 2011 HRSA Guidelines
From November 2010 to May 2011, a committee
convened by the Institute of Medicine met in response
to the charge of HHS’s Office of the Assistant
Secretary for Planning and Evaluation: to “convene a
diverse committee of experts” related to, as relevant
here, women’s health issues. Inst. of Med., Clinical
Preventive Services for Women: Closing the Gaps, 1,
23 (2011), https://www.nap.edu/read/13181/chapter/1.
In July 2011, the committee issued a report
recommending that private health insurance plans be
required to cover all contraceptive methods approved

The Department of the Treasury’s regulations were first
promulgated in 2012, two years after those of HHS and the
Department of Labor.

2

58a
by the Food and Drug Administration (“FDA”),
without cost sharing. Id. at 102–10.
On August 1, 2011, HRSA issued its preventive
care guidelines (“2011 Guidelines”), defining
preventive care coverage to include all FDA-approved
contraceptive methods. See Health Res. & Servs.
Admin., Women’s Preventive Services Guidelines,
https://www.hrsa.gov/womens-guidelines/index.
html.3
D. The 2011 IFR and the Original Religious
Exemption
On August 3, 2011, the agencies issued an IFR
amending the 2010 IFR. See 76 Fed. Reg. 46,621 (“the
2011 IFR”). Based on the “considerable feedback” they
received regarding contraceptive coverage for women,
the agencies stated that it was “appropriate that
HRSA, in issuing [its 2011] Guidelines, take[] into
account the effect on the religious beliefs of certain
religious employers if coverage of contraceptive
services were required.” Id. at 46,623. As such, the
agencies provided HRSA with the “additional
discretion to exempt certain religious employers from
the [2011] Guidelines where contraceptive services
are concerned.” Id. They defined a “religious
employer” as one that:
On December 20, 2016, HRSA updated the guidelines (“2016
Guidelines”), clarifying that “[c]ontraceptive care should include
contraceptive counseling, initiation of contraceptive use, and
follow-up care,” as well as “enumerating the full range of contraceptive methods for women” as identified by the FDA. See Health
Res. & Servs. Admin., Women’s Preventive Services Guidelines,
https://www.hrsa.gov/womens-guidelines-2016/index.html (last
updated Oct. 2017).

3

59a
(1) [h]as the inculcation of religious values as
its purpose; (2) primarily employs persons
who share its religious tenets; (3) primarily
serves persons who share its religious tenets;
and (4) is a non-profit organization under [the
relevant statutory provisions, which] refer to
churches, their integrated auxiliaries, and
conventions or associations of churches, as
well as to the exclusively religious activities of
any religious order.
Id.
The 2011 IFR went into effect on August 1, 2011.
The agencies again found that they had both
statutory authority and good cause to forgo the APA’s
advance notice and comment requirement. Id. at
46,624. Specifically, they found that “providing for an
additional opportunity for public comment [was]
unnecessary, as the [2010 IFR] . . . provided the public
with an opportunity to comment on the implementtation of the preventive services requirement in this
provision, and the amendments made in [the 2011
IFR were] in fact based on such public comments.” Id.
The agencies also found that notice and comment
would be “impractical and contrary to the public
interest,” because that process would result in a delay
of implementation of the 2011 Guidelines. See id. The
agencies further stated that they were issuing the
rule as an IFR in order to provide the public with
some opportunity to comment. Id. They requested
comments by September 30, 2011.
On February 15, 2012, after considering more
than 200,000 responses, the agencies issued a final
rule adopting the definition of “religious employer” set

60a
forth in the 2011 IFR. See 77 Fed. Reg. 8,725. The
final rule also established a temporary safe harbor,
during which the agencies
plan[ned] to develop and propose changes to
these final regulations that would meet two
goals—providing contraceptive coverage
without cost-sharing to individuals who want
it and accommodating non-exempted, nonprofit organizations’ religious objections to
covering contraceptive services . . . .
Id. at 8,727.
E. The Religious Accommodation
On March 21, 2012, the agencies issued an
advance notice of proposed rulemaking (“ANPR”)
requesting comments on “alternative ways of
providing contraceptive coverage without cost sharing
in order to accommodate non-exempt, non-profit
religious organizations with religious objections to
such coverage.” 77 Fed. Reg. 16,501, 16,503. They
specifically sought to “require issuers to offer group
health insurance coverage without contraceptive
coverage to such an organization (or its plan
sponsor),” while also “provid[ing] contraceptive
coverage directly to the participants and beneficiaries
covered under the organization’s plan with no cost
sharing.” Id. The agencies requested comment by
June 19, 2012.
On February 6, 2013, after reviewing more than
200,000 comments, the agencies issued proposed
rules that (1) simplified the criteria for the religious
employer exemption; and (2) established an accommodation for eligible organizations with religious
objections to providing contraceptive coverage. See 78

61a
Fed. Reg. 8,456, 8,458–59. The proposed rule defined
an “eligible organization” as one that (1) “opposes
providing coverage for some or all of the contraceptive
services required to be covered”; (2) “is organized and
operates as a nonprofit entity”; (3) “holds itself out as
a religious organization”; and (4) self-certifies that it
satisfies these criteria. Id. at 8,462. Comments on the
proposed rule were due April 5, 2013.
On July 2, 2013, after reviewing more than
400,000 comments, the agencies issued final rules
simplifying the religious employer exemption and
establishing the religious accommodation. 78 Fed.
Reg. 39,870.4 With respect to the latter, the final rule
retained the definition of “eligible organization” set
forth in the proposed rule. Id. at 39,874. Under the
accommodation, an eligible organization that met a
“self-certification standard” was “not required to
contract, arrange, pay, or refer for contraceptive
coverage,” but its “plan participants and beneficiaries
. . . [would] still benefit from separate payments for
contraceptive services without cost sharing or other
charge,” as required by law. Id. The final rules were
effective August 1, 2013.

As to the definition of a religious employer, the final rule
“eliminate[ed] the first three prongs and clarif[ied] the fourth
prong of the definition” adopted in 2012. 78 Fed. Reg. 39,874.
Under this new definition, “an employer that [was] organized
and operate[d] as a nonprofit entity and [was] referred to in
section 6033(a)(3)(A)(i) or (iii) of the Code [was] considered a
religious employer for purposes of the religious employer
exemption.” Id.

4

62a
F. The Hobby Lobby and Wheaton College
Decisions
On June 30, 2014, the Supreme Court issued its
opinion in Burwell v. Hobby Lobby Stores, Inc., in
which three closely-held corporations challenged the
requirement that they “provide health-insurance
coverage for methods of contraception that violate[d]
the sincerely held religious beliefs of the companies’
owners.” 134 S. Ct. at 2759. The Court held that this
requirement violated the Religious Freedom Restoration Act of 1993 (“RFRA”), 42 U.S.C. § 2000bb et seq.,
because it was not the “least restrictive means” of
serving the government’s proffered compelling
interest in guaranteeing cost-free access to certain
methods of contraception. See Hobby Lobby, 134 S. Ct.
at 2781–82.5 The Court pointed to the religious
accommodation as support for this conclusion: “HHS
itself has demonstrated that it has at its disposal an
approach that is less restrictive than requiring
employers to fund contraceptive methods that violate
their religious beliefs. . . . HHS has already established an accommodation for nonprofit organizations
with religious objections.” Id. at 2782. The Court
stated that the Hobby Lobby ruling “[did] not decide
whether an approach of this type complies with RFRA
for purposes of all religious claims,” and said its
opinion “should not be understood to hold that an
insurance-coverage mandate must necessarily fall if

The Court assumed without deciding that such an interest was
compelling within the meaning of RFRA. Hobby Lobby, 134 S.
Ct. at 2780.

5

63a
it conflicts with an employer’s religious beliefs.” Id. at
2782–83.
Several days later, the Court issued its opinion in
Wheaton College v. Burwell, 134 S. Ct. 2806 (2014).
The plaintiff was a nonprofit college in Illinois that
was eligible for the accommodation. Id. at 2808
(Sotomayor, J., dissenting). Wheaton College sought
an injunction, however, “on the theory that its filing
of a self-certification form [would] make it complicit
in the provision of contraceptives by triggering the
obligation for someone else to provide the services to
which it objects.” Id. The Court granted the application for an injunction, ordering that it was sufficient
for the college to “inform[] the Secretary of Health
and Human Services in writing that it is a nonprofit
organization that holds itself out as religious and has
religious objections to providing coverage for contraceptive services.” Id. at 2807. In other words, the
college was not required to “use the form prescribed
by the [g]overnment,” nor did it need to “send copies
to health insurance issuers or third-party administrators.” Id. The Court stated that its order “should
not be construed as an expression of the Court’s views
on the merits.” Id.
G.

Post-Hobby Lobby
Regulatory Actions

and

-Wheaton

Shortly thereafter, on August 27, 2014, the
agencies initiated two regulatory actions. First, in
light of Hobby Lobby, they issued proposed rules
“amend[ing] the definition of an eligible organization
[for purposes of the religious accommodation] to
include a closely held for-profit entity that has a
religious objection to providing coverage for some or

64a
all of the contraceptive services otherwise required to
be covered.” 79 Fed. Reg. 51,118, 51,121. Comments
were due on October 21, 2014.
Second, in light of Wheaton, the agencies issued
IFRs (“the 2014 IFRs”) providing “an alternative
process for the sponsor of a group health plan or an
institution of higher education to provide notice of its
religious objection to coverage of all or a subset of
contraceptive services, as an alternative to the EBSA
Form 700 [i.e., the standard] method of selfcertification.” 79 Fed. Reg. 51,092, 51,095. The
agencies asserted they had both statutory authority
and good cause to forgo the notice and comment
period, stating that such a process would be
“impracticable and contrary to the public interest,”
particularly in light of Wheaton. Id. at 51,095–96. The
IFRs were effective immediately, and comments were
due October 27, 2014.
After considering more than 75,000 comments on
the proposed rule, the agencies issued final rules
“extend[ing] the accommodation to a for-profit entity
that is not publicly traded, is majority-owned by a
relatively small number of individuals, and objects to
providing contraceptive coverage based on its owners’
religious beliefs”—i.e., to closely-held entities. 80 Fed.
Reg. 41,318, 41,324. The agencies also issued a final
rule “continu[ing] to allow eligible organizations to
choose between using EBSA Form 700 or the
alternative process consistent with the Wheaton
interim order.” Id. at 41,323.

65a
H. The Zubik Opinion and Subsequent
Impasse
On May 16, 2016, the Supreme Court issued its
opinion in Zubik v. Burwell, 136 S. Ct. 1557 (2016)
(per curiam). The petitioners, primarily non-profit
organizations, were eligible for the religious accommodation, but challenged the requirement that they
submit notice to either their insurer or the federal
government as a violation of RFRA. Zubik, 136 S. Ct.
at 1558. “Following oral argument, the Court
requested supplemental briefing from the parties
addressing ‘whether contraceptive coverage could be
provided to petitioners’ employees, through petitioners’ insurance companies, without any such notice
from petitioners.’” Id. at 1558–59. After the parties
stated that “such an option [was] feasible,” the Court
remanded to afford them “an opportunity to arrive at
an approach going forward that accommodates
petitioners’ religious exercise while at the same time
ensuring that women covered by petitioners’ health
plans ‘receive full and equal health coverage,
including contraceptive coverage.’” Id. at 1559
(emphasis added). As in Wheaton, “[t]he Court
express[ed] no view on the merits of the cases,” and
did not decide “whether petitioners’ religious exercise
has been substantially burdened, whether the
[g]overnment has a compelling interest, or whether
the current regulations are the least restrictive
means of serving that interest.” Id. at 1560.
On July 22, 2016, the agencies issued a request
for information (“RFI”) on whether, in light of Zubik,
there are alternative ways (other than those
offered in current regulations) for eligible

66a
organizations that object to providing
coverage for contraceptive services on
religious grounds to obtain an accommodation, while still ensuring that women
enrolled in the organizations’ health plans
have access to seamless coverage of the full
range of [FDA]-approved contraceptives
without cost sharing.
81 Fed. Reg. 47,741, 47,741 (July 22, 2016).
Comments were due September 20, 2016. On January
9, 2017, the agencies issued a document titled “FAQs
About Affordable Care Act Implementation Part 36”
(“FAQs”). See Dep’t of Labor, FAQs About Affordable
Care Act Implementation Part 36 (Jan. 9, 2017),
https://www.dol.gov/sites/default/files/ebsa/aboutebsa/our-activities/resource-center/faqs/aca-part36.pdf.
The FAQs stated that, based on the 54,000
comments received in response to the July 2016 RFI,
there was “no feasible approach . . . at this time that
would resolve the concerns of religious objectors,
while still ensuring that the affected women receive
full and equal health coverage, including
contraceptive coverage.” Id. at 4.
I.

The 2017 IFRs

On May 4, 2017, the President issued Executive
Order No. 13,798, directing the secretaries of the
Departments of the Treasury, Labor, and HHS to
“consider issuing amended regulations, consistent
with applicable law, to address conscience-based
objections to the preventive care mandate.” 82 Fed.
Reg. 21,675, 21,675. Subsequently, on October 6,
2017, the agencies issued the Religious Exemption

67a
IFR and the Moral Exemption IFR (collectively, “the
2017 IFRs”), which were effective immediately. The
2017 IFRs departed from the previous regulations in
several important ways.
1. The Religious Exemption IFR
First, with the Religious Exemption IFR, the
agencies substantially broadened the scope of the
religious exemption, extending it “to encompass
entities, and individuals, with sincerely held religious
beliefs objecting to contraceptive or sterilization
coverage,” and “making the accommodation process
optional for eligible organizations.” 82 Fed. Reg.
47,792, 47,807–08. Such entities “will not be required
to comply with a self-certification process.” Id. at
47,808. Just as the IFR expanded eligibility for the
exemption, it “likewise” expanded eligibility for the
optional accommodation. Id. at 47,812–13.
In introducing these changes, the agencies stated
they “recently exercised [their] discretion to
reevaluate these exemptions and accommodations,”
and considered factors including: “the interests
served by the existing Guidelines, regulations, and
accommodation process”; the “extensive litigation”;
the President’s executive order; the interest in
protecting the free exercise of religion under the First
Amendment and RFRA; the discretion afforded under
the relevant statutory provisions; and “the regulatory
process and comments submitted in various requests
for public comments.” Id. at 47,793. The agencies
advanced several arguments they claimed justified
the lack of an advance notice and comment process for
the Religious Exemption IFR, which became effective
immediately.

68a
First, the agencies cited 26 U.S.C. § 9833, 29
U.S.C. § 1191c, and 42 U.S.C. § 300gg-92, asserting
that those statutes authorized the agencies “to
promulgate any interim final rules that they determine are appropriate to carry out” the relevant statutory provisions. Id. at 47,813. Second, the agencies
asserted that even if the APA did apply, they had good
cause to forgo notice and comment because implementing that process “would be impracticable and
contrary to the public interest.” Id. Third, the
agencies noted that “[i]n response to several of the
previous rules on this issue—including three issued
as [IFRs] under the statutory authority cited above—
the Departments received more than 100,000 public
comments on multiple occasions,” which included
“extensive discussion about whether and by what
extent to expand the exemption.” Id. at 47,814. For all
of these reasons, the agencies asserted, “it would be
impracticable and contrary to the public interest to
engage in full notice and comment rulemaking before
putting these interim final rules into effect.” Id. at
47,815. Comments were due on December 5, 2017.
2. The Moral Exemption IFR
Also on October 6, 2017, the agencies issued the
Moral Exemption IFR, “expand[ing] the exemption[]
to include additional entities and persons that object
based on sincerely held moral convictions.” 82 Fed.
Reg. 47,838, 47,849. Additionally, “consistent with
[their] expansion of the exemption, [the agencies]
expand[ed] eligibility for the accommodation to
include organizations with sincerely held moral
convictions concerning contraceptive coverage,” while
also making the accommodation process optional for
those entities. Id. The agencies included in the IFR a

69a
section called “Congress’ History of Providing
Exemptions for Moral Convictions,” referencing
statutes and legislative history, case law, executive
orders, and state analogues. See id. at 47,844–48. The
agencies justified the immediate issuance of the
Moral Exemption IFR without an advance notice and
comment process on grounds similar to those offered
regarding the Religious Exemption IFR, stating that
“[o]therwise, our regulations would simultaneously
provide and deny relief to entities and individuals
that are, in the [agencies’] view, similarly deserving
of exemptions and accommodations consistent[] with
similar protections in other federal laws.” Id. at
47,855. Comments were due on December 5, 2017.
3. Preliminary Injunction Against
the 2017 IFRs
On October 6, 2017, the States of California,
Delaware, Maryland, and New York, and the
Commonwealth of Virginia filed a complaint, see Dkt.
No. 1, which was followed by a First Amended
Complaint on November 1, see Dkt. No. 24 (“FAC”).
Plaintiffs alleged that the 2017 IFRs violated Sections
553 and 706 of the Administrative Procedure Act, the
Establishment Clause, and the Equal Protection
Clause. FAC ¶¶ 8–12, 116–37. Plaintiffs filed a
motion for a preliminary injunction on November 9,
2017. See Dkt. No. 28.
a.

The Court’s
Injunction

Nationwide

On December 21, 2017, the Court granted
Plaintiffs’ motion for a preliminary injunction. See
Dkt. No. 105. The Court held that Plaintiffs had
“shown that, at a minimum, they are likely to succeed

70a
on their claim that Defendants violated the APA by
issuing the 2017 IFRs without advance notice and
comment.” Id. at 17. In addition, the Court held that
Plaintiffs were likely to suffer irreparable harm, that
the balance of equities tipped in Plaintiffs’ favor, and
that the public interest favored granting an
injunction. Id. Accordingly, the Court issued a
nationwide preliminary injunction enjoining implementation of the 2017 IFRs. See id. at 28. The Court’s
order reinstated the “state of affairs” that existed
prior to October 6, 2017, including the exemption and
accommodation as they existed following the Zubik
remand as well as any court orders enjoining the
Federal Defendants from enforcing the rules against
specific parties. See id. at 29.6
b.

Intervenors Little Sisters
and March for Life Enter
the Case

On December 29, 2017, the Court granted the
Little Sisters’ motion to intervene. See Dkt. No. 115.
And on January 26, 2018, the Court granted March
for Life’s motion to intervene. See Dkt. No. 134.
c.

Ninth Circuit Appeal and
Decision Limiting Scope of
Injunction

Following the Court’s order granting Plaintiffs’
motion for a preliminary injunction, the agencies,
A federal district court in the Eastern District of Pennsylvania
also entered a preliminary injunction against the IFRs to
“maintain the status quo” pending the outcome of a trial on the
merits. See Pennsylvania v. Trump, 281 F. Supp. 3d 553, 585
(E.D. Pa. 2017).

6

71a
Little Sisters, and March for Life appealed. See Dkt.
Nos. 135–38, 142–43.
On December 13, 2018, the Ninth Circuit issued
an opinion largely affirming this Court’s prior order,
but shrinking the geographic scope of the injunction
to encompass only the states that were plaintiffs at
that time. See California, 911 F.3d at 584. First, the
court held (on an issue of first impression) that venue
was proper in the Northern District of California
because “common sense” dictated that “a state with
multiple judicial districts ‘resides’ in every district
within its borders.” Id. at 570. Second, the court held
that the States had standing to bring their procedural
APA claim because the States had shown “with
reasonable probability[] that the IFRs will first lead
to women losing employer-sponsored contraceptive
coverage, which will then result in economic harm to
the states.” Id. at 571–72. The court noted that the
States had no obligation to identify a specific woman
who would lose coverage, particularly given that the
agencies’ regulatory impact analysis estimated that
between 31,700 and 120,000 women would lose
contraceptive coverage, and that “state and local
governments will bear additional economic costs.” Id.
at 571–72. Third, the court held that the Plaintiffs
were likely to succeed on the merits of their APA
claim because the agencies had neither good cause nor
statutory authority for bypassing the usual notice and
comment procedure, and that the procedural violation
was likely not harmless. Id. at 578–81. Fourth, the
court affirmed this Court’s ruling that the Plaintiffs
had established the other requirements to entitle
them to injunctive relief because they were likely to
suffer irreparable harm absent an injunction, and the

72a
balance of the equities and public interest tilted in
favor of granting an injunction. Id. at 581–82. Fifth,
the court concluded that the scope of the preliminary
injunction was overbroad because an injunction
applying only to the Plaintiff-States would “provide
complete relief to them.” Id. at 584.
J. The 2019 Final Rules
The 2017 IFRs included a call for comments, due
by December 5, 2017. See 82 Fed. Reg. at 47,792; 82
Fed. Reg. at 47,838. Over the 60-day comment period,
the agencies received over 56,000 public comments on
the religious exemption rules, 83 Fed. Reg. at 57,540,
and over 54,000 public comments on the moral
exemption rules, 83 Fed. Reg. at 57,596.
On November 15, 2018, the agencies promulgated
the Religious Exemption and Moral Exemption Final
Rules. See 83 Fed. Reg. 57,536; 83 Fed. Reg. 57,592.
The 2019 Final Rules are scheduled to take effect,
superseding the enjoined IFRs, on January 14, 2019.
In substance, the Final Rules are nearly identical
to the 2017 IFRs. See Defendants’ Opposition, Dkt.
No. 198 (“Federal Opp.”) at 8 (noting that the
“fundamental substance of the exemptions was finalized as set forth in the IFRs”); see also Supplemental
Brief for the Federal Appellants at 1, California v.
Azar, 911 F.3d 558 (9th Cir. 2018) (Nos. 18-15144, 1815166, 18-15255), 2018 WL 6044850, at *1 (“The
substance of the rules remains largely unchanged . . .
and none of the changes is material to the States’
substantive claims in this case.”). The Religious
Exemption made “various changes . . . to clarify the
intended scope of the language” in “response to public
comments.” 83 Fed. Reg. at 57,537. Likewise, the

73a
Moral Exemption Final Rule made “various changes .
. . to clarify the intended scope of the language” in
“response to public comments.” 83 Fed. Reg. at
57,593.
At least three changes in the Final Rules bear
mentioning. First, the Final Rules estimate that “no
more than 126,400 women of childbearing age will be
affected by the expanded exemptions,” which is an
increase from the previous estimate of up to 120,000
women. Compare 83 Fed. Reg. at 57,551 n.26 with 82
Fed. Reg. at 47,823. Second, the Final Rules increase
their estimate of the expense of the exemptions to
$67.3 million nationwide annually. See 83 Fed. Reg.
at 57,581. Third, the Final Rules place increased
emphasis on the availability of contraceptives at Title
X family-planning clinics as an alternative to
contraceptives provided by women’s health insurers.
See 83 Fed. Reg. at 57,551; 83 Fed. Reg. at 57,608; see
also 83 Fed. Reg. at 25,502, 25,514 (proposed rule
rendering women who lose contraceptive coverage
because of religious or moral exemptions eligible for
Title X services).
K. Plaintiffs Challenge the Final Rules
On December 18, 2018, Plaintiffs filed a Second
Amended Complaint, alleging that the IFRs and Final
Rules violate Section 553 of the APA, and that the
Final Rules violate Section 706 of the APA, the
Establishment Clause, and the Equal Protection
Clause. See Dkt. No. 170 (“SAC”) ¶¶ 235–60. Original
Plaintiffs—the States of California, Delaware,
Maryland, and New York, and the Commonwealth of
Virginia—were joined by the States of Connecticut,
Hawaii, Illinois, Minnesota, North Carolina, Rhode

74a
Island, Vermont, and Washington, and the District of
Columbia. Id. at 13–26.
On December 19, Plaintiffs filed a motion for a
preliminary injunction, seeking to enjoin the
implementation of the Final Rules. See Dkt. No. 174
(“Mot.”) at 25. The Federal Defendants filed an
opposition on January 3, 2019. See Federal Opp. That
same day, both the Little Sisters, see Dkt. No. 197
(“Little Sisters Opp.”), and March for Life, see Dkt.
No. 199 (“March for Life Opp.”), filed oppositions.7
The States replied on January 8. See Dkt. No. 218
(“Reply”).8

The Little Sisters filed a corrected opposition brief on January
10. See Dkt. No. 174.
8 Numerous amici curiae also filed briefs to present their views
on the case. See Dkt. Nos. 212 (American Nurses Association;
American College of Obstetricians and Gynecologists; American
Academy of Nursing; American Academy of Pediatricians;
Physicians for Reproductive Health; California Medical
Association); 230 (California Women Lawyers; Girls Inc.,
If/When/How: Lawyering for Reproductive Justice; Lawyers
Club of San Diego; American Association of University Women;
American Federation of State, County, and Municipal
Employees; American Federation of Teachers; Colorado
Women’s Bar Association; National Association of Social
Workers; National Association of Women Lawyers; Service
Employees International Union; Women’s Bar Association of
Massachusetts; Women’s Bar Association of the District of
Columbia; Women Lawyers on Guard, Inc.; Women’s Bar
Association of the State of New York); 231 (National Association
for Female Executives; U.S. Women’s Chamber of Commerce);
232 (National Asian Pacific American Women’s Forum; National
Latina Institute for Reproductive Health; National Women’s
Law Center; SisterLove, Inc.); 233 (Commonwealth of
Massachusetts; States of Iowa, Maine, Michigan, Nevada, New
Jersey, New Mexico, Pennsylvania, and Oregon). The Court has
7

75a
The Court held a hearing on January 11, after
which it took the motion under submission.
II. LEGAL STANDARD
A preliminary injunction is a matter of equitable
discretion and is “an extraordinary remedy that may
only be awarded upon a clear showing that the
plaintiff is entitled to such relief.” Winter v. Natural
Res. Def. Council, Inc., 555 U.S. 7, 22 (2008). “A
plaintiff seeking preliminary injunctive relief must
establish that [it] is likely to succeed on the merits,
that [it] is likely to suffer irreparable harm in the
absence of preliminary relief, that the balance of
equities tips in [its] favor, and that an injunction is in
the public interest.” Id. at 20. Alternatively, an
injunction may issue where “the likelihood of success
is such that serious questions going to the merits were
raised and the balance of hardships tips sharply in
[the plaintiff’s] favor,” provided that the plaintiff can
also demonstrate the other two Winter factors.
Alliance for the Wild Rockies v. Cottrell, 632 F.3d
1127, 1131–32 (9th Cir. 2011) (citation and internal
quotation marks omitted). Under either standard,
Plaintiffs bear the burden of making a clear showing
that they are entitled to this extraordinary remedy.
Earth Island Inst. v. Carlton, 626 F.3d 462, 469 (9th
Cir. 2010). The most important Winter factor is
likelihood of success on the merits. See Disney Enters.,
Inc. v. VidAngel, Inc., 869 F.3d 848, 856 (9th Cir.
2017).

reviewed their filings and considered them in assessing this
motion.

76a
III. ANALYSIS
A.

Venue Is Proper in the Northern
District of California.

Despite a clear holding from the Ninth Circuit,
Federal Defendants continue to press their argument
that venue is not proper in the Northern District
because the State of California resides for venue
purposes only in the Eastern District, “where Sacramento, the seat of state government, is located.”
Federal Opp. at 10. But the Ninth Circuit held that
28 U.S.C. 1391 “dictates that a state with multiple
judicial districts ‘resides’ in every district within its
borders.” California, 911 F.3d at 570. An “interpretation limiting residency to a single district in the
state would defy common sense.” Id. Given the clear
precedent from the Ninth Circuit on this issue, the
Court need not dwell on it: venue is proper in the
Northern District.
B. Plaintiffs Have Standing to Sue.
The Little Sisters contend that the States lack
standing to sue, see Little Sisters Opp. at 9, and the
agencies “reserve the right to object” to relief for any
plaintiff that has not established standing, see
Federal Opp. at 10 n.4. The Court finds that Plaintiffs
have established both Article III and statutory
standing.
1.

Plaintiffs
Standing.

Have

Article

III

A plaintiff seeking relief in federal court bears the
burden of establishing “the irreducible constitutional
minimum” of standing. Spokeo, Inc. v. Robins, 136 S.
Ct. 1540, 1547 (2016) (quoting Lujan v. Defenders of

77a
Wildlife, 504 U.S. 555, 560 (1992)). First, the plaintiff
must have “suffered an injury in fact.” Spokeo, 136 S.
Ct. at 1547. This requires “an invasion of a legally
protected interest” that is concrete, particularized,
and actual or imminent, rather than conjectural or
hypothetical. Lujan, 504 U.S. at 560 (internal
quotation marks omitted). Second, the plaintiff’s
injury must be “fairly traceable to the challenged
conduct of the defendant.” Spokeo, 136 S. Ct. at 1547.
Third, the injury must be “likely to be redressed by a
favorable judicial decision.” Id. (citing Lujan, 504 U.S.
at 560–61).
“States are not normal litigants for the purposes
of invoking federal jurisdiction,” Massachusetts v.
EPA, 549 U.S. 497, 518 (2007), and are “entitled to
special solicitude in [the] standing analysis,” id. at
520. For instance, states may sue to assert their
“quasi-sovereign interest in the health and wellbeing—both physical and economic—of [their] residents in general.” Alfred L. Snapp & Son, Inc. v.
Puerto Rico, 458 U.S. 592, 607 (1982). In that case,
however, the “interest must be sufficiently concrete to
create an actual controversy between the State and
the defendant” such that the state is more than a
nominal party. Id. at 602.
Here, the Court need not rely on the special
solicitude afforded to states, or their power to litigate
their quasi-sovereign interests on behalf of their
citizens. Much more simply, a state may establish
standing by showing a reasonably probable threat to
its economic interests. See California, 911 F.3d at
573; see also Texas v. United States, 809 F.3d 134, 155
(5th Cir. 2015) (State of Texas had standing to mount
APA challenge to Deferred Action for Parents of

78a
Americans and Lawful Permanent Residents
program because Texas would “incur significant costs
in issuing driver’s licenses to [program] beneficiaries”), aff’d by equally divided Court, 136 S. Ct.
2271, 2272 (2016). Plaintiffs have demonstrated at
least two ways in which implementation of the Final
Rules will damage their States’ fiscs: through
increased reliance on state-funded family-planning
programs and through the state-borne costs of
unintended pregnancies.
First, Plaintiffs have shown that the Final Rules
will “lead to women losing employer-sponsored
contraceptive coverage, which will then result in
economic harm to the states” as these women “turn to
state-based programs or programs reimbursed by the
state.” California, 911 F.3d at 571–72. The Little
Sisters take issue with the Ninth Circuit’s reasoning
because “the States have still failed to identify anyone
who will actually be harmed by the Mandate.” Little
Sisters Opp. at 9. But the Ninth Circuit was clear that
the States need not identify a specific woman likely to
lose contraceptive coverage to establish standing.
California, 911 F.3d at 572. Even if the States have
not identified specific women who will be impacted by
the Final Rules, Federal Defendants themselves have
done much of the work to establish that Plaintiffs
have standing. The Religious Exemption states that
up to approximately 126,400 “women of childbearing
age will be affected by the expanded exemptions.” 83
Fed. Reg. at 57,551 n.26. At an estimated expense of
$584 per year per woman impacted, this amounts to

79a
$67.3 million nationwide annually. See id. at 57,581.9
Further, the Final Rules explicitly rely on Title X
clinics as a backstop for women who lose contraceptive coverage as a result of the Final Rules. See id.
at 57,551; 83 Fed. Reg. at 57,608; see also 83 Fed. Reg.
at 25,502. But Plaintiffs have shown that in many of
their States, these already cash-strapped Title X
clinics are operated in conjunction with state family
planning services, meaning that any increase in
enrollment will likely increase costs to the state. See
Declaration of Kathryn Kost (“Kost Decl.”), Dkt. No.
174-19 ¶ 48 (“Title X is able to serve only one-fifth of
the nationwide need for publicly funded contraceptive
care” and “cannot sustain additional beneficiaries as
a result of the Final Rules”); Declaration of Mari
Cantwell (“Cantwell Decl.”), Dkt. No. 174-4 ¶ 18 (all
California Title X clinics are also California Family
Planning, Access, Care, and Treatment program
providers); Declaration of Lauren J. Tobias (“Tobias
Decl.”), Dkt. No. 174-33 ¶ 5 (New York Title X clinics
are same as state family planning program clinics).
Or the States will be forced to shoulder the costs of
the Final Rules more directly, as Federal Defendants
refer women to Title X clinics funded directly by the
state. See Declaration of Karen Nelson (“Nelson
Decl.”), Dkt. No. 174-25 ¶ 20 ($6 million of Maryland’s
Title X budget comes from state, $3 million from
federal government).

The Moral Exemption estimates that approximately 15 women
of childbearing age will lose their access to cost-free
contraceptives. See 83 Fed. Reg. at 57,627. At an average cost of
$584 annually, this amounts to $8,760 each year. See id. at
57,628.
9

80a
In addition, the States have submitted
voluminous and detailed evidence documenting how
their female residents are predicted to lose access to
contraceptive coverage because of the Final Rules—
and how those women likely will turn to state
programs to obtain no-cost contraceptives, at significant cost to the States. See, e.g., Cantwell Decl., Dkt.
No. 174-4 ¶¶ 16–18 (Final Rules will result in more
women becoming eligible for California’s Family
Planning, Access, Care, and Treatment program,
meaning that “state dollars may be diverted to
provide” contraceptive coverage); Nelson Decl., Dkt.
No. 174-25 ¶ 20 (“it will be difficult for the current
[State of Maryland] budget levels to accommodate the
increase in women seeking [Title X services] after
losing contraception coverage in their insurance
plans”); Tobias Decl., Dkt. No. 174-33 ¶ 5 (exemptions
in Final Rules “will result in more women receiving”
New York Family Planning Program services, thus
putting program at “risk [of] being overwhelmed by
the increase in patients”); Declaration of Jonathan
Werberg, Dkt. No. 174-36 ¶¶ 5–8 (identifying New
York employers that are likely to invoke exemptions
“because of their involvement in previous litigation”:
Hobby Lobby, with 720 New York employees; Nyack
College, with 3,000 students and 1,100 employees in
New York; and Charles Feinberg Center for
Messianic Jewish Studies, whose parent university
has 1,000 students nationwide). Of course, under the
status quo, these women have a statutory entitlement
to free contraceptives through their regular health
insurance and thus impose no cost on the States. The
States have established a causal chain linking them

81a
to harm if the Final Rules were implemented. See
California, 911 F.3d at 571–72.
Second, the States have shown that the Final
Rules are likely to result in a decrease in the use of
effective contraception, thus leading to unintended
pregnancies which would impose significant costs on
the States. Some of the most effective contraceptive
methods are also among the most expensive. See Kost
Decl. ¶¶ 15–18, 24. For example, long-acting reversible contraceptives are among the most effective
methods, but may cost a woman over $1,000. See id. ¶
25. Women who lose their entitlement to cost-free
contraceptives are less likely to use an effective
method, or any method at all—resulting in
unintended pregnancies. See id. ¶ 27, 36–42;
Declaration of Lisa M. Hollier (“Hollier Decl.”), Dkt.
No. 174-15 ¶ 6; Declaration of Walker A. Wilson
(“Wilson Decl.”), Dkt. No. 174-38 ¶ 5 (Final Rules may
cause women in North Carolina to “forgo coverage and
experience an unintended pregnancy”); Nelson Decl.,
Dkt. No. 174-25 ¶ 30 (unintended pregnancy rate of
women not using contraception is 45% and loss of
coverage will result in more unintended pregnancies);
Declaration of Karyl T. Rattay (“Rattay Decl.”), Dkt.
No. 174-30 (Final Rules “will contribute to an increase
in Delaware’s nationally high unintended pregnancy
rate as women forego needed contraception and other
services”). Much of the financial burden of these
unintended pregnancies will be borne by the States.
See, e.g., Rattay Decl., Dkt. No. 174-30 (in 2010, 71.3%
of unplanned births in Delaware were publicly
funded, costing Delaware $36 million); Declaration of
Nicole Alexander-Scott (“Alexander-Scott Decl.”),
Dkt. No. 174-7 ¶ 3 (unintended pregnancies likely to

82a
result from Final Rules will impose costs on state of
Rhode Island); Wilson Decl., Dkt. No. 174-38 ¶ 5
(unintended pregnancies likely to result from Final
Rules will impose costs on State of North Carolina);
Declaration of Nathan Moracco (“Moracco Decl.”),
Dkt. No. 174-23 ¶ 5 (State of Minnesota “may bear a
financial risk when women lose contraceptive
coverage” because State is obligated to pay for child
delivery and newborn care for children born to lowincome mothers).10
In sum, Plaintiffs have shown that the challenged
Final Rules pose a reasonably probable threat to their
economic interests because they will be forced to pay
for contraceptives that are no longer provided costfree to women as guaranteed by the Affordable Care
Act, as the Ninth Circuit found with respect to the five
original Plaintiff States. See California, 911 F.3d at
570. The States also have established a reasonable
probability that they will suffer economic harm from
10 Of course, these financial costs to the States do not capture the
additional substantial costs—whether they be financial,
professional, or personal—to women who unintendedly become
pregnant after losing access to the cost-free contraceptives to
which they are entitled. See, e.g., Planned Parenthood of Se. Pa.
v. Casey, 505 U.S. 833, 856 (1992) (“The ability of women to
participate equally in the economic and social life of the Nation
has been facilitated by their ability to control their reproductive
lives.”); Brief of Amici Curiae U.S. Women’s Chamber of
Commerce and National Association for Female Executives, Dkt.
No. 231 at 12 (58% of women paid out-of-pocket costs for
intrauterine devices prior to Women’s Health Amendment, but
only 13% by March 2014); Brief of Amici Curiae American
Association of University Women, et al., Dkt. No. 230 at 16–17
(explaining the “tremendous and adverse personal, professional,
social, and economic effects” of reducing women’s access to
contraceptives).

83a
the consequences of unintended pregnancies
resulting from the reduced availability of contraceptives. These injuries are directly traceable to the
exemptions created by the Final Rules. As the Ninth
Circuit noted, under the APA, the States “will not be
able to recover monetary damages.” Id. at 581 (citing
5 U.S.C. § 702 (permitting “relief other than money
damages”)); see also Haines v. Fed. Motor Carrier
Safety Admin., 814 F.3d 417, 426 (6th Cir. 2016)
(federal courts do not have jurisdiction to adjudicate
suits seeking monetary damages under the APA).
Thus, granting a preliminary injunction is the only
effective way to redress the potential harm to the
States until the Court can fully assess the merits. The
States have established the requirements of Article
III standing.
2.

Plaintiffs
Standing.

Have

Statutory

In addition to establishing Article III standing, a
plaintiff must show that it “has a cause of action
under the statute.” Lexmark Int’l, Inc. v. Static
Control Components, Inc., 572 U.S. 118, 128 (2014).
The APA provides that a “person . . . adversely
affected or aggrieved by agency action within the
meaning of a relevant statute, is entitled to judicial
review thereof.” 5 U.S.C. § 702. Courts have interpreted this provision to mean that a plaintiff must
“establish (1) that there has been final agency action
adversely affecting the plaintiff, and (2) that, as a
result, it suffers legal wrong or that its injury falls
within the zone of interests of the statutory provision
the plaintiff claims was violated.” Citizens for Better
Forestry v. U.S. Dep’t of Agric., 341 F.3d 961, 976 (9th
Cir. 2003) (internal quotation omitted).

84a
First, a final rule is, as the name suggests, a final
agency action. See id. Second, Plaintiffs’ alleged
injury—increased costs from providing contraceptives
and from the consequences of unintended
pregnancies—is within the zone of interests of the
Women’s Health Amendment, which was enacted to
ensure that women would have access to cost-free
contraceptives through their health insurance. Cf.
City of Sausalito v. O’Neill, 386 F.3d 1186, 1204–05
(9th Cir. 2004) (plaintiff city within zone of interests
of Concessions Management Improvement Act
because it “assert[ed] injury to its ‘proprietary
interest’”); Citizens for Better Forestry, 341 F.3d at
976 (plaintiffs had statutory standing because “trying
to protect the environment” was within zone of
interests of National Environmental Policy Act).
Thus, Plaintiffs have established statutory standing.
C.

Plaintiffs Have Shown They Are
Entitled to a Preliminary Injunction.

Plaintiffs are entitled to a preliminary injunction
as to the Final Rules. As to both rules, Plaintiffs have
shown that they are likely to succeed, or at a
minimum have raised serious questions going to the
merits, on their claim that the Religious Exemption
and the Moral Exemption are inconsistent with the
Women’s Health Amendment, and thus violate the
APA. Plaintiffs also have shown that they are likely
to suffer irreparable harm as a result of this violation,
that the balance of hardships tips sharply in their
favor, and that the public interest favors granting the
injunction.

85a
1.

Plaintiffs are likely to succeed
in, or have at a minimum
raised serious questions regarding, their argument that
the Religious Exemption is
“not in accordance with” the
ACA, and thus violates the
APA.

Under the APA, “agency decisions may be set
aside only if ‘arbitrary, capricious, an abuse of
discretion, or otherwise not in accordance with law.’”
Snoqualmie Indian Tribe v. FERC, 545 F.3d 1207,
1212 (9th Cir. 2008) (quoting 5 U.S.C. § 706(2)(A).
Plaintiffs argue that “[t]he Rules cannot be reconciled
with the text and purpose of the ACA—which seeks to
promote access to women’s healthcare, not limit it.”
Mot. at 10. The Court agrees that Plaintiffs are likely
correct, or have, at a minimum, raised serious
questions going to the merits of this claim. To explain
why, the Court must address three contentions made
by the Federal Defendants and the Intervenors: (1)
the Contraceptive Mandate is not actually a
“mandate” at all, but rather a policy determination
wholly subject to the agencies’ discretion; (2) the
changes codified in the Religious Exemption were
mandated by RFRA; and (3) even if the agencies were
not required under RFRA to adopt the Religious
Exemption, they nonetheless had discretion to do so.

86a
a.

The “Contraceptive Mandate” in the Women’s
Health Amendment is in
fact a statutory mandate.

Echoing the Final Rules, the Federal Defendants
initially argue that “the ACA grants HRSA, and in
turn the Agencies, significant discretion to shape the
content and scope of any preventive-services guidelines adopted pursuant to § 300gg-13(a)(4).” Federal
Opp. at 17; see also Little Sisters Opp. at 12 (“The
ACA did not mandate contraceptive coverage.
Instead, Congress delegated to HRSA discretion to
determine the contours of the preventive services
guidelines.”). Federal Defendants thus contend that
this section of the statute “must be understood as a
positive grant of authority for HRSA to develop the
women’s preventive-service guidelines and for the
Agencies, as the administering Agencies of the
applicable statutes, to shape that development.”
Federal Opp. at 18. Federal Defendants’ conclusion is
that Section 300gg-13(a)(4) “thus authorized HRSA to
adopt guidelines for coverage that include an
exemption for certain employers, and nothing in the
ACA prevents HHS from supervising HRSA in the
development of those guidelines.” Id.
The Court rejects the Federal Defendants’ claim
that the ACA delegated total authority to the agencies
to exempt anyone they wish from the contraceptive
mandate. The Federal Defendants never appear to
have denied that the statutory mandate is a mandate
until the issuance of the IFRs (and the ensuing
litigation in this district and in the Eastern District
of Pennsylvania challenging the IFRs and now the
Final Rules). They cite no case in which a court has

87a
accepted this claim. To the contrary, this Court knows
of no Supreme Court, court of appeal or district court
decision that did not presume that the ACA requires
specified categories of health insurance plans and
issuers to provide contraceptive coverage at no cost to
women. See, e.g., Zubik, 136 S. Ct. at 1559 (“Federal
regulations require petitioners to cover certain
contraceptives as part of their health plans”); Hobby
Lobby, 134 S. Ct. at 2762; California, 911 F.3d at 566
(ACA and its regulations “require group health plans
to cover contraceptive care without cost sharing”).
The United States government also has admitted as
much in its consistent prior representations to the
Supreme Court. See Brief for Respondents at 25,
Zubik, 136 S. Ct. at 1557 (2016) (Nos. 14-1418, 141453, 14-1505, 15-35, 15-105, 15-119, 15-191)
(recognizing “the generally applicable requirement to
provide contraceptive coverage”); id. at 37–38
(recognizing that “[t]he Affordable Care Act itself
imposes an obligation on insurers to provide
contraceptive coverage, 42 U.S.C. 300gg-13”).
Federal Defendants’ argument that the statute’s
language requiring coverage “as provided” by the
regulations confers unbridled discretion on the
agencies to exempt anyone they see fit from providing
coverage, Federal Opp. at 18–19, is inconsistent with
the ACA’s mandate that women’s contraceptive
coverage “shall” be provided by covered plans and
issuers without cost sharing. The statute’s use of the
phrase “as provided for in comprehensive guidelines”
simply cannot reasonably be read as a Congressional
delegation of the plenary authority claimed by the
Federal Defendants. Instead, Congress permitted
HRSA, a health agency, to determine what

88a
“additional preventive care and screenings” in those
guidelines must be covered with respect to women.
See Catholic Health Care Sys. v. Burwell, 796 F.3d
207, 210 (2d Cir. 2015) (“The ACA does not specify
what types of preventive care must be covered for
female plan participants and beneficiaries. Instead,
Congress left that issue to be determined via
regulation by the [HRSA].”) (emphasis added),
vacated and remanded, 136 S. Ct. 2450 (2016).
Without dispute, the guidelines continue to identify
contraceptive services as among those for which
health plans and insurers “shall, at a minimum
provide coverage . . . and shall not impose any cost
sharing requirements.” See Health Res. & Serv.
Admin., Women’s Preventive Services Guidelines,
https://www.hrsa.gov/womens-guidelines-2016/index.
html (last updated Oct. 2017). Moreover, in 2012,
“[t]he Senate voted down the so-called conscience
amendment, which would have enabled any employer
or insurance provider to deny coverage based on its
asserted ‘religious beliefs or moral convictions.’”
Hobby Lobby, 134 S. Ct. at 2789 (Ginsburg, J.,
dissenting) (citing 158 Cong. Rec. S539 (Feb. 9, 2012)
and S1162–73 (Mar. 1, 2012)).
Accordingly, the Court rejects the Federal
Defendants’ claim that the ACA delegates to the
agencies complete discretion to implement any
exemptions they choose, including those at issue here.
See Pennsylvania, 281 F.Supp.3d at 579 (rejecting
government’s argument that “HRSA may determine
not only the services covered by the ACA, but also the
manner or reach of that coverage,” because “the ACA
contains no statutory language allowing the Agencies
to create such sweeping exemptions to the require-

89a
ments to cover ‘preventive services,’ which, as interpreted by those same agencies, include mandatory nocost coverage of contraceptive services”).
To the extent the Federal Defendants rely on the
existence of the church exemption instituted in 2013
to support their position, Federal Opp. at 18–19, the
legality of that exemption is not before the Court. The
Court notes, however, that the church exemption was
rooted in provisions of the Internal Revenue Code
that apply to churches, their integrated auxiliaries,
and conventions or associations of churches, as well
as to the exclusively religious activities of any
religious order. See 78 Fed. Reg. at 39,874 (classifying
“an employer that [was] organized and operate[d] as
a nonprofit entity and [was] referred to in section
6033(a)(3)(A)(i) or (iii) of the Code [as] a religious
employer for purposes of the religious employer
exemption.”). While a court could someday be
presented with the question of whether the church
exemption is uniquely required by law given the
special legal status afforded to churches and their
integrated auxiliaries, the existence of that
exemption simply does not mean that the agencies
have boundless authority to implement any other
exemptions they choose.
b.

The
Religious
Exemption
likely is not required by
RFRA.

Because the Women’s Health Amendment,
including the requirement to cover the preventive
care and screenings identified in the guidelines, is a
law of general applicability, the next question is
whether RFRA requires the government to relieve

90a
qualifying entities of the obligation to comply by
providing the Religious Exemption, as opposed to the
accommodation provided for under the pre-IFR
version of the rules currently in force. The Court finds
that the Religious Exemption likely is not required by
RFRA.
“RFRA suspends generally applicable federal
laws that ‘substantially burden a person’s exercise of
religion’ unless the laws are ‘the least restrictive
means of furthering a compelling governmental
interest.’” Oklevueha Native Amer. Church of Hawaii
v. Lynch, 828 F.3d 1012, 1015 (9th Cir. 2016) (internal
quotation and citation omitted). The Ninth Circuit
has held that “[u]nder RFRA, a ‘substantial burden’ is
imposed only when individuals are forced to choose
between following the tenets of their religion and
receiving a governmental benefit . . . or coerced to act
contrary to their religious beliefs by the threat of civil
or criminal sanctions . . . .” Navajo Nation v. United
States Forest Serv., 535 F.3d 1058, 1070 (9th Cir.
2008). The government “is not required to prove a
compelling interest for its action or that its action
involves the least restrictive means to achieve its
purpose, unless the plaintiff first proves the
government action substantially burdens his exercise
of religion.” Id. at 1069.
The Federal Defendants and the Little Sisters
argue that the current accommodation, under which
eligible organizations are not required to contract,
arrange, pay, or refer for contraceptive coverage,
substantially burdens religious objectors’ exercise of
religion. Federal Opp. at 22; Little Sisters Opp. at 15
(contending that “RFRA mandates a broad religious
exemption” from the contraceptive coverage

91a
requirement). Federal Defendants and the Little
Sisters argue that even requiring objectors to notify
the government that they are opting out of the
otherwise-applicable obligation to cover contraceptive
services for their female employees, students, or
beneficiaries makes them complicit in the provision of
products incompatible with their religious beliefs.
Federal Opp. at 22 (“The accommodation, like the
Mandate, imposes a substantial burden because it
requires some religious objectors to ‘act in a manner
that they sincerely believe would make them
complicit in a grave moral wrong as the price of
avoiding a ruinous financial penalty.’”) (quoting
Sharpe Holdings, Inc. v. Dep’t of Health & Human
Serv., 801 F.3d 927, 941 (8th Cir. 2015), vacated sub
nom. Dep’t of Health & Human Servs. v. CNS Int’l
Ministries, 84 U.S.L.W. 3630, 2016 WL 2842448, at *1
(2016); Little Sisters Opp. at 16 (“The Little Sisters
cannot, in good conscience, provide these services on
their health benefits plan or authorize others to do so
for them.”).
While the Ninth Circuit has not considered this
question, nine other courts of appeal have. Of those
courts, all other than the Eighth Circuit (in the
Sharpe Holdings decision on which the Federal
Defendants exclusively rely) concluded that the
accommodation does not impose a substantial burden
on objectors’ exercise of religion.11 This Court agrees
See Priests for Life v. U.S. Dep’t of Health & Human Servs.,
772 F.3d 229 (D.C. Cir. 2014), vacated sub nom. Zubik, 136 S. Ct.
at 1561; Catholic Health Care Sys. v. Burwell, 796 F.3d 207 (2d
Cir. 2015), vacated, 136 S. Ct. 2450 (2016); Geneva Coll. v. Sec’y
U.S. Dep’t of Health & Human Servs., 778 F.3d 422 (3d Cir.
2015), vacated sub nom. Zubik, 136 S. Ct. at 1561; E. Tex. Baptist
11

92a
with the eight courts that so held, and finds that
Plaintiffs are likely to prevail on this argument.
First, whether a burden is substantial is an
objective question: a court “must assess the nature of
a claimed burden on religious exercise to determine
whether, as an objective legal matter, that burden is
‘substantial’ under RFRA.” Catholic Health Care Sys.,
796 F.3d at 217.12 In other words, “[w]hether a law
substantially burdens religious exercise under RFRA
is a question of law for courts to decide, not a question
Univ. v. Burwell, 793 F.3d 449 (5th Cir. 2015), vacated sub nom.
Zubik, 136 S. Ct. at 1561; Mich. Catholic Conference & Catholic
Family Servs. v. Burwell, 807 F.3d 738 (6th Cir. 2015), vacated,
136 S. Ct. 2450 (2016); Univ. of Notre Dame v. Burwell, 786 F.3d
606 (7th Cir. 2015), vacated, 136 S. Ct. 2007 (2016); Grace Schs.
v. Burwell, 801 F.3d 788 (7th Cir. 2015), vacated, 136 S. Ct. 2011
(2016); Little Sisters of the Poor Home for the Aged, Denver, Colo.
v. Burwell, 794 F.3d 1151 (10th Cir. 2015), vacated sub nom.
Zubik, 136 S. Ct. at 1561; Eternal Word Television Network v.
Sec’y of U.S. Dep’t Health & Human Servs., 818 F.3d 1122 (11th
Cir. 2016), vacated No. 14-12696, 2016 WL 11503064 (11th Cir.
May 31, 2016). Only the Eighth Circuit has found that the
religious accommodation as it existed before the promulgation of
the 2017 IFRs imposed a substantial burden on religious
exercise under RFRA. See Sharpe Holdings, 801 F.3d at 945
(affirming grant of preliminary injunction to religious objectors
because “they [were] likely to succeed on the merits of their
RFRA challenge to the contraceptive mandate and the
accommodation regulations”), vacated sub nom. Dep’t of Health
& Human Servs. v. CNS Int’l Ministries, 84 U.S.L.W. 3630, 2016
WL 2842448, at *1 (2016); Dordt Coll. v. Burwell, 801 F.3d 946
(8th Cir. 2015) (applying reasoning of Sharpe Holdings to similar
facts), vacated, 136 S. Ct. 2006 (2016).
12 While all eight of the decisions finding no substantial burden
were vacated by Zubik or other Supreme Court decisions, the
Court finds the analysis and reasoning of those cases highly
persuasive. The Eighth Circuit’s decision in Sharpe Holdings
has been vacated as well.

93a
of fact.” Priests for Life, 772 F.3d at 247. Importantly,
the Court may not, and does not here, question the
“sincerity of [a party’s] belief that providing, paying
for, or facilitating access to contraceptive services is
contrary to [its] faith,” or its judgment that “participation in the accommodation violates this belief.”
Catholic Health Care Sys., 796 F.3d at 217. But
“[w]hether the regulation objected to imposes a
substantial burden is an altogether different inquiry.”
Id. at 218.
As several courts have noted, the Supreme
Court’s decision in Hobby Lobby “did not collapse the
distinction between beliefs and substantial burden,
such that the latter could be established simply
through the sincerity of the former.” Catholic Health
Care Sys., 796 F.3d at 218; see also Eternal Word, 818
F.3d at 1145 (noting that “nothing in RFRA or case
law . . . allows a religious adherent to dictate to the
courts what the law requires,” and explaining that
“questions about what a law means are not the type
of ‘difficult and important questions of religion and
moral philosophy’ for which courts must defer to
religious adherents”) (citing Hobby Lobby, 134 S. Ct.
at 2778).
Both before and after the Supreme Court’s
decision in Wheaton College, all courts of appeal to
consider the question, with the exception of the
Eighth Circuit, have concluded that requiring
religious objectors to notify the government of their
objection to providing contraceptive coverage, so that
the government can ensure that the responsible
insurer or third-party administrator steps in to meet
the ACA’s requirements, does not impose a
substantial burden on religious exercise. As the

94a
Eleventh Circuit explained post-Wheaton in Eternal
Word, under the accommodation “the only action
required of the eligible organization is opting out:
literally, the organization’s notification of its
objection,” at which point all responsibilities related
to contraceptive coverage fall upon its insurer or TPA.
818 F.3d at 1149. The Eleventh Circuit noted that
“such an opt out requirement is ‘typical of religious
objection accommodations that shift responsibility to
non-objecting entities only after an objector declines
to perform a task on religious grounds.’” Id. (citing
Little Sisters of the Poor, 794 F.3d at 1183).
The eight courts of appeal also found that an
objector’s “complicity” argument does not establish a
substantial burden, because it is the ACA and the
guidelines that entitle plan participants and
beneficiaries to contraceptive coverage, not any action
taken by the objector. As the Eternal Word court
explained:
The ACA and the HRSA guidelines—not the
opt out—are . . . the ‘linchpins’ of the contraceptive mandate because they entitle women
who are plan participants and beneficiaries
covered by group health insurance plans to
contraceptive coverage without cost sharing.
In other words, women are entitled to
contraceptive coverage regardless of their
employer’s action (or lack of action) with
respect to seeking an accommodation.
Because a woman’s entitlement to contraceptive benefits does not turn on whether her
eligible organization employer chooses to
comply with the law (by providing contraceptive coverage or seeking an accommo-

95a
dation) or pay a substantial penalty (in the
form of a tax) for noncompliance, we cannot
say that the act of opting out imposes a
substantial burden.
818 F.3d at 1149. See also, e.g., Little Sisters of the
Poor, 794 F.3d at 1174 (“[S]hifting legal responsibility
to provide coverage away from the plaintiffs relieves
rather than burdens their religious exercise. The ACA
and its implementing regulations entitle plan
participants and beneficiaries to coverage whether or
not the plaintiffs opt out.”); East Texas Baptist Univ.
v. Burwell, 793 F.3d 449, 459 (5th Cir. 2015) (“[T]he
plaintiffs claim that their completion of Form 700 or
submission of a notice to HHS will authorize or
trigger payments for contraceptives. Not so. The ACA
already requires contraceptive coverage . . . .”).
The Eleventh Circuit in Eternal Word
summarized its analysis by holding that it “simply
[could] not say that RFRA affords the plaintiffs the
right to prevent women from obtaining contraceptive
coverage to which federal law entitles them based on
the de minimis burden that the plaintiffs face in
notifying the government that they have a religious
objection.” 818 F.3d at 1150. This Court agrees.
Moreover, as several courts have noted, in Hobby
Lobby the Supreme Court at least suggested (without
deciding) that the accommodation likely was not
precluded by RFRA. See, e.g., Catholic Health Care
Sys., 796 F.3d at 217 (“Indeed, in Hobby Lobby, the
Supreme Court identified this accommodation as a
way to alleviate a substantial burden on the religious
exercise of for-profit corporations . . . .”), East Texas
Baptist Univ., 793 F.3d at 462 (“The Hobby Lobby

96a
Court . . . actually suggested in dictum that the
accommodation
does
not
burden
religious
exercise . . . .”). Hobby Lobby described the accommodation as “effectively exempt[ing] certain religious
nonprofit organizations . . . from the contraceptive
mandate.” 134 S. Ct. at 2763. The Court characterized
the accommodation as “an approach that is less
restrictive than requiring employers to fund
contraceptive methods that violate their religious
beliefs.” Id. at 2782. While making clear that it did
not “decide today whether an approach of this type
complies with RFRA for purposes of all religious
claims,” the Court said that “[a]t a minimum, [the
accommodation did] not impinge on the plaintiffs’
religious belief that providing insurance coverage for
the contraceptives at issue here violates their
religion, and it serves HHS’s stated interests equally
well.” Id. Specifically, the Court said that “[u]nder the
accommodation, the plaintiffs’ female employees
would continue to receive contraceptive coverage
without cost sharing for all FDA-approved
contraceptives, and they would continue to ‘face
minimal logistical and administrative obstacles . . .
because their employers’ insurers would be responsible for providing information and coverage . . . .” Id.
(citation omitted).
The Little Sisters raise two arguments to suggest
that the reasoning referenced above should not
control. First, they contend that in the Zubik case, the
government made factual concessions that “removed
any basis for lower courts’ prior holding that the
Mandate did not impose a substantial burden on the
religious exercise of objecting employers because the
provision of contraceptives was separate from their

97a
plans.” Little Sisters Opp. at 6. Second, they point to
what they characterize as “unanimous rulings” postZubik entering “permanent injunctions against the
Mandate as a violation of RFRA.” Id. at 16.13 The
Court does not find either argument persuasive at
this stage.
With regard to the government’s Zubik
“concession,” the Court cannot in the limited time
available before the Final Rules are scheduled to take
effect review the entirety of the Zubik record to place
the statements identified in context. But even
assessing on their face the handful of facts proffered,
it is not self-evident that the representations have the
definitive effect posited by the Little Sisters. See id.
at 6 (citing following exchange during the Zubik oral
argument: “Chief Justice Roberts: ‘You want the
coverage for contraceptive services to be provided, I
think as you said, seamlessly. You want it to be in one
insurance package. . . . Is that a fair understanding of
the case?’ Solicitor General Verrilli: “I think it is one
fair understanding of the case.’”) (ellipses as in Little
Sisters Opp.). On the present record, the Court cannot
conclude that the “one fair understanding” comment,
or the other few representations cited, fatally
undermined the core conclusion of the eight courts of
appeal that requiring a religious objector simply to
notify the government of its objection, consistent with
Wheaton College, does not substantially burden
The Court notes that the district court in Pennsylvania found,
post-Zubik, that the IFRs “are not required under RFRA because
the Third Circuit—twice now—has foreclosed the Agencies’ legal
conclusion that the Accommodation Process imposes a
substantial burden.” 281 F.Supp.3d at 581. This decision
undercuts the Little Sisters’ unanimity claim.

13

98a
religious exercise. The Court thus believes it likely
that the answer to the legal question posed in that onpoint authority is not altered by the position taken by
the government in Zubik. This conclusion, like all of
the Court’s preliminary analysis in this order, is
subject to re-evaluation once a fuller record is
developed. See California, 911 F.3d at 584 (noting
that “the fully developed factual record may be
materially different from that initially before the
district court”).
Relatedly, the Court finds that nothing in the
post-Zubik district court decisions cited by the Little
Sisters compels the conclusion that the Religious
Exemption was mandated by RFRA. The Zubik
remand order gave the parties the “opportunity to
arrive at an approach going forward that accommodates petitioners’ religious exercise while at the
same time ensuring that women covered by petitioners’
health plans ‘receive full and equal health coverage,
including contraceptive coverage.’” 136 S. Ct. at 1560
(emphasis added). While expressing “no view on the
merits of the cases,” id., the Supreme Court said that
“[n]othing in this opinion, or in the opinions or orders
of the courts below, is to affect the ability of the
Government to ensure that women covered by
petitioners’ health plans ‘obtain, without cost, the full
range of FDA approved contraceptives.’” Id. at 1560–
61 (quoting Wheaton College, 134 S. Ct. at 2807)
(emphasis added). In her concurrence, Justice
Sotomayor stressed her understanding that the
majority opinion “allows the lower courts to consider
only whether existing or modified regulations could
provide seamless contraceptive coverage to
petitioners’ employees, through petitioners’ insurance

99a
companies, without any notice from petitioners.”
Zubik, 136 S. Ct. at 1561 (Sotomayor, J., concurring)
(internal quotations and ellipses omitted).
Following remand, however, as reflected in the
IFRs and now the Final Rules, the Federal Defendants simply reversed their position and stopped
defending the accommodation, and now seemingly
disavow any obligation to ensure coverage under the
ACA. As a result, the post-Zubik orders were entered
without objection by the government, based on the
agencies’ new position that the accommodation
violates RFRA. See, e.g., Wheaton Coll. v. Azar, No.
1:13-cv-08910, Dkt. 119 at 2 (N.D. Ill. Feb. 22, 2018)
(noting that “[a]fter reconsideration of their position,
Defendants now agree that enforcement of the
currently operative rules regarding the ‘contraceptive
mandate’ against employers with sincerely held
religious objections would violate RFRA, and thus do
not oppose Wheaton’s renewed motion for injunctive
and declaratory relief”). In other words, it appears to
the Court that no party in these cases purported to
represent, or even consider the substantial interests
of, the women who now will be deprived of “full and
equal health coverage, including contraceptive
coverage.” Cf. Zubik, 136 S. Ct. at 1560. Counsel for
the Little Sisters confirmed at oral argument that
none of those decisions have been appealed
(presumably for the same reason). So the eight
appellate courts upon whose reasoning this Court
relies have not had the opportunity to decide whether
any subsequent developments would change their
conclusions. For all of these reasons, the Court finds
that nothing about the post-Zubik orders cited by the
Little Sisters changes its conclusion that Plaintiffs

100a
are likely to succeed in their argument that the Final
Rules are not mandated by RFRA.
c.

There are serious questions
going to the merits as to
whether the Religious Exemption is otherwise permissible.

The Federal Defendants and the Little Sisters
further argue that even if the Religious Exemption is
not required by RFRA, the agencies have discretion
under RFRA to implement it. Federal Opp. at 21
(“[N]othing in RFRA prohibits the Agencies from now
employing the more straightforward choice of an
exemption—much like the existing and unchallenged
exemption for churches.”); Little Sisters Opp. at 17
(“RFRA thus contemplates that the government may
choose to grant discretionary benefits or exemptions
to religious groups over and above those which are
strictly required by RFRA.”). As accurately summarized by the Little Sisters, the question is thus
whether Congress has “delegated authority to the
agencies to create exemptions to protect religious
exercise,” such that RFRA “operates as a floor on
religious accommodation, not a ceiling.” Little Sisters
Opp. at 17. While addressed only relatively briefly by
the parties, this argument raises what appears to be
a complex issue at the intersection of RFRA, Free
Exercise, and Establishment Clause jurisprudence.
The Court begins with a foundational premise:
what the government is permitted to do under a
statute or the Constitution presents a pure question
of law for the courts, and the agencies’ views on this
legal question are entitled to no deference (except to
the extent required by Chevron as to statutory

101a
interpretation). See Hobby Lobby, 134 S. Ct. at 2775
n.30 (noting that “conscience amendment” rejected by
Congress “would not have subjected religious-based
objections to the judicial scrutiny called for by RFRA,
in which a court must consider not only the burden of
a requirement on religious adherents, but also the
government’s interest and how narrowly tailored the
requirement is”); see also Board of Trustees of Univ. of
Alabama v. Garrett, 531 U.S. 356, 365 (2001)
(recognizing the “long-settled principle that it is the
responsibility of this Court, not Congress, to define
the substance of constitutional guarantees” (citing
City of Boerne v. Flores, 521 U.S. 507, 519–24 (1997));
Snoqualmie Indian Tribe, 545 F.3d at 1212–13 (“An
agency’s interpretation or application of a statute is a
question of law reviewed de novo,” subject to Chevron
deference to agency’s permissible construction if
statute is silent or ambiguous on a particular point).
The Little Sisters acknowledged at oral argument
that they do not contend the Court owes Chevron
deference to the agencies’ interpretation of RFRA.
On the other hand, the Federal Defendants
assert, relying on Ricci v. DeStefano, 557 U.S. 557,
585 (2009), that “[i]f agencies were legally prohibited
from offering an exemption unless they concluded
that no other possible accommodation would be
consistent with RFRA, the result would be protracted
and unnecessary litigation.” Federal Opp. at 21–22.
This argument is neither supported by the cited
authority nor relevant.
First, Ricci does not support the Federal
Defendants’ argument. Ricci involved a city’s decision
not to certify the results of a promotion examination
taken by its firefighters. 557 U.S. at 562. The city

102a
based its decision on its apparent fear that it would
be sued for adopting a practice that had a disparate
impact on minority firefighters, in violation of Title
VII. Id. at 563. The Supreme Court characterized its
analysis as focused on how to “resolve any conflict
between the disparate-treatment and disparateimpact provisions of Title VII.” Id. at 584. The Court
found that “applying the strong-basis-in-evidence
standard to Title VII gives effect to both the
disparate-treatment and disparate impact provisions,
allowing violations of one in the name of compliance
with the other only in certain narrow circumstances”—specifically, when a government actor had
a strong basis in evidence to conclude that raceconscious action was necessary to remedy past racial
discrimination. Id. at 582–83. The Court described
this standard as limiting employers’ discretion in
making race-based decisions “to cases in which there
is a strong basis in evidence of disparate-impact
liability,” but said it was “not so restrictive that it
allows employers to act only when there is a provable,
actual violation.” Id. at 583. Accordingly, the Court
“h[e]ld only that under Title VII, before an employer
can engage in intentional discrimination for the
asserted purpose of avoiding or remedying an
unintentional disparate impact, the employer must
have a strong basis in evidence to believe it will be
subject to disparate-impact liability if it fails to take
the race-conscious, discriminatory action.” Id. at 585.
The Court does not view Ricci as shedding any
light on whether a federal agency has plenary
discretion under RFRA to grant any exemption it
chooses from an otherwise generally-applicable law
passed by Congress. The Federal Defendants cite no

103a
case applying Ricci in the RFRA context, or otherwise
engaging in an analysis comparable to the Supreme
Court’s in that case.
Second, and more fundamentally, Federal
Defendants’ argument is irrelevant, because the
courts, not the agencies, are the arbiters of what the
law and the Constitution require. The Court
questions the Little Sisters’ contention that RFRA
effected a wholesale delegation to executive agencies
of the power to create exemptions to laws of general
applicability in the first instance, based entirely on
their own view of what the law requires.14 As this case
definitively demonstrates, such views can change
dramatically based on little more than a change in
administration. In any event, there is no dispute that
both the prior and current Administrations have
contended that they have administered the ACA in a
manner consistent with RFRA. But the courts are not
concerned, at all, with the Federal Defendants’ desire
to “avoid litigation,” especially where that avoidance
The Court notes that Guam v. Guerrero, 290 F.3d 1210 (9th
Cir. 2002), the case cited by the Little Sisters, addressed
Congress’s power to carve out religious exemptions from statutes
of general applicability. It is true that the ACA is subject to the
requirements of RFRA. See Hobby Lobby, 134 S. Ct. at 2775 n.30
(explaining that “any Federal statutory law adopted after
November 16, 1993 is subject to RFRA unless such law explicitly
excludes such application by reference to RFRA (quoting 42
U.S.C. § 2000bb-3(b)) (internal quotations and emphasis
omitted). But here, as noted earlier, in 2012 Congress declined
to adopt a “conscience amendment” authorizing a “blanket
exemption for religious or moral objectors” that was similar in
many ways to the Final Rules at issue here. See id. at n.37
(majority opinion) and 2789 (Ginsburg, J., dissenting). Whether
Congress could choose to amend the ACA to include exemptions
like those in the Final Rules is not before the Court in this case.

14

104a
means depriving a large number of women of their
statutory rights under the ACA. Rather, the courts
have a duty to independently decide whether the
Final Rules comport with statutory and Constitutional requirements, as they have done in many
analogous cases involving RFRA, and the Court
rejects the Federal Defendants’ suggestion that “an
entity faced with potentially conflicting legal
obligations should be afforded some leeway,” Federal
Opp. at 21. Ultimately, this Court (and quite possibly
the Supreme Court) will have to decide the legal
questions presented in this case, but no “leeway” will
be given to the government’s current position in doing
so.
Moving to the substance of the issue, the Court
first notes that the Ninth Circuit has held that a
plaintiff’s “failure to demonstrate a substantial
burden under RFRA necessarily means that [it has]
failed to establish a violation of the Free Exercise
Clause, as RFRA’s prohibition on statutes that
burden religion is stricter than that contained in the
Free Exercise Clause.” Fernandez v. Mukasey, 520
F.3d 965, 966 n.1 (9th Cir. 2008). This holding is not
dispositive of the dispute here, however, because the
Supreme Court has said that “‘there is room for play
in the joints’ between the Clauses, some space for
legislative action neither compelled by the Free
Exercise Clause nor prohibited by the Establishment
Clause.” Cutter v. Wilkinson, 544 U.S. 709, 719 (2005)
(internal quotation and citation omitted).
As the Little Sisters note, “[g]ranting government
funding, benefits, or exemptions, to the extent
permissible under the Establishment Clause, shall
not constitute a violation” of RFRA. 42 U.S.C. §

105a
2000bb-4. But the Supreme Court has explained that
“[a]t some point, accommodation may devolve into ‘an
unlawful fostering of religion.’” Corp. of Presiding
Bishop of Church of Jesus Christ of Latter-Day Saints
v. Amos, 483 U.S. 327, 334–35 (1987) (quoting Hobbie
v. Unemployment Appeals Comm’n of Fla., 480 U.S.
136, 145 (1987)). That is one of the core disputes here:
given its plain impact on women’s entitlement to
coverage under the ACA, is the Religious Exemption
permissible under RFRA even if it is not mandated by
RFRA? The Court finds that Plaintiffs have raised at
least “serious questions going to the merits” as to this
legal question. Alliance for the Wild Rockies, 632 F.3d
at 1131–32.
The Court knows of no decision that has squarely
addressed this issue in the context of the ACA. As the
Court has discussed above, the Religious Exemption
has the effect of depriving female employees, students
and other beneficiaries connected to exempted
religious objectors of their statutory right under the
ACA to seamlessly-provided contraceptive coverage
at no cost. That deprivation appears to occur without
even requiring any direct notice to the women affected
by an objector’s decision to assert the Religious
Exemption. See 83 Fed. Reg. at 57,558. Courts,
including the Supreme Court in Hobby Lobby, have
recognized that a court evaluating a RFRA claim
must “take adequate account of the burdens a
requested accommodation may impose on nonbeneficiaries.” Hobby Lobby, 134 S. Ct. at 2781 n.37
(citing Cutter, 544 U.S. at 720 (internal quotations
omitted)); see also Priests for Life, 772 F.3d at 266
(“When the interests of religious adherents collide
with an individual’s access to a government program

106a
supported by a compelling interest, RFRA calls on the
government to reconcile the competing interests. In so
doing, however, RFRA does not permit religious
exercise to ‘unduly restrict other persons, such as
employees, in protecting their own interests, interest
the law deems compelling.’”) (citing Hobby Lobby, 134
S. Ct. at 2786–87 (Kennedy, J., concurring)); Priests
for Life, 772 F.3d at 272 (“Limiting the exemption, but
making the [accommodation] opt out available, limits
the burdens that flow from organizations ‘subjecting
their employees to the religious views of the
employer.’”) (citing 77 Fed. Reg. at 8,728 (February
2012 final rule adopting definition of “religious
employer” as set forth in 2011 IFR)).
In Cutter, the Supreme Court, in rejecting a facial
constitutional attack on the Religious Land Use and
Institutionalized Persons Act, cited Estate of
Thornton v. Caldor, Inc., 472 U.S. 703 (1985), for the
principle that courts “[p]roperly applying [RLUIPA]
must take adequate account of the burdens a
requested accommodation may impose on nonbeneficiaries.” 544 U.S. at 720. The Cutter Court
noted that if inmate requests for religious accommodations “impose[d] unjustified burdens on other
institutionalized persons,” “adjudication in as-applied
challenges would be in order.” Id. at 726. In dissent in
Hobby Lobby, Justice Ginsburg observed that “[n]o
tradition, and no prior decision under RFRA, allows a
religion-based exemption when the accommodation
would be harmful to others—here, the very persons
the contraceptive coverage requirement was designed
to protect.” 134 S. Ct. at 2801 (Ginsburg, J.,
dissenting). The Hobby Lobby majority, in turn, said
that its holding “need not result in any detrimental

107a
effect on any third party,” because “the Government
can readily arrange for other methods of providing
contraceptives, without cost sharing, to employees
who are unable to obtain them under their healthinsurance plans due to their employers’ religious
objections,” including by offering the accommodation.
134 S. Ct. at 2781 n.37 (citing discussion at 2781–82).
The arguments of the Federal Defendants, and
especially the Little Sisters, thus raise questions that
the Supreme Court did not reach in Hobby Lobby,
Zubik, or Wheaton College. There is substantial
debate among commentators as to how to assess the
legality of accommodations not mandated by RFRA
when those accommodations impose harms on third
parties, given the statute’s directive that it does not
preclude accommodations allowed by the Establishment Clause. Compare Frederick Mark Gedicks &
Rebecca G. Van Tassell, RFRA Exemptions from the
Contraception Mandate: An Unconstitutional Accommodation of Religion, 49 Harv. C.R.-C.L. L. Rev. 343
(2014) with Carl H. Esbeck, Do Discretionary
Religious Exemptions Violate the Establishment
Clause?, 106 Ky. L.J. 603 (2018). Understandably,
given the large number of substantive and procedural
issues that must be addressed at the preliminary
injunction stage, the parties have provided relatively
brief arguments on this central question of law. See
Mot. At 14–15; Federal Opp. at 20–23; Little Sisters
Opp. at 17–19.
In light of the discussion in Hobby Lobby and
Cutter regarding the requirement that a court
consider harm to third parties when evaluating an
accommodation claim under RFRA, the Court
concludes under Alliance that serious questions going

108a
to the merits have been raised by the Plaintiffs as to
their APA claim that the Religious Exemption is
contrary to law. The Alliance standard recognizes
that the “district court at the preliminary injunction
stage is in a much better position to predict the
likelihood of harm than the likelihood of success.”
Leiva-Perez v. Holder, 640 F.3d 962, 968 (9th Cir.
2011) (quoting Alliance for the Wild Rockies, 632 F.3d
at 1139 (Mosman, J., concurring)). As the Ninth
Circuit explained in a pre-Alliance case applying the
standard, “‘serious questions’ refers to questions
which cannot be resolved one way or the other at the
hearing on the injunction and as to which the court
perceives a need to preserve the status quo lest one
side prevent resolution of the questions or execution
of any judgment by altering the status quo.” Republic
of the Philippines v. Marcos, 862 F.2d 1355, 1362 (9th
Cir. 1988). “Serious questions are ‘substantial,
difficult and doubtful, as to make them a fair ground
for litigation and thus for more deliberative
investigation.’” Id. (quoting Hamilton Watch Co. v.
Benrus Watch Co., 206 F.2d 738, 740 (2d Cir. 1952)
(Frank, J.)). Under these circumstances, the Court
finds that this case involves just such substantial and
difficult questions.
This is especially true given the Federal
Defendants’ complete reversal on the key question of
whether the government has a compelling interest in
providing seamless and cost-free contraceptive
coverage to women under the ACA. The Hobby Lobby
majority assumed, without deciding, that “the
interest in guaranteeing cost-free access to the four
challenged contraceptive methods is compelling
within the meaning of RFRA.” 134 S. Ct. at 2780.

109a
Justice Kennedy concurred, stating that it was
“important to confirm that a premise of the Court’s
opinion is its assumption that the HHS regulation
here at issue furthers a legitimate and compelling
interest in the health of female employees.” Id. at
2786 (Kennedy, J., concurring). Until the reversal
that led to the IFRs and Final Rules, the agencies
agreed that this interest was compelling. See
Supplemental Brief for Respondents at 1, Zubik v.
Burwell, 136 S. Ct. 1557 (2016) (No. 14-1418), 2016
WL 1445915, at *1 (explaining that rules in existence
in April 2016 “further[ed] the compelling interest in
ensuring that women covered by every type of health
plan receive full and equal health coverage, including
contraceptive coverage”).
The Court believes Plaintiffs are likely correct
that “the Rules provide no new facts and no
meaningful discussion that would discredit their prior
factual findings establishing the beneficial and
essential nature of contraceptive healthcare for
women,” Reply at 11. Instead, the Final Rules on this
point rest, at bottom, on new legal assertions by the
agencies. See, e.g., 83 Fed. Reg. at 57,547 (“[T]he
Departments now believe the administrative record
on which the Mandate rested was—and remains—
insufficient to meet the high threshold to establish a
compelling governmental interest in ensuring that
women covered by plans of objecting organizations
receive cost-free coverage through those plans.”).
Given the “serious reliance interests” of women who
would lose coverage to which they are statutorily
entitled if the Final Rules go into effect, the Court
believes that Plaintiffs are also likely to prevail on
their claim that the agencies failed to provide “a

110a
reasoned explanation . . . for disregarding facts and
circumstances that underlay or were engendered by
the prior policy.” FCC v. Fox Television Stations, Inc.,
556 U.S. 502, 515–16 (2009). As this case proceeds to
a merits determination, the Court will have to
determine how to develop the relevant record
regarding the compelling interest question. And the
parties’ positions on the legal issues described above
will need to be laid out in substantially greater detail
for the Court to sufficiently address the merits of this
claim on a full record in the next stages of the case.
2.

Plaintiffs are likely to succeed in
showing that the Moral Exemption is “not in accordance with”
the ACA, and thus violates the
APA.

Further, Plaintiffs are likely to succeed in their
argument that the Moral Exemption is not in
accordance with the ACA. In contrast to the Religious
Exemption, there is no dispute that the Moral
Exemption implicates neither RFRA nor the Religion
Clauses of the Constitution. Despite this, Intervenor
March for Life’s brief focuses primarily on defending
the Religious Exemption, to which March for Life is
not entitled. See March for Life Opp. at 3–4
(acknowledging that March for Life is a “pro-life, nonreligious entit[y]”; compare March for Life Opp. at 6
(“RFRA requires the religious exemption”), 10 (“[T]he
Final Rules are an entirely permissible accommodation of religion, which as a general matter does not
violate the Establishment Clause.”), 10 (“[T]he Final
Rules do not compel women to participate in the
religious beliefs of their employers, but rather merely
ensure that a religious employer will not be

111a
conscripted to provide what his or her conscience will
not permit.”). The main purpose of the March for Life
brief appears to be to establish that the Religious
Exemption could not possibly run afoul of the
Establishment Clause because the Moral Exemption
exists. See id. at 9 (“[T]he Final Rules protect both
religious . . . and non-religious . . . actors, thereby
dispelling any argument that the federal government
intended to advance religious interests.”).
Whatever complexities may exist with regard to
the Religious Exemption, as discussed above, they do
not apply to the Moral Exemption. Congress
mandated the coverage that is the subject matter of
this dispute, and rejected a “conscience amendment”
that would exempt entities like March for Life from
this generally-applicable statutory requirement. The
Final Rules note that “[o]ver many decades, Congress
has protected conscientious objections including
based on moral convictions in the context of health
care and human services, and including health
coverage, even as it has sought to promote access to
health services.” 83 Fed. Reg. at 57,594. But that
highlights the problem: here, it was the agencies, not
Congress, that implemented the Moral Exemption,
and it is inconsistent with the language and purpose
of the statute it purports to interpret. The Court finds
that Plaintiffs are likely to prevail on their claim that
the Moral Exemption is contrary to the ACA, and thus
unlawful under the APA. Again, the Court does not
dispute the sincerity, or minimize the substance, of
March for Life’s moral objection.

112a
3.

Plaintiffs are likely to suffer
irreparable harm unless the
Court enjoins the Final Rules.

The Court finds that the Plaintiffs are likely to
suffer irreparable harm unless the Final Rules are
enjoined to maintain the status quo pending
resolution of the case on the merits. In its order
remanding this case, the Ninth Circuit found that “it
is reasonably probable that the states will suffer
economic harm from the IFRs.” California, 911 F.3d
at 581; see also id. at 571 (“The states show, with
reasonable probability, that the IFRs will first lead to
women losing employer-sponsored contraceptive
coverage, which will then result in economic harm to
the states.”). As the Ninth Circuit explained,
economic harm is not recoverable for a violation of the
APA. See id. at 581 (citing 5 U.S.C. § 702 (permitting
“relief other than money damages”)); see also Haines
v. Fed. Motor Carrier Safety Admin., 814 F.3d 417,
426 (6th Cir. 2016) (federal courts do not have
jurisdiction to adjudicate suits seeking monetary
damages under the APA).15
The States have equally shown a likelihood of
irreparable injury from the Final Rules. The Final
Rules themselves estimate that tens of thousands of
women nationwide will lose contraceptive coverage,
and suggest that these women may be able to obtain
substitute services at Title X family-planning clinics.
See 83 Fed. Reg. at 57,551 n.26 (up to 126,400 women
nationwide will lose coverage as result of Religious
The Federal Defendants contend the Ninth Circuit’s
“conclusion was in error,” Federal Opp. at 24, presumably to
preserve their argument for the record.
15

113a
Exemption); id. at 57,551 (suggesting Title X familyplanning clinics as alternative to insurer-provided
contraceptives). The States have submitted substantial evidence documenting the fiscal harm that
will flow to them as a result of the Final Rules. See,
e.g., Cantwell Decl., Dkt. No. 174-4 ¶¶ 16–18 (Final
Rules will result in more women becoming eligible for
California’s Family Planning, Access, Care, and
Treatment program, meaning that “state dollars may
be diverted to provide” contraceptive coverage);
Tobias Decl., Dkt. No. 174-33 ¶ 5 (exemptions in Final
Rules “will result in more women receiving” New York
Family Planning Program services, thus putting
program at “risk [of] being overwhelmed by the
increase in patients”); Rattay Decl., Dkt. No. 174-30 ¶
7 (Final Rules “will contribute to an increase in
Delaware’s nationally high unintended pregnancy
rate as women forego needed contraception and other
services”); Moracco Decl., Dkt. No. 174-23 ¶ 5 (State
of Minnesota “may bear a financial risk when women
lose contraceptive coverage” because state is obligated
to pay for child delivery and newborn care for children
born to low-income mothers). Thus, Plaintiffs have
satisfied the irreparable harm prong of the inquiry.
4.

The balance of the equities tips
sharply in Plaintiffs’ favor, and
the public interest favors granting preliminary injunctive relief
to preserve the status quo
pending resolution of the merits.

Plaintiffs also prevail on the balance of equities
and public interest analyses. When the government is
a party to a case in which a preliminary injunction is
sought, the balance of the equities and public interest

114a
factors merge. Drakes Bay Oyster Co. v. Jewell, 747
F.3d 1073, 1092 (9th Cir. 2014). Broadly speaking,
there are two interests at stake in that balance: the
interest in ensuring that health plans cover contraceptive services with no cost-sharing, as provided for
under the ACA, and the interest in protecting “the
sincerely held religious [and moral] objections of
certain entities and individuals.” See 83 Fed. Reg. at
57,537; see also 83 Fed. Reg. at 57,593.
With these interests in mind, the Court concludes
that the balance of equities tips sharply in Plaintiffs’
favor. As the Court found previously, Plaintiffs face
potentially dire public health and fiscal consequences
from the implementation of the Final Rules. Plaintiffs
point out that under the Final Rules, contraceptive
coverage for employees and beneficiaries in existing
health plans could be dropped with 60 days’ notice
that the employer is revoking its use of the accommodation process, or when a new plan year begins.
See Mot. at 20. These changes likely will increase the
Plaintiffs’ costs of providing contraceptive care to
their residents. See Declaration of Phuong H. Nguyen,
Dkt. No. 174-26 ¶¶ 11–15 (Final Rules likely to
increase demand for no- and low-cost contraception
services funded by State of California); Declaration of
Jennifer Welch, Dkt. No. 174-35 ¶¶ 10–12 (some
women who lose insurer-provided contraceptive
coverage as result of Final Rules likely to enroll in
State of Illinois’s Medicaid program). Plaintiffs
persuasively submit that the suggestion in the Final
Rules that women turn to Title X clinics actually will
increase the number of women who will have to be
covered by state programs. Mot. at 23 (citing Cantwell
Decl., Dkt. No. 174-4 ¶¶ 16–18; Tobias Decl., Dkt. No.

115a
174-33 ¶ 5). Moreover, Plaintiffs face substantial
costs stemming from a higher rate of unintended
pregnancies that are likely to occur if women lose
access to the seamless, no-cost contraceptive coverage
afforded under the rules now in place. See AlexanderScott Decl, Dkt. No. 174-7 ¶ 3 (unintended
pregnancies likely to result from Final Rules will
impose costs on State of Rhode Island); Wilson Decl.,
Dkt. No. 174-38 ¶ 5 (unintended pregnancies likely to
result from Final Rules will impose costs on State of
North Carolina). In essence, for many thousands of
women in the Plaintiff States, the mandatory
coverage structure now in place under the ACA will
disappear, requiring them to piece together coverage
from Title X clinics or state agencies, or to pay for
such coverage themselves. This reality will cause
substantial, and irreparable, harm to the Plaintiff
States, and their showing compellingly establishes
that the Final Rules do not in practice “ensur[e] that
women covered by petitioners’ health plans ‘receive
full and equal health coverage, including contraceptive coverage.’” Cf. Zubik, 136 S. Ct. at 1560.
On the other hand, maintaining the status quo
that preceded the Final Rules and the 2017 IFRs—in
which eligible entities still would be permitted to
avail themselves of the exemption or the accommodation—does not constitute an equivalent harm to
the Federal Defendants or Intervenors pending
resolution of the merits. The Federal Defendants cite
Maryland v. King, 133 S. Ct. 1, 3 (2012) (Roberts, C.J.,
in chambers), for the premise that “the government
suffers irreparable institutional injury whenever its
laws are set aside by a court.” Federal Opp. at 24. But
Maryland actually held that “any time a State is

116a
enjoined by a court from effectuating statutes enacted
by representatives of its people, it suffers a form of
irreparable injury.” 133 S. Ct. at 3 (citation omitted).
Here, of course, the “representatives of the people”—
the United States Congress—passed the ACA, and
the precise question in this case is whether the
Executive’s attempt to implement the Final Rules is
inconsistent with Congress’s directives.
The Federal Defendants also note—correctly—
that “the government and the public at large have a
substantial interest in protecting religious liberty and
conscience.” Federal Opp. at 24; see also California v.
Azar, 911 F.3d at 582–83 (acknowledging that “free
exercise of religion and conscience is undoubtedly,
fundamentally important,” and recognizing that
“[r]egardless of whether the accommodation violates
RFRA, some employers have sincerely-held religious
and moral objections to the contraceptive coverage
requirement.”). However, it is significant that after
the Court enjoined the IFRs in December 2017, the
Federal Defendants and Intervenors stipulated to a
stay of this case pending resolution of their appeals,
which kept the existing structure, including the
accommodation, in place for a year and delayed
resolution of the merits of the claims. On balance,
because the Court has concluded that Plaintiffs are
likely to show that the Final Rules are not mandated
by RFRA, and that the existing accommodation does
not substantially burden religious exercise, it finds
that maintaining the status quo for the time being,
pending a prompt resolution of the merits of
Plaintiffs’ claims, is warranted based on the record

117a
presented.16 Plaintiffs have shown that the balance of
equities tips sharply in their favor, and that the public
interest favors granting a preliminary injunction.
Because the standard set forth in Winter is met, the
Court grants Plaintiffs’ motion.17
D.

This Preliminary Injunction Enjoins
Enforcement of the Final Rules Only
In the Plaintiff States.

Plaintiffs ask the Court to grant a nationwide
injunction, contending that the Court “cannot simply
draw a line around the plaintiff States and impose an
injunction only as to those States to ensure complete
relief.” Mot. at 25. Federal Defendants and March for
Life respond that even if the Court grants equitable
relief, a nationwide injunction is inappropriate. See
Federal Opp. at 25; March for Life Opp. at 22–24.
“The scope of an injunction is within the broad
discretion of the district court.”
TrafficSchool.com, Inc. v. Edriver Inc., 653 F.3d 820,
829 (9th Cir. 2011). “Crafting a preliminary
Without question, religious and moral objectors similarly
situated to the Little Sisters and March for Life are directly
affected by a preliminary injunction against the implementation
of the Final Rules. The Court notes that these two particular
intervenors, and apparently many others, are subject to court
orders prohibiting the Federal Defendants from enforcing the
mandate or accommodation requirements against them. Those
orders (and any other similar orders) are unaffected by the
injunction entered here. See Little Sisters Opp. at 7 (listing
orders); March for Life Opp. at 4.
17 Because the Court finds that entry of a preliminary injunction
is warranted on the basis discussed above, it need not at this
time consider the additional bases for injunctive relief advanced
by Plaintiffs.
16

118a
injunction is an exercise of discretion and judgment,
often dependent as much on the equities of a given
case as the substance of the legal issues it presents.”
Trump v. Int’l Refugee Assistance Project, 137 S. Ct.
2080, 2087 (2017). A nationwide injunction is proper
when “necessary to give Plaintiffs a full expression of
their rights.” Hawaii v. Trump, 878 F.3d 662, 701 (9th
Cir. 2017), rev’d on other grounds, 138 S. Ct. 2392
(2018).
This is, of course, not the first time the Court has
had to determine the proper geographic scope of a
preliminary injunction in this case. In response to the
Plaintiffs’ challenge to the IFRs, the Court issued a
nationwide injunction. See Dkt. No. 105 at 28–29. On
appeal, the Ninth Circuit held that the nationwide
scope of the injunction was overbroad and an abuse of
discretion. California, 911 F.3d at 585.
In doing so, the Ninth Circuit made clear that
injunctive relief “must be no broader and no narrower
than necessary to redress the injury shown by the
plaintiff states.” Id. The court reasoned that
prohibiting enforcement of the IFRs in the Plaintiff
States only, rather than across the entire country,
“would provide complete relief” because it “would
prevent the economic harm extensively detailed in the
record.” Id. at 584. The court cautioned that “[d]istrict
judges must require a showing of nationwide impact
or sufficient similarity to the plaintiff states to
foreclose litigation in other districts.” Id. And the
Ninth Circuit stressed that “nationwide injunctive
relief may be inappropriate where a regulatory
challenge involves important or difficult questions of
law, which might benefit from development in
different factual contexts and in multiple decisions by

119a
the various courts of appeals.” Id. at *15 (citation
omitted). As discussed at length above, the issues
presented on this motion, much more than the noticeand-comment requirement that was the basis of the
Court’s prior order granting a preliminary injunction,
implicate exactly these types of important and
difficult questions of law.
The Court fully recognizes that limiting the scope
of this injunction to the Plaintiff States means that
women in other states are at risk of losing access to
cost-free contraceptives when the Final Rules take
effect. Plaintiffs also contend that women who reside
in their States may still lose their entitlement to costfree contraceptives because they receive their health
insurance coverage from an employer or family
member located elsewhere. But Plaintiffs provide
little evidence of the effect this will have on their own
States. Cf. Declaration of Dr. Jennifer Childs-Roshak,
Dkt. No. 174-8 ¶ 16 (discussing effect in Massachusetts); Declaration of Robert Pomales, Dkt. No.
174-28 ¶ 9 (same); Mot. at 25 n.24 (California hosts
25,000 students from out-of-state and New York hosts
35,000). Plaintiffs do note that women who live in the
Plaintiff States may live in one state but commute to
another state for work. See Reply at 15 n.17 (noting
high percentage of Maryland, Virginia, Delaware, and
District of Columbia residents who commute to work
in another state).
On the present record, the Court cannot conclude
that the high threshold set by the Ninth Circuit for a
nationwide injunction, in light of the concerns
articulated in the California opinion, has been met.
The Court also finds it significant that a judge in the
District of Massachusetts found in 2018 that the state

120a
lacked standing to proceed as to claims similar to
those here, in an order that has been appealed to the
First Circuit. See Massachusetts v. United States
Dep’t of Health & Human Servs., 301 F. Supp. 3d 248,
250 (D. Mass. 2018). This parallel litigation
highlights the potential direct legal conflicts that
could result were this Court to enter a nationwide
injunction. Accordingly, this preliminary injunction
prohibits the implementation of the Final Rules in the
Plaintiff States only.
//
//
//
//

121a
IV.

CONCLUSION

For the reasons set forth above, Plaintiffs’ motion
for a preliminary injunction is GRANTED, effective
as of the date of this order. A case management
conference is set for January 23, 2019 at 2:00 p.m. At
the case management conference, the parties should
be prepared to discuss a plan for expeditiously
resolving this matter on the merits, whether through
a bench trial, cross-motions for summary judgment,
or other means. The parties shall submit a joint case
management statement by January 18, 2019.
IT IS SO ORDERED.
Dated: 1/13/19

122a
Excerpts from United States Constitution
Article III, § 2
The judicial Power shall extend to all Cases, in Law
and Equity, arising under this Constitution, the Laws
of the United States, . . . [and] to Controversies to
which the United States shall be a Party . . . .

Amendment I
Congress shall make no law respecting an
establishment of religion, or prohibiting the free
exercise thereof . . . .

Amendment V
No person shall . . . be deprived of life, liberty, or
property, without due process of law . . . .

Amendment XIV, § 1
. . . No State shall . . . deny to any person within its
jurisdiction the equal protection of the laws.


123a
Excerpts of 5 U.S.C. 706
Scope of review
To the extent necessary to decision and when
presented, the reviewing court shall decide all
relevant questions of law, interpret constitutional and
statutory provisions, and determine the meaning or
applicability of the terms of an agency action. The
reviewing court shall-*****
(2) hold unlawful and set aside agency action,
findings, and conclusions found to be-(A) arbitrary, capricious, an abuse of
discretion, or otherwise not in accordance
with law;
*****


124a
26 U.S.C. 4980D
Failure to meet certain group health plan
requirements
(a) General rule.--There is hereby imposed a tax on
any failure of a group health plan to meet the
requirements of chapter 100 (relating to group health
plan requirements).
(b) Amount of tax.-(1) In general.--The amount of the tax imposed
by subsection (a) on any failure shall be $100 for
each day in the noncompliance period with
respect to each individual to whom such failure
relates.
(2) Noncompliance period.--For purposes of
this section, the term “noncompliance period”
means, with respect to any failure, the period-(A) beginning on the date such failure first
occurs, and
(B) ending on the date such failure is corrected.
(3) Minimum tax for noncompliance period
where failure discovered after notice of
examination.--Notwithstanding paragraphs (1)
and (2) of subsection (c)-(A) In general.--In the case of 1 or more
failures with respect to an individual-(i) which are not corrected before the date
a notice of examination of income tax
liability is sent to the employer, and

125a
(ii) which occurred or continued during
the period under examination,
the amount of tax imposed by subsection
(a) by reason of such failures with respect
to such individual shall not be less than
the lesser of $2,500 or the amount of tax
which would be imposed by subsection (a)
without regard to such paragraphs.
(B) Higher minimum tax where violations are more than de minimis.--To the
extent violations for which any person is
liable under subsection (e) for any year are
more than de minimis, subparagraph (A)
shall be applied by substituting “$15,000” for
“$2,500” with respect to such person.
(C) Exception for church plans.--This
paragraph shall not apply to any failure
under a church plan (as defined in section
414(e)).
(c) Limitations on amount of tax.-(1) Tax not to apply where failure not discovered exercising reasonable diligence.-No tax shall be imposed by subsection (a) on any
failure during any period for which it is
established to the satisfaction of the Secretary
that the person otherwise liable for such tax did
not know, and exercising reasonable diligence
would not have known, that such failure existed.
(2) Tax not to apply to failures corrected
within certain periods.--No tax shall be
imposed by subsection (a) on any failure if--

126a
(A) such failure was due to reasonable cause
and not to willful neglect, and
(B)(i) in the case of a plan other than a church
plan (as defined in section 414(e)), such
failure is corrected during the 30-day period
beginning on the first date the person
otherwise liable for such tax knew, or
exercising reasonable diligence would have
known, that such failure existed, and
(ii) in the case of a church plan (as so defined),
such failure is corrected before the close of the
correction period (determined under the rules
of section 414(e)(4)(C)).
(3) Overall limitation for unintentional failures.--In the case of failures which are due to
reasonable cause and not to willful neglect-(A) Single employer plans.-(i) In general.--In the case of failures
with respect to plans other than specified
multiple employer health plans, the tax
imposed by subsection (a) for failures
during the taxable year of the employer
shall not exceed the amount equal to the
lesser of-(I) 10 percent of the aggregate
amount paid or incurred by the
employer (or predecessor employer)
during the preceding taxable year for
group health plans, or
(II) $500,000.

127a
(ii) Taxable years in the case of certain controlled groups.--For purposes
of this subparagraph, if not all persons
who are treated as a single employer for
purposes of this section have the same
taxable year, the taxable years taken into
account shall be determined under
principles similar to the principles of
section 1561.
(B) Specified multiple employer health
plans.-(i) In general.--In the case of failures
with respect to a specified multiple
employer health plan, the tax imposed by
subsection (a) for failures during the
taxable year of the trust forming part of
such plan shall not exceed the amount
equal to the lesser of-(I) 10 percent of the amount paid or
incurred by such trust during such
taxable year to provide medical care
(as defined in section 9832(d)(3))
directly or through insurance, reimbursement, or otherwise, or
(II) $500,000.
For purposes of the preceding
sentence, all plans of which the
same trust forms a part shall be
treated as one plan.
(ii) Special rule for employers required to pay tax.--If an employer is
assessed a tax imposed by subsection (a)

128a
by reason of a failure with respect to a
specified multiple employer health plan,
the limit shall be determined under
subparagraph (A) (and not under this
subparagraph) and as if such plan were
not a specified multiple employer health
plan.
(4) Waiver by Secretary.--In the case of a
failure which is due to reasonable cause and not
to willful neglect, the Secretary may waive part or
all of the tax imposed by subsection (a) to the
extent that the payment of such tax would be
excessive relative to the failure involved.
(d) Tax not to apply to certain insured small
employer plans.-(1) In general.--In the case of a group health
plan of a small employer which provides health
insurance coverage solely through a contract with
a health insurance issuer, no tax shall be imposed
by this section on the employer on any failure
(other than a failure attributable to section 9811)
which is solely because of the health insurance
coverage offered by such issuer.
(2) Small employer.-(A) In general.--For purposes of paragraph
(1), the term “small employer” means, with
respect to a calendar year and a plan year, an
employer who employed an average of at least
2 but not more than 50 employees on business
days during the preceding calendar year and
who employs at least 2 employees on the first
day of the plan year. For purposes of the

129a
preceding sentence, all persons treated as a
single employer under subsection (b), (c), (m),
or (o) of section 414 shall be treated as one
employer.
(B) Employers not in existence in
preceding year.--In the case of an employer
which was not in existence throughout the
preceding calendar year, the determination of
whether such employer is a small employer
shall be based on the average number of
employees that it is reasonably expected such
employer will employ on business days in the
current calendar year.
(C) Predecessors.--Any reference in this
paragraph to an employer shall include a
reference to any predecessor of such
employer.
(3) Health insurance coverage; health insurance issuer.--For purposes of paragraph (1),
the terms “health insurance coverage” and
“health insurance issuer” have the respective
meanings given such terms by section 9832.
(e) Liability for tax.--The following shall be liable
for the tax imposed by subsection (a) on a failure:
(1) Except as otherwise
subsection, the employer.

provided

in

this

(2) In the case of a multiemployer plan, the plan.
(3) In the case of a failure under section 9803
(relating to guaranteed renewability) with respect
to a plan described in subsection (f)(2)(B), the
plan.

130a
(f) Definitions.--For purposes of this section-(1) Group health plan.--The term “group health
plan” has the meaning given such term by section
9832(a).
(2) Specified multiple employer health plan.
--The term “specified multiple employer health
plan” means a group health plan which is-(A) any multiemployer plan, or
(B) any multiple employer welfare arrangement (as defined in section 3(40) of the
Employee Retirement Income Security Act of
1974, as in effect on the date of the enactment
of this section).
(3) Correction.--A failure of a group health plan
shall be treated as corrected if-(A) such failure is retroactively undone to the
extent possible, and
(B) the person to whom the failure relates is
placed in a financial position which is as good
as such person would have been in had such
failure not occurred.

131a
26 U.S.C. 4980H
Shared responsibility for employers regarding
health coverage
(a) Large employers not offering health coverage.--If-(1) any applicable large employer fails to offer to
its full-time employees (and their dependents) the
opportunity to enroll in minimum essential
coverage under an eligible employer-sponsored
plan (as defined in section 5000A(f)(2)) for any
month, and
(2) at least one full-time employee of the
applicable large employer has been certified to the
employer under section 1411 of the Patient
Protection and Affordable Care Act as having
enrolled for such month in a qualified health plan
with respect to which an applicable premium tax
credit or cost-sharing reduction is allowed or paid
with respect to the employee,
then there is hereby imposed on the employer an
assessable payment equal to the product of the
applicable payment amount and the number of
individuals employed by the employer as full-time
employees during such month.
(b) Large employers offering coverage with
employees who qualify for premium tax credits
or cost-sharing reductions.-(1) In general.--If-(A) an applicable large employer offers to its
full-time employees (and their dependents)
the opportunity to enroll in minimum

132a
essential coverage under an eligible
employer-sponsored plan (as defined in
section 5000A(f)(2)) for any month, and
(B) 1 or more full-time employees of the
applicable large employer has been certified
to the employer under section 1411 of the
Patient Protection and Affordable Care Act as
having enrolled for such month in a qualified
health plan with respect to which an
applicable premium tax credit or cost-sharing
reduction is allowed or paid with respect to
the employee,
then there is hereby imposed on the employer
an assessable payment equal to the product of
the number of full-time employees of the
applicable large employer described in
subparagraph (B) for such month and an
amount equal to 1/12 of $3,000.
(2) Overall limitation.--The aggregate amount
of tax determined under paragraph (1) with
respect to all employees of an applicable large
employer for any month shall not exceed the
product of the applicable payment amount and
the number of individuals employed by the
employer as full-time employees during such
month.
[(3) Repealed. Pub.L. 112-10, Div. B, Title VIII,
§ 1858(b)(4), Apr. 15, 2011, 125 Stat. 169]
(c) Definitions and special rules.--For purposes of
this section--

133a
(1) Applicable payment amount.--The term
“applicable payment amount” means, with
respect to any month, 1/12 of $2,000.
(2) Applicable large employer.-(A) In general.--The term “applicable large
employer” means, with respect to a calendar
year, an employer who employed an average
of at least 50 full-time employees on business
days during the preceding calendar year.
(B) Exemption for certain employers.-(i) In general.--An employer shall not be
considered to employ more than 50 fulltime employees if-(I) the employer’s workforce exceeds
50 full-time employees for 120 days or
fewer during the calendar year, and
(II) the employees in excess of 50 employed during such 120-day period
were seasonal workers.
(ii) Definition of seasonal workers.-The term “seasonal worker” means a
worker who performs labor or services on
a seasonal basis as defined by the
Secretary of Labor, including workers
covered by section 500.20(s)(1) of title 29,
Code of Federal Regulations and retail
workers employed exclusively during
holiday seasons.
(C) Rules for determining employer size.
--For purposes of this paragraph--

134a
(i) Application of aggregation rule for
employers.--All persons treated as a
single employer under subsection (b), (c),
(m), or (o) of section 414 of the Internal
Revenue Code of 1986 shall be treated as
1 employer.
(ii) Employers not in existence in preceding year.--In the case of an employer
which was not in existence throughout the
preceding calendar year, the determination of whether such employer is an
applicable large employer shall be based
on the average number of employees that
it is reasonably expected such employer
will employ on business days in the
current calendar year.
(iii) Predecessors.--Any reference in
this subsection to an employer shall
include a reference to any predecessor of
such employer.
(D) Application of employer size to
assessable penalties.-(i) In general.--The number of
individuals employed by an applicable
large employer as full-time employees
during any month shall be reduced by 30
solely for purposes of calculating-(I) the assessable payment under subsection (a), or
(II) the overall limitation under subsection (b)(2).

135a
(ii) Aggregation.--In the case of persons
treated as 1 employer under subparagraph (C)(i), only 1 reduction under
subclause (I) or (II) shall be allowed with
respect to such persons and such
reduction shall be allocated among such
persons ratably on the basis of the
number of full-time employees employed
by each such person.
(E) Full-time equivalents treated as fulltime employees.--Solely for purposes of
determining whether an employer is an
applicable large employer under this paragraph, an employer shall, in addition to the
number of full-time employees for any month
otherwise determined, include for such month
a number of full-time employees determined
by dividing the aggregate number of hours of
service of employees who are not full-time
employees for the month by 120.
(F) Exemption for health coverage under
TRICARE or the Department of Veterans
Affairs.--Solely for purposes of determining
whether an employer is an applicable large
employer under this paragraph for any
month, an individual shall not be taken into
account as an employee for such month if such
individual has medical coverage for such
month under-(i) chapter 55 of title 10, United States
Code, including coverage under the
TRICARE program, or

136a
(ii) under a health care program under
chapter 17 or 18 of title 38, United States
Code, as determined by the Secretary of
Veterans Affairs, in coordination with the
Secretary of Health and Human Services
and the Secretary.
(3) Applicable premium tax credit and costsharing reduction.--The term “applicable
premium tax credit and cost-sharing reduction”
means-(A) any premium tax credit allowed under
section 36B,
(B) any cost-sharing reduction under section
1402 of the Patient Protection and Affordable
Care Act, and
(C) any advance payment of such credit or
reduction under section 1412 of such Act.
(4) Full-time employee.-(A) In general.--The term “full-time employee” means, with respect to any month, an
employee who is employed on average at least
30 hours of service per week.
(B) Hours of service.--The Secretary, in
consultation with the Secretary of Labor,
shall prescribe such regulations, rules, and
guidance as may be necessary to determine
the hours of service of an employee, including
rules for the application of this paragraph to
employees who are not compensated on an
hourly basis.

137a
(5) Inflation adjustment.-(A) In general.--In the case of any calendar
year after 2014, each of the dollar amounts in
subsection (b) and paragraph (1) shall be
increased by an amount equal to the product
of-(i) such dollar amount, and
(ii) the premium adjustment percentage
(as defined in section 1302(c)(4) of the
Patient Protection and Affordable Care
Act) for the calendar year.
(B) Rounding.--If the amount of any increase under subparagraph (A) is not a
multiple of $10, such increase shall be
rounded to the next lowest multiple of $10.
(6) Other definitions.--Any term used in this
section which is also used in the Patient
Protection and Affordable Care Act shall have the
same meaning as when used in such Act.
(7) Tax nondeductible.--For denial of deduction
for the tax imposed by this section, see section
275(a)(6).
(d) Administration and procedure.-(1) In general.--Any assessable payment provided by this section shall be paid upon notice and
demand by the Secretary, and shall be assessed
and collected in the same manner as an assessable penalty under subchapter B of chapter 68.
(2) Time for payment.--The Secretary may provide for the payment of any assessable payment
provided by this section on an annual, monthly, or

138a
other periodic basis as the Secretary may
prescribe.
(3) Coordination with credits, etc.--The Secretary shall prescribe rules, regulations, or
guidance for the repayment of any assessable
payment (including interest) if such payment is
based on the allowance or payment of an applicable premium tax credit or cost-sharing reduction with respect to an employee, such allowance
or payment is subsequently disallowed, and the
assessable payment would not have been required
to be made but for such allowance or payment.

139a
26 U.S.C. 5000A
Requirement to maintain minimum essential
coverage
(a) Requirement to maintain minimum essential coverage.--An applicable individual shall for
each month beginning after 2013 ensure that the
individual, and any dependent of the individual who
is an applicable individual, is covered under
minimum essential coverage for such month.
(b) Shared responsibility payment.-(1) In general.--If a taxpayer who is an applicable individual, or an applicable individual for
whom the taxpayer is liable under paragraph (3),
fails to meet the requirement of subsection (a) for
1 or more months, then, except as provided in
subsection (e), there is hereby imposed on the
taxpayer a penalty with respect to such failures
in the amount determined under subsection (c).
(2) Inclusion with return.--Any penalty imposed by this section with respect to any month
shall be included with a taxpayer’s return under
chapter 1 for the taxable year which includes such
month.
(3) Payment of penalty.--If an individual with
respect to whom a penalty is imposed by this
section for any month-(A) is a dependent (as defined in section 152)
of another taxpayer for the other taxpayer’s
taxable year including such month, such
other taxpayer shall be liable for such
penalty, or

140a
(B) files a joint return for the taxable year
including such month, such individual and the
spouse of such individual shall be jointly liable for
such penalty.
(c) Amount of penalty.-(1) In general.--The amount of the penalty
imposed by this section on any taxpayer for any
taxable year with respect to failures described in
subsection (b)(1) shall be equal to the lesser of-(A) the sum of the monthly penalty amounts
determined under paragraph (2) for months
in the taxable year during which 1 or more
such failures occurred, or
(B) an amount equal to the national average
premium for qualified health plans which
have a bronze level of coverage, provide
coverage for the applicable family size
involved, and are offered through Exchanges
for plan years beginning in the calendar year
with or within which the taxable year ends.
(2) Monthly penalty amounts.--For purposes of
paragraph (1)(A), the monthly penalty amount
with respect to any taxpayer for any month
during which any failure described in subsection
(b)(1) occurred is an amount equal to 1/12 of the
greater of the following amounts:
(A) Flat dollar amount.--An amount equal
to the lesser of-(i) the sum of the applicable dollar
amounts for all individuals with respect

141a
to whom such failure occurred during
such month, or
(ii) 300 percent of the applicable dollar
amount (determined without regard to
paragraph (3)(C)) for the calendar year
with or within which the taxable year
ends.
(B) Percentage of income.--An amount
equal to the following percentage of the excess
of the taxpayer’s household income for the
taxable year over the amount of gross income
specified in section 6012(a)(1) with respect to
the taxpayer for the taxable year:
(i) 1.0 percent for taxable years beginning
in 2014.
(ii) 2.0 percent
beginning in 2015.

for

taxable

years

(iii) Zero percent for taxable years
beginning after 2015.
(3) Applicable dollar amount.--For purposes of
paragraph (1)-(A) In general.--Except as provided in subparagraphs (B) and (C), the applicable dollar
amount is $0.
(B) Phase in.--The applicable dollar amount
is $95 for 2014 and $325 for 2015.
(C) Special rule for individuals under
age 18.--If an applicable individual has not
attained the age of 18 as of the beginning of a
month, the applicable dollar amount with
respect to such individual for the month shall

142a
be equal to one-half of the applicable dollar
amount for the calendar year in which the
month occurs.
[(D) Repealed. Pub.L. 115-97, Title I, §
11081(a)(2)(B), Dec. 22, 2017, 131 Stat. 2092]
(4) Terms relating to income and families.-For purposes of this section-(A) Family size.--The family size involved
with respect to any taxpayer shall be equal to
the number of individuals for whom the
taxpayer is allowed a deduction under section
151 (relating to allowance of deduction for
personal exemptions) for the taxable year.
(B) Household income.--The term “household income” means, with respect to any
taxpayer for any taxable year, an amount
equal to the sum of-(i) the modified adjusted gross income of
the taxpayer, plus
(ii) the aggregate modified adjusted gross
incomes of all other individuals who-(I) were taken into account in
determining the taxpayer’s family
size under paragraph (1), and
(II) were required to file a return of
tax imposed by section 1 for the
taxable year.
(C) Modified adjusted gross income.--The
term “modified adjusted gross income” means
adjusted gross income increased by--

143a
(i) any amount excluded from gross
income under section 911, and
(ii) any amount of interest received or
accrued by the taxpayer during the
taxable year which is exempt from tax.
[(D) Repealed. Pub.L. 111-152, Title I, §
1002(b)(1), Mar. 30, 2010, 124 Stat. 1032]
(d) Applicable individual.--For purposes of this
section-(1) In general.--The term “applicable individual”
means, with respect to any month, an individual
other than an individual described in paragraph
(2), (3), or (4).
(2) Religious exemptions.-(A) Religious conscience exemptions.-(i) In general.--Such term shall not
include any individual for any month if
such individual has in effect an exemption
under section 1311(d)(4)(H) of the Patient
Protection and Affordable Care Act which
certifies that-(I) such individual is a member of a
recognized religious sect or division
thereof which is described in section
1402(g)(1), and is adherent of established tenets or teachings of such sect
or division as described in such
section; or
(II) such individual is a member of a
religious sect or division thereof
which is not described in section

144a
1402(g)(1), who relies solely on a
religious method of healing, and for
whom the acceptance of medical
health services would be inconsistent
with the religious beliefs of the
individual.
(ii) Special rules.-(I) Medical health services defined.--For purposes of this subparagraph, the term “medical health
services” does not include routine
dental, vision and hearing services,
midwifery services, vaccinations, necessary medical services provided to
children, services required by law or
by a third party, and such other
services as the Secretary of Health
and Human Services may provide in
implementing section 1311(d)(4)(H) of
the Patient Protection and Affordable
Care Act.
(II) Attestation required.--Clause
(i)(II) shall apply to an individual for
months in a taxable year only if the
information provided by the individual under section 1411(b)(5)(A) of
such Act includes an attestation that
the individual has not received
medical health services during the
preceding taxable year.

145a
(B) Health care sharing ministry.-(i) In general.--Such term shall not
include any individual for any month if
such individual is a member of a health
care sharing ministry for the month.
(ii) Health care sharing ministry.-The term “health care sharing ministry”
means an organization-(I) which is described in section
501(c)(3) and is exempt from taxation
under section 501(a),
(II) members of which share a
common set of ethical or religious
beliefs and share medical expenses
among members in accordance with
those beliefs and without regard to
the State in which a member resides
or is employed,
(III) members of which retain membership even after they develop a
medical condition,
(IV) which (or a predecessor of which)
has been in existence at all times
since December 31, 1999, and medical
expenses of its members have been
shared continuously and without
interruption since at least December
31, 1999, and
(V) which conducts an annual audit
which is performed by an independent
certified public accounting firm in

146a
accordance with generally accepted
accounting principles and which is
made available to the public upon
request.
(3) Individuals not lawfully present.--Such
term shall not include an individual for any
month if for the month the individual is not a
citizen or national of the United States or an alien
lawfully present in the United States.
(4) Incarcerated individuals.--Such term shall
not include an individual for any month if for the
month the individual is incarcerated, other than
incarceration pending the disposition of charges.
(e) Exemptions.--No penalty shall be imposed under
subsection (a) with respect to-(1) Individuals who cannot afford coverage.
-(A) In general.--Any applicable individual
for any month if the applicable individual’s
required contribution (determined on an
annual basis) for coverage for the month
exceeds 8 percent of such individual’s household income for the taxable year described in
section 1412(b)(1)(B) of the Patient Protection
and Affordable Care Act. For purposes of
applying this subparagraph, the taxpayer’s
household income shall be increased by any
exclusion from gross income for any portion of
the required contribution made through a
salary reduction arrangement.

147a
(B) Required contribution.--For purposes
of this paragraph, the term “required
contribution” means-(i) in the case of an individual eligible to
purchase minimum essential coverage
consisting of coverage through an eligibleemployer-sponsored plan, the portion of
the annual premium which would be paid
by the individual (without regard to
whether paid through salary reduction or
otherwise) for self-only coverage, or
(ii) in the case of an individual eligible
only to purchase minimum essential
coverage described in subsection (f)(1)(C),
the annual premium for the lowest cost
bronze plan available in the individual
market through the Exchange in the
State in the rating area in which the
individual resides (without regard to
whether the individual purchased a
qualified health plan through the
Exchange), reduced by the amount of the
credit allowable under section 36B for the
taxable year (determined as if the
individual was covered by a qualified
health plan offered through the Exchange
for the entire taxable year).
(C) Special rules for individuals related
to employees.--For purposes of subparagraph (B)(i), if an applicable individual is
eligible for minimum essential coverage
through an employer by reason of a relationship to an employee, the determination under

148a
subparagraph (A) shall be made by reference
to1 required contribution of the employee.
(D) Indexing.--In the case of plan years
beginning in any calendar year after 2014,
subparagraph (A) shall be applied by
substituting for “8 percent” the percentage
the Secretary of Health and Human Services
determines reflects the excess of the rate of
premium growth between the preceding
calendar year and 2013 over the rate of
income growth for such period.
(2) Taxpayers with income below filing
threshold.--Any applicable individual for any
month during a calendar year if the individual’s
household income for the taxable year described
in section 1412(b)(1)(B) of the Patient Protection
and Affordable Care Act is less than the amount
of gross income specified in section 6012(a)(1)
with respect to the taxpayer.
(3) Members of Indian tribes.--Any applicable
individual for any month during which the individual is a member of an Indian tribe (as defined
in section 45A(c)(6)).
(4) Months during short coverage gaps.-(A) In general.--Any month the last day of
which occurred during a period in which the
applicable individual was not covered by
minimum essential coverage for a continuous
period of less than 3 months.
(B) Special rules.--For purposes of applying
this paragraph--

149a
(i) the length of a continuous period shall
be determined without regard to the
calendar years in which months in such
period occur,
(ii) if a continuous period is greater than
the period allowed under subparagraph
(A), no exception shall be provided under
this paragraph for any month in the
period, and
(iii) if there is more than 1 continuous
period described in subparagraph (A)
covering months in a calendar year, the
exception provided by this paragraph
shall only apply to months in the first of
such periods.
The Secretary shall prescribe rules for
the collection of the penalty imposed
by this section in cases where continuous periods include months in more
than 1 taxable year.
(5) Hardships.--Any applicable individual who
for any month is determined by the Secretary of
Health and Human Services under section
1311(d)(4)(H) to have suffered a hardship with
respect to the capability to obtain coverage under
a qualified health plan.
(f) Minimum essential coverage.--For purposes of
this section-(1) In general.--The term “minimum essential
coverage” means any of the following:

150a
(A) Government sponsored programs.-Coverage under-(i) the Medicare program under part A of
title XVIII of the Social Security Act,
(ii) the Medicaid program under title XIX
of the Social Security Act,
(iii) the CHIP program under title XXI of
the Social Security Act or under a
qualified CHIP look-alike program (as
defined in section 2107(g) of the Social
Security Act),
(iv) medical coverage under chapter 55 of
title 10, United States Code, including
coverage under the TRICARE program;
(v) a health care program under chapter
17 or 18 of title 38, United States Code, as
determined by the Secretary of Veterans
Affairs, in coordination with the Secretary of Health and Human Services and
the Secretary,
(vi) a health plan under section 2504(e) of
title 22, United States Code (relating to
Peace Corps volunteers); or
(vii) the Nonappropriated Fund Health
Benefits Program of the Department of
Defense, established under section 349 of
the National Defense Authorization Act
for Fiscal Year 1995 (Public Law 103-337;
10 U.S.C. 1587 note).
(B) Employer-sponsored plan.--Coverage
under an eligible employer-sponsored plan.

151a
(C) Plans in the individual market.-Coverage under a health plan offered in the
individual market within a State.
(D) Grandfathered health plan.--Coverage
under a grandfathered health plan.
(E) Other coverage.--Such other health
benefits coverage, such as a State health
benefits risk pool, as the Secretary of Health
and Human Services, in coordination with the
Secretary, recognizes for purposes of this
subsection.
(2) Eligible employer-sponsored plan.--The
term “eligible employer-sponsored plan” means,
with respect to any employee, a group health plan
or group health insurance coverage offered by an
employer to the employee which is-(A) a governmental plan (within the meaning
of section 2791(d)(8) of the Public Health
Service Act), or
(B) any other plan or coverage offered in the
small or large group market within a State.
Such term shall include a grandfathered
health plan described in paragraph (1)(D)
offered in a group market.
(3) Excepted benefits not treated as minimum
essential
coverage.--The
term
“minimum essential coverage” shall not include
health insurance coverage which consists of
coverage of excepted benefits--

152a
(A) described in paragraph (1) of subsection
(c) of section 2791 of the Public Health Service
Act; or
(B) described in paragraph (2), (3), or (4) of
such subsection if the benefits are provided
under a separate policy, certificate, or contract of insurance.
(4) Individuals residing outside United
States or residents of territories.--Any applicable individual shall be treated as having
minimum essential coverage for any month-(A) if such month occurs during any period
described in subparagraph (A) or (B) of
section 911(d)(1) which is applicable to the
individual, or
(B) if such individual is a bona fide resident
of any possession of the United States (as
determined under section 937(a)) for such
month.
(5) Insurance-related terms.--Any term used
in this section which is also used in title I of the
Patient Protection and Affordable Care Act shall
have the same meaning as when used in such
title.
(g) Administration and procedure.-(1) In general.--The penalty provided by this
section shall be paid upon notice and demand by
the Secretary, and except as provided in
paragraph (2), shall be assessed and collected in
the same manner as an assessable penalty under
subchapter B of chapter 68.

153a
(2) Special rules.--Notwithstanding any
other provision of law-(A) Waiver of criminal penalties.--In
the case of any failure by a taxpayer to
timely pay any penalty imposed by this
section, such taxpayer shall not be subject
to any criminal prosecution or penalty
with respect to such failure.
(B) Limitations on liens and levies.-The Secretary shall not-(i) file notice of lien with respect to
any property of a taxpayer by reason
of any failure to pay the penalty
imposed by this section, or
(ii) levy on any such property with
respect to such failure.
1

So in original. Probably should be followed by “the”.

154a
42 U.S.C. 300gg-13(a)
Coverage of preventative health services
(a) In general
A group health plan and a health insurance issuer
offering group or individual health insurance coverage shall, at a minimum provide coverage for and
shall not impose any cost sharing requirements for-(1) evidence-based items or services that have in
effect a rating of “A” or “B” in the current
recommendations of the United States Preventive
Services Task Force;
(2) immunizations that have in effect a
recommendation from the Advisory Committee on
Immunization Practices of the Centers for
Disease Control and Prevention with respect to
the individual involved; and1
(3) with respect to infants, children, and
adolescents, evidence-informed preventive care
and screenings provided for in the comprehensive
guidelines supported by the Health Resources
and Services Administration.
(4) with respect to women, such additional
preventive care and screenings not described in
paragraph (1) as provided for in comprehensive
guidelines supported by the Health Resources
and Services Administration for purposes of this
paragraph.
(5) for the purposes of this chapter, and for the
purposes of any other provision of law, the current
recommendations of the United States Preventive
Service Task Force regarding breast cancer

155a
screening, mammography, and prevention shall
be considered the most current other than those
issued in or around November 2009.
Nothing in this subsection shall be construed to
prohibit a plan or issuer from providing coverage for
services in addition to those recommended by United
States Preventive Services Task Force or to deny
coverage for services that are not recommended by
such Task Force.
(b) Interval
(1) In general
The Secretary shall establish a minimum interval
between the date on which a recommendation
described in subsection (a)(1) or (a)(2) or a
guideline under subsection (a)(3) is issued and the
plan year with respect to which the requirement
described in subsection (a) is effective with
respect to the service described in such
recommendation or guideline.
(2) Minimum
The interval described in paragraph (1) shall not
be less than 1 year.
(c) Value-based insurance design
The Secretary may develop guidelines to permit a
group health plan and a health insurance issuer
offering group or individual health insurance
coverage to utilize value-based insurance designs.
1

So in original. The word “and” probably should not appear.

156a
42 U.S.C. 2000bb-1
Free exercise of religion protected
(a) In general
Government shall not substantially burden a person’s
exercise of religion even if the burden results from a
rule of general applicability, except as provided in
subsection (b).
(b) Exception
Government may substantially burden a person’s
exercise of religion only if it demonstrates that
application of the burden to the person-(1) is in furtherance of a compelling governmental
interest; and
(2) is the least restrictive means of furthering
that compelling governmental interest.
(c) Judicial relief
A person whose religious exercise has been burdened
in violation of this section may assert that violation
as a claim or defense in a judicial proceeding and
obtain appropriate relief against a government.
Standing to assert a claim or defense under this
section shall be governed by the general rules of
standing under article III of the Constitution.


157a
Excerpt of 42 U.S.C. 2000bb-2
Definitions
As used in this chapter-(1) the term “government” includes a branch,
department, agency, instrumentality, and official
(or other person acting under color of law) of the
United States, or of a covered entity;
*****

Excerpt of 42 U.S.C. 2000bb-3
Applicability
(a) In general
This chapter applies to all Federal law, and the
implementation of that law, whether statutory or
otherwise, and whether adopted before or after
November 16, 1993.
*****


158a
Excerpt of 45 C.F.R. 147.131 (2013)
Exemption and accommodations in connection
with coverage of preventive health services.
(a) Religious employers. In issuing guidelines
under §147.130(a)(1)(iv), the Health Resources and
Services Administration may establish an exemption
from such guidelines with respect to a group health
plan established or maintained by a religious
employer (and health insurance coverage provided in
connection with a group health plan established or
maintained by a religious employer) with respect to
any requirement to cover contraceptive services
under such guidelines. For purposes of this paragraph
(a), a ‘‘religious employer’’ is an organization that is
organized and operates as a nonprofit entity and is
referred to in section 6033(a)(3)(A)(i) or (iii) of the
Internal Revenue Code of 1986, as amended.
*****


159a
45 C.F.R. 147.131
Accommodations in connection with coverage
of certain preventive health services.
(a)–(b) [Reserved]
(c) Eligible organizations for optional accommodation.
An eligible organization is an organization that meets
the criteria of paragraphs (c)(1) through (3) of this
section.
(1) The organization is an objecting entity
described in § 147.132(a)(1)(i) or (ii), or 45 CFR
147.133(a)(1)(i) or (ii).
(2) Notwithstanding its exempt status under §
147.132(a) or 147.133, the organization voluntarily seeks to be considered an eligible organization to invoke the optional accommodation under
paragraph (d) of this section; and
(3) The organization self-certifies in the form and
manner specified by the Secretary or provides
notice to the Secretary as described in paragraph
(d) of this section. To qualify as an eligible
organization, the organization must make such
self-certification or notice available for examination upon request by the first day of the first
plan year to which the accommodation in
paragraph (d) of this section applies. The selfcertification or notice must be executed by a
person authorized to make the certification or
provide the notice on behalf of the organization,
and must be maintained in a manner consistent
with the record retention requirements under
section 107 of ERISA.

160a
(4) An eligible organization may revoke its use of
the accommodation process, and its issuer must
provide participants and beneficiaries written
notice of such revocation, as specified herein.
(i) Transitional rule—If contraceptive coverage is
being offered on January 14, 2019, by an issuer
through the accommodation process, an eligible
organization may give 60–days notice pursuant to
section 2715(d)(4) of the PHS Act and §
147.200(b), if applicable, to revoke its use of the
accommodation process (to allow for the provision
of notice to plan participants in cases where
contraceptive benefits will no longer be provided).
Alternatively, such eligible organization may
revoke its use of the accommodation process
effective on the first day of the first plan year that
begins on or after 30 days after the date of the
revocation.
(ii) General rule—In plan years that begin after
January 14, 2019, if contraceptive coverage is
being offered by an issuer through the accommodation process, an eligible organization’s revocation of use of the accommodation process will be
effective no sooner than the first day of the first
plan year that begins on or after 30 days after the
date of the revocation.
(d) Optional accommodation—insured group health
plans—
(1) General rule. A group health plan established
or maintained by an eligible organization that
provides benefits through one or more group
health insurance issuers may voluntarily elect an
optional accommodation under which its health

161a
insurance issuer(s) will provide payments for all
or a subset of contraceptive services for one or
more plan years. To invoke the optional accommodation process:
(i) The eligible organization or its plan must
contract with one or more health insurance
issuers.
(ii) The eligible organization must provide either
a copy of the self-certification to each issuer
providing coverage in connection with the plan or
a notice to the Secretary of the Department of
Health and Human Services that it is an eligible
organization and of its objection as described in
§ 147.132 or 147.133 to coverage for all or a subset
of contraceptive services.
(A) When a self-certification is provided
directly to an issuer, the issuer has sole
responsibility for providing such coverage in
accordance with § 147.130(a)(iv).
(B) When a notice is provided to the Secretary
of the Department of Health and Human
Services, the notice must include the name of
the eligible organization; a statement that it
objects as described in § 147.132 or 147.133 to
coverage of some or all contraceptive services
(including an identification of the subset of
contraceptive services to which coverage the
eligible organization objects, if applicable) but
that it would like to elect the optional
accommodation process; the plan name and
type (that is, whether it is a student health
insurance plan within the meaning of
§ 147.145(a) or a church plan within the

162a
meaning of section 3(33) of ERISA); and the
name and contact information for any of the
plan’s health insurance issuers. If there is a
change in any of the information required to
be included in the notice, the eligible organization must provide updated information to
the Secretary of the Department of Health
and Human Services for the optional accommodation to remain in effect. The Department
of Health and Human Services will send a
separate notification to each of the plan’s
health insurance issuers informing the issuer
that the Secretary of the Deparement of
Health and Human Services has received a
notice under paragraph (d)(1)(ii) of this
section and describing the obligations of the
issuer under this section.
(2) If an issuer receives a copy of the selfcertification from an eligible organization or the
notification from the Department of Health and
Human Services as described in paragraph
(d)(1)(ii) of this section and does not have an
objection as described in § 147.132 or 147.133 to
providing the contraceptive services identified in
the self-certification or the notification from the
Department of Health and Human Services, then
the issuer will provide payments for contraceptive
services as follows—
(i) The issuer must expressly exclude
contraceptive coverage from the group health
insurance coverage provided in connection with
the group health plan and provide separate
payments for any contraceptive services required
to be covered under § 141.130(a)(1)(iv) for plan

163a
participants and beneficiaries for so long as they
remain enrolled in the plan.
(ii) With respect to payments for contraceptive
services, the issuer may not impose any costsharing requirements (such as a copayment,
coinsurance, or a deductible), premium, fee, or
other charge, or any portion thereof, directly or
indirectly, on the eligible organization, the group
health plan, or plan participants or beneficiaries.
The issuer must segregate premium revenue
collected from the eligible organization from the
monies used to provide payments for contraceptive services. The issuer must provide payments for contraceptive services in a manner that
is consistent with the requirements under
sections 2706, 2709, 2711, 2713, 2719, and 2719A
of the PHS Act. If the group health plan of the
eligible organization provides coverage for some
but not all of any contraceptive services required
to be covered under § 147.130(a)(1)(iv), the issuer
is required to provide payments only for those
contraceptive services for which the group health
plan does not provide coverage. However, the
issuer may provide payments for all contraceptive
services, at the issuer’s option.
(3) A health insurance issuer may not require any
documentation other than a copy of the self-certification from the eligible organization or the
notification from the Department of Health and
Human Services described in paragraph (d)(1)(ii)
of this section.
(e) Notice of availability of separate payments for
contraceptive services—insured group health plans

164a
and student health insurance coverage. For each plan
year to which the optional accommodation in
paragraph (d) of this section is to apply, an issuer
required to provide payments for contraceptive
services pursuant to paragraph (d) of this section
must provide to plan participants and beneficiaries
written notice of the availability of separate payments
for contraceptive services contemporaneous with (to
the extent possible), but separate from, any
application materials distributed in connection with
enrollment (or re-enrollment) in group health
coverage that is effective beginning on the first day of
each applicable plan year. The notice must specify
that the eligible organization does not administer or
fund contraceptive benefits, but that the issuer
provides separate payments for contraceptive
services, and must provide contact information for
questions and complaints. The following model
language, or substantially similar language, may be
used to satisfy the notice requirement of this
paragraph (e) “Your [employer/institution of higher
education] has certified that your [group health
plan/student health insurance coverage] qualifies for
an accommodation with respect to the Federal
requirement to cover all Food and Drug Administration-approved contraceptive services for women,
as prescribed by a health care provider, without cost
sharing. This means that your [employer/institution
of higher education] will not contract, arrange, pay, or
refer for contraceptive coverage. Instead, [name of
health insurance issuer] will provide separate
payments for contraceptive services that you use,
without cost sharing and at no other cost, for so long
as you are enrolled in your [group health plan/student

165a
health insurance coverage]. Your [employer/institution of higher education] will not administer or fund
these payments. If you have any questions about this
notice, contact [contact information for health
insurance issuer].”
(f) Reliance—
(1) If an issuer relies reasonably and in good faith
on a representation by the eligible organization as
to its eligibility for the accommodation in
paragraph (d) of this section, and the representation is later determined to be incorrect, the
issuer is considered to comply with any applicable
requirement under § 147.130(a)(1)(iv) to provide
contraceptive coverage if the issuer complies with
the obligations under this section applicable to
such issuer.
(2) A group health plan is considered to comply
with any applicable requirement under
§ 147.130(a)(1)(iv) to provide contraceptive coverage if the plan complies with its obligations under
paragraph (d) of this section, without regard to
whether the issuer complies with the obligations
under this section applicable to such issuer.
(g) Definition. For the purposes of this section,
reference to “contraceptive” services, benefits, or
coverage includes contraceptive or sterilization items,
procedures, or services, or related patient education
or counseling, to the extent specified for purposes of
§ 147.130(a)(1)(iv).
(h) Severability. Any provision of this section held to
be invalid or unenforceable by its terms, or as applied
to any person or circumstance, shall be construed so

166a
as to continue to give maximum effect to the provision
permitted by law, unless such holding shall be one of
utter invalidity or unenforceability, in which event
the provision shall be severable from this section and
shall not affect the remainder thereof or the application of the provision to persons not similarly situated
or to dissimilar circumstances.


167a
45 C.F.R. 147.132
Religious exemptions in connection with
coverage of certain preventive health services.
(a) Objecting entities.
(1) Guidelines issued under § 147.130(a)(1)(iv) by
the Health Resources and Services Administration must not provide for or support the requirement of coverage or payments for contraceptive
services with respect to a group health plan
established or maintained by an objecting organization, or health insurance coverage offered or
arranged by an objecting organization, to the
extent of the objections specified below. Thus the
Health Resources and Service Administration
will exempt from any guidelines’ requirements
that relate to the provision of contraceptive
services:
(i) A group health plan and health insurance
coverage provided in connection with a group
health plan to the extent the non-governmental
plan sponsor objects as specified in paragraph
(a)(2) of this section. Such non-governmental plan
sponsors include, but are not limited to, the
following entities—
(A) A church, an integrated auxiliary of a
church, a convention or association of
churches, or a religious order.
(B) A nonprofit organization.
(C) A closely held for-profit entity.
(D) A for-profit entity that is not closely held.

168a
(E) Any other non-governmental employer.
(ii) A group health plan, and health insurance
coverage provided in connection with a group
health plan, where the plan or coverage is
established or maintained by a church, an
integrated auxiliary of a church, a convention or
association of churches, a religious order, a
nonprofit organization, or other non-governmental organization or association, to the extent
the plan sponsor responsible for establishing
and/or maintaining the plan objects as specified
in paragraph (a)(2) of this section. The exemption
in this paragraph applies to each employer,
organization, or plan sponsor that adopts the
plan;
(iii) An institution of higher education as defined
in 20 U.S.C. 1002, which is non-governmental, in
its arrangement of student health insurance
coverage, to the extent that institution objects as
specified in paragraph (a)(2) of this section. In the
case of student health insurance coverage, this
section is applicable in a manner comparable to
its applicability to group health insurance
coverage provided in connection with a group
health plan established or maintained by a plan
sponsor that is an employer, and references to
“plan participants and beneficiaries” will be
interpreted as references to student enrollees and
their covered dependents; and
(iv) A health insurance issuer offering group or
individual insurance coverage to the extent the
issuer objects as specified in paragraph (a)(2) of
this section. Where a health insurance issuer

169a
providing group health insurance coverage is
exempt under this subparagraph (iv), the group
health plan established or maintained by the plan
sponsor with which the health insurance issuer
contracts remains subject to any requirement to
provide coverage for contraceptive services under
Guidelines issued under § 147.130(a)(1)(iv) unless
it is also exempt from that requirement.
(2) The exemption of this paragraph (a) will apply
to the extent that an entity described in
paragraph (a)(1) of this section objects, based on
its sincerely held religious beliefs, to its
establishing, maintaining, providing, offering, or
arranging for (as applicable):
(i) Coverage or payments for some or all contraceptive services; or
(ii) A plan, issuer, or third party administrator
that provides or arranges such coverage or
payments.
(b) Objecting individuals. Guidelines issued under
§ 147.130(a)(1)(iv) by the Health Resources and
Services Administration must not provide for or
support the requirement of coverage or payments for
contraceptive services with respect to individuals who
object as specified in this paragraph (b), and nothing
in § 147.130(a)(1)(iv), 26 CFR 54.9815–2713(a)(1)(iv),
or 29 CFR 2590.715–2713(a)(1)(iv) may be construed
to prevent a willing health insurance issuer offering
group or individual health insurance coverage, and as
applicable, a willing plan sponsor of a group health
plan, from offering a separate policy, certificate or
contract of insurance or a separate group health plan
or benefit package option, to any group health plan

170a
sponsor (with respect to an individual) or individual,
as applicable, who objects to coverage or payments for
some or all contraceptive services based on sincerely
held religious beliefs. Under this exemption, if an
individual objects to some but not all contraceptive
services, but the issuer, and as applicable, plan
sponsor, are willing to provide the plan sponsor or
individual, as applicable, with a separate policy,
certificate or contract of insurance or a separate group
health plan or benefit package option that omits all
contraceptives, and the individual agrees, then the
exemption applies as if the individual objects to all
contraceptive services.
(c) Definition. For the purposes of this section,
reference to “contraceptive” services, benefits, or
coverage includes contraceptive or sterilization items,
procedures, or services, or related patient education
or counseling, to the extent specified for purposes of
§ 147.130(a)(1)(iv).
(d) Severability. Any provision of this section held to
be invalid or unenforceable by its terms, or as applied
to any person or circumstance, shall be construed so
as to continue to give maximum effect to the provision
permitted by law, unless such holding shall be one of
utter invalidity or unenforceability, in which event
the provision shall be severable from this section and
shall not affect the remainder thereof or the
application of the provision to persons not similarly
situated or to dissimilar circumstances.


171a
45 C.F.R. § 147.133
Moral exemptions in connection with coverage
of certain preventive health services.
(a) Objecting entities.
(1) Guidelines issued under § 147.130(a)(1)(iv) by
the Health Resources and Services Administration must not provide for or support the requirement of coverage or payments for contraceptive
services with respect to a group health plan
established or maintained by an objecting organization, or health insurance coverage offered or
arranged by an objecting organization, to the
extent of the objections specified below. Thus the
Health Resources and Service Administration
will exempt from any guidelines’ requirements
that relate to the provision of contraceptive
services:
(i) A group health plan and health insurance
coverage provided in connection with a group
health plan to the extent one of the following nongovernmental plan sponsors object as specified in
paragraph (a)(2) of this section:
(A) A nonprofit organization; or
(B) A for-profit entity that has no publicly
traded ownership interests (for this purpose,
a publicly traded ownership interest is any
class of common equity securities required to
be registered under section 12 of the
Securities Exchange Act of 1934);
(ii) An institution of higher education as defined
in 20 U.S.C. 1002, which is non-governmental, in

172a
its arrangement of student health insurance
coverage, to the extent that institution objects as
specified in paragraph (a)(2) of this section. In the
case of student health insurance coverage, this
section is applicable in a manner comparable to
its applicability to group health insurance coverage provided in connection with a group health
plan established or maintained by a plan sponsor
that is an employer, and references to “plan
participants and beneficiaries” will be interpreted
as references to student enrollees and their
covered dependents; and
(iii) A health insurance issuer offering group or
individual insurance coverage to the extent the
issuer objects as specified in paragraph (a)(2) of
this section. Where a health insurance issuer
providing group health insurance coverage is
exempt under paragraph (a)(1)(iii) of this section,
the group health plan established or maintained
by the plan sponsor with which the health
insurance issuer contracts remains subject to any
requirement to provide coverage for contraceptive
services under Guidelines issued under
§ 147.130(a)(1)(iv) unless it is also exempt from
that requirement.
(2) The exemption of this paragraph (a) will apply
to the extent that an entity described in
paragraph (a)(1) of this section objects, based on
its sincerely held moral convictions, to its
establishing, maintaining, providing, offering, or
arranging for (as applicable):
(i) Coverage or payments for some or all
contraceptive services; or

173a
(ii) A plan, issuer, or third party administrator
that provides or arranges such coverage or
payments.
(b) Objecting individuals. Guidelines issued under
§ 147.130(a)(1)(iv) by the Health Resources and
Services Administration must not provide for or
support the requirement of coverage or payments for
contraceptive services with respect to individuals who
object as specified in this paragraph (b), and nothing
in § 147.130(a)(1)(iv), 26 CFR 54.9815–2713(a)(1)(iv),
or 29 CFR 2590.715–2713(a)(1)(iv) may be construed
to prevent a willing health insurance issuer offering
group or individual health insurance coverage, and as
applicable, a willing plan sponsor of a group health
plan, from offering a separate policy, certificate or
contract of insurance or a separate group health plan
or benefit package option, to any group health plan
sponsor (with respect to an individual) or individual,
as applicable, who objects to coverage or payments for
some or all contraceptive services based on sincerely
held moral convictions. Under this exemption, if an
individual objects to some but not all contraceptive
services, but the issuer, and as applicable, plan
sponsor, are willing to provide the plan sponsor or
individual, as applicable, with a separate policy,
certificate or contract of insurance or a separate group
health plan or benefit package option that omits all
contraceptives, and the individual agrees, then the
exemption applies as if the individual objects to all
contraceptive services.
(c) Definition. For the purposes of this section,
reference to “contraceptive” services, benefits, or
coverage includes contraceptive or sterilization items,
procedures, or services, or related patient education

174a
or counseling, to the extent specified for purposes of
§ 147.130(a)(1)(iv).
(d) Severability. Any provision of this section held to
be invalid or unenforceable by its terms, or as applied
to any person or circumstance, shall be construed so
as to continue to give maximum effect to the provision
permitted by law, unless such holding shall be one of
utter invalidity or unenforceability, in which event
the provision shall be severable from this section and
shall not affect the remainder thereof or the
application of the provision to persons not similarly
situated or to dissimilar circumstances.


175a
Excerpt from 83 Fed. Reg. 57592 (Nov. 15, 2018)
Moral Exemptions and Accommodations for
Coverage of Certain Preventative Services
Under the Affordable Care Act
I. Executive Summary and Background
A. Executive Summary
1. Purpose
The primary purpose of these final rules is to finalize,
with changes in response to public comments, the
interim final regulations with requests for comments
(IFCs) published in the Federal Register on October
13, 2017 (82 FR 47838), “Moral Exemptions and
Accommodations for Coverage of Certain Preventive
Services Under the Affordable Care Act” (the Moral
IFC). The rules are necessary to protect sincerely held
moral objections of certain entities and individuals.
The rules, thus, minimize the burdens imposed on
their moral beliefs, with regard to the discretionary
requirement that health plans cover certain contraceptive services with no cost-sharing, which was
created by HHS through guidance promulgated by the
Health Resources and Services Administration
(HRSA), pursuant to authority granted by the ACA in
section 2713(a)(4) of the Public Health Service Act. In
addition, the rules finalize references to these moral
exemptions in the previously created accommodation
process that permit entities with certain objections
voluntarily to continue to object while the persons
covered in their plans receive contraceptive coverage
or payments arranged by their issuers or third party
administrators. The rules do not remove the contraceptive coverage requirement generally from HRSA’s

176a
guidelines. The changes to the rules being finalized
will ensure clarity in implementation of the moral
exemptions so that proper respect is afforded to
sincerely held moral convictions in rules governing
this area of health insurance and coverage, with
minimal impact on HRSA’s decision to otherwise
require contraceptive coverage.
2. Summary of the Major Provisions
a. Moral Exemptions
These rules finalize exemptions provided in the Moral
IFC for the group health plans and health insurance
coverage of various entities and individuals with
sincerely held moral convictions opposed to coverage
of some or all contraceptive or sterilization methods
encompassed by HRSA’s guidelines. As in the Moral
IFC, the exemptions include plan sponsors that are
nonprofit organization plan sponsors or for-profit
entities that have no publicly traded ownership
interests (defined as any class of common equity
securities required to be registered under section 12
of the Securities Exchange Act of 1934). The
exemptions also continue to include institutions of
higher education in their arrangement of student
health insurance coverage; health insurance issuers
(but only with respect to plans that are otherwise also
exempt under the rules); and objecting individuals
with respect to their own coverage, where their health
insurance issuer and plan sponsor, as applicable, are
willing to provide coverage complying with the
individual’s moral objection. After considering public
comments, the Departments have decided not to
extend the moral exemptions to non-federal governmental entities at this time, although individuals

177a
receiving employer-sponsored insurance from a
governmental entity may use the individual exemption if the other terms of the individual exemption
apply, including that their employer is willing to offer
them a plan consistent with their moral objection.
In response to public comments, various changes are
made to clarify the intended scope of the language in
the Moral IFC’s exemptions. The prefatory exemption
language is clarified to ensure exemptions apply to a
group health plan established or maintained by an
objecting organization, or health insurance coverage
offered or arranged by an objecting organization, to
the extent of the objections. The Departments add
language to specify that the exemption for institutions of higher education applies to non-governmental entities. The Departments also modified
language describing the moral objection applicable to
the exemptions, to specify that the entity objects,
based on its sincerely held moral convictions, to its
establishing, maintaining, providing, offering, or
arranging for (as applicable) either: Coverage or
payments for some or all contraceptive services; or a
plan, issuer, or third party administrator that
provides or arranges such coverage or payments.
The Departments also clarify language in the
exemption applicable to plans of objecting individuals. The clarification is made to ensure that the
HRSA guidelines do not prevent a willing health
insurance issuer offering group or individual health
insurance coverage, and as applicable, a willing plan
sponsor of a group health plan, from offering a
separate policy, certificate or contract of insurance or
a separate group health plan or benefit package
option, to any group health plan sponsor (with respect

178a
to an individual) or individual, as applicable, who
objects to coverage or payments for some or all
contraceptive services based on sincerely held moral
convictions. The exemption adds that, if an individual
objects to some but not all contraceptive services, but
the issuer, and as applicable, plan sponsor, are willing
to provide the plan sponsor or individual, as
applicable, with a separate policy, certificate or
contract of insurance or a separate group health plan
or benefit package option that omits all contraceptives, and the individual agrees, then the
exemption applies as if the individual objects to all
contraceptive services.
b. References to Moral Exemptions in
Accommodation Regulations and in Regulatory
Restatement of Statutory Language
These rules finalize without change the references to
the moral exemptions that were inserted by the Moral
IFC into the rules that regulatorily restate the
statutory language from section 2713(a) and (a)(4) of
the Public Health Service Act. Similarly, these rules
finalize without change from the Moral IFC
references to the moral exemptions that were inserted
into the regulations governing the optional
accommodation process. These references operationalize the effect of the moral exemptions rule, and they
allow contraceptive services to be made available to
women if any employers with non-religious moral
objections to contraceptive coverage choose to use the
optional accommodation process.
*****


179a
Excerpt from 83 Fed. Reg. 57536 (Nov. 15, 2018)
Religious Exemptions and Accommodations for
Coverage of Certain Preventative Services
Under the Affordable Care Act
I. Executive Summary and Background
A. Executive Summary
1. Purpose
The primary purpose of this rule is to finalize, with
changes in response to public comments, the interim
final regulations with requests for comments (IFCs)
published in the Federal Register on October 13, 2017
(82 FR 47792), “Religious Exemptions and Accommodations for Coverage of Certain Preventive Services
Under the Affordable Care Act” (the Religious IFC).
The rules are necessary to expand the protections for
the sincerely held religious objections of certain
entities and individuals. The rules, thus, minimize
the burdens imposed on their exercise of religious
beliefs, with regard to the discretionary requirement
that health plans cover certain contraceptive services
with no cost-sharing, a requirement that was created
by HHS through guidance promulgated by the Health
Resources and Services Administration (HRSA)
(hereinafter “Guidelines”), pursuant to authority
granted by the ACA in section 2713(a)(4) of the Public
Health Service Act. In addition, the rules maintain a
previously created accommodation process that
permits entities with certain religious objections
voluntarily to continue to object while the persons
covered in their plans receive contraceptive coverage
or payments arranged by their health insurance
issuers or third party administrators. The rules do not

180a
remove the contraceptive coverage requirement
generally from HRSA’s Guidelines. The changes being
finalized to these rules will ensure that proper respect
is afforded to sincerely held religious objections in
rules governing this area of health insurance and
coverage, with minimal impact on HRSA’s decision to
otherwise require contraceptive coverage.
2. Summary of the Major Provisions
a. Expanded Religious Exemptions to the
Contraceptive Coverage Requirement
These rules finalize exemptions provided in the
Religious IFC for the group health plans and health
insurance coverage of various entities and individuals
with sincerely held religious beliefs opposed to
coverage of some or all contraceptive or sterilization
methods encompassed by HRSA’s Guidelines. The
rules finalize exemptions to the same types of
organizatons and individuals for which exemptions
were provided in the Religious IFC: Non-governmental plan sponsors including a church, an integrated auxiliary of a church, a convention or
association of churches, or a religious order; a
nonprofit organization; for-profit entities; an institution of higher education in arranging student
health insurance coverage; and, in certain circumstances, issuers and individuals. The rules also
finalize the regulatory restatement in the Religious
IFC of language from section 2713(a) and (a) (4) of the
Public Health Service Act.
In response to public comments, various changes are
made to clarify the intended scope of the language in
the Religious IFC. The prefatory language to the
exemptions is clarified to ensure exemptions apply to

181a
a group health plan established or maintained by an
objecting organization, or health insurance coverage
offered or arranged by an objecting organization, to
the extent of the objections. The Departments add
language to clarify that, where an exemption
encompasses a plan or coverage established or maintained by a church, an integrated auxiliary of a
church, a convention or association of churches, a
religious order, a nonprofit organization, or other nongovernmental organization or association, the exemption applies to each employer, organization, or plan
sponsor that adopts the plan. Language is also added
to clarify that the exemptions apply to nongovernmental entities, including as the exemptions
apply to institutions of higher education. The Departments revise the exemption applicable to health
insurance issuers to make clear that the group health
plan established or maintained by the plan sponsor
with which the health insurance issuer contracts
remains subject to any requirement to provide coverage for contraceptive services under Guidelines
issued under § 147.130(a)(1)(iv) unless it is also
exempt from that requirement. The Departments also
restructure the provision describing the religious
objection for entities. That provision specifies that the
entity objects, based on its sincerely held religious
beliefs, to its establishing, maintaining, providing,
offering, or arranging for either: coverage or
payments for some or all contraceptive services; or, a
plan, issuer, or third party administrator that
provides or arranges such coverage or payments.
The Departments also clarify language in the
exemption applicable to plans of objecting individuals. The final rule specifies that the individual

182a
exemption ensures that the HRSA Guidelines do not
prevent a willing health insurance issuer offering
group or individual health insurance coverage, and as
applicable, a willing plan sponsor of a group health
plan, from offering a separate policy, certificate or
contract of insurance or a separate group health plan
or benefit package option, to any group health plan
sponsor (with respect to an individual) or individual,
as applicable, who objects to coverage or payments for
some or all contraceptive services based on sincerely
held religious beliefs. The exemption adds that, if an
individual objects to some but not all contraceptive
services, but the issuer, and as applicable, plan
sponsor, are willing to provide the plan sponsor or
individual, as applicable, with a separate policy,
certificate or contract of insurance or a separate group
health plan or benefit package option that omits all
contraceptives, and the individual agrees, then the
exemption applies as if the individual objects to all
contraceptive services.
b. Optional Accommodation
These rules also finalize provisions from the Religious
IFC that maintain the accommodation process as an
optional process for entities that qualify for the
exemption. Under that process, entities can choose to
use the accommodation process so that contraceptive
coverage to which they object is omitted from their
plan, but their issuer or third party administrator, as
applicable, will arrange for the persons covered by
their plan to receive contraceptive coverage or
payments.
In response to public comments, these final rules
make technical changes to the accommodation regu-

183a
lations maintained in parallel by HHS, the
Department of Labor, and the Department of the
Treasury. The Departments modify the regulations
governing when an entity, that was using or will use
the accommodation, can revoke the accommodation
and operate under the exemption. The modifications
set forth a transitional rule as to when entities
currently using the accommodation may revoke it and
use the exemption by giving 60-days notice pursuant
to Public Health Service Act section 2715(d)(4) and 45
CFR147.200(b), 26 CFR 54.9815-2715(b), and 29 CFR
2590.715-2715(b). The modifications also express a
general rule that, in plan years that begin after the
date on which these final rules go into effect, if
contraceptive coverage is being offered by an issuer or
third party administrator through the accommodation process, an organization eligible for the
accommodation may revoke its use of the accommodation process effective no sooner than the first day of
the first plan year that begins on or after 30 days after
the date of the revocation.
The Departments also modify the Religious IFC by
adding a provision that existed in rules prior to the
Religious IFC, namely, that if an issuer relies
reasonably and in good faith on a representation by
the eligible organization as to its eligibility for the
accommodation, and the representation is later determined to be incorrect, the issuer is considered to
comply with any applicable contraceptive coverage
requirement from HRSA’s Guidelines if the issuer
complies with the obligations under this section
applicable to such issuer. Likewise, the rule adds preexisting “reliance” language deeming an issuer
serving an accommodated organization compliant

184a
with the contraceptive coverage requirement if the
issuer relies reasonably and in good faith on a
representation by an organization as to its eligibility
for the accommodation and the issuer otherwise
complies with the accommodation regulation, and
likewise deeming a group health plan compliant with
the contraceptive coverage requirement if it complies
with the accommodation regulation.
*****

